<html>
<title> - RUNAWAY, HOMELESS, AND MISSING CHILDREN: PERSPECTIVES ON HELPING THE NATION'S VULNERABLE YOUTH</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                     RUNAWAY, HOMELESS, AND MISSING 
                   CHILDREN: PERSPECTIVES ON HELPING 
                     THE NATION'S VULNERABLE YOUTH 

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON HEALTHY
                        FAMILIES AND COMMUNITIES

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JULY 24, 2007

                               __________

                           Serial No. 110-57

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html

                     U.S. GOVERNMENT PRINTING OFFICE

36-729 PDF                 WASHINGTON DC:  200?
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001
























                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Ranking Minority Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            Dean Heller, Nevada
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director
                                 ------                                

            SUBCOMMITTEE ON HEALTHY FAMILIES AND COMMUNITIES

                 CAROLYN McCARTHY, New York, Chairwoman

Yvette D. Clarke, New York           Todd Russell Platts, Pennsylvania,
Carol Shea-Porter, New Hampshire       Ranking Minority Member
Dennis J. Kucinich, Ohio             Howard P. ``Buck'' McKeon, 
Raul M. Grijalva, Arizona                California
John P. Sarbanes, Maryland           Kenny Marchant, Texas
Jason Altmire, Pennsylvania          Luis G. Fortuno, Puerto Rico
John A. Yarmuth, Kentucky            David Davis, Tennessee
                                     Dean Heller, Nevada





















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 24, 2007....................................     1

Statement of Members:
    Altmire, Hon. Jason, a Representative in Congress from the 
      State of Pennsylvania, prepared statement of...............    71
    McCarthy, Hon. Carolyn, Chairwoman, Subcommittee on Healthy 
      Families and Communities, Committee on Education and Labor.     1
        Prepared statement of....................................     3
    Platts, Hon. Todd Russell, Senior Republican Member, 
      Subcommittee on Healthy Families and Communities, Committee 
      on Education and Labor.....................................     3
        Prepared statement of....................................     4

Statement of Witnesses:
    Alberts, Beth, CEO, Texas Center for the Missing.............    41
        Prepared statement of....................................    42
        Additional materials submitted...........................    47
    Allen, Ernie, president and CEO, National Center for Missing 
      and Exploited Children.....................................    35
        Prepared statement of....................................    36
    Berg, Steven R., vice president for programs and policy, 
      National Alliance to End Homelessness......................    27
        Prepared statement of....................................    29
    Booker, Rusty, formerly homeless youth.......................    23
        Prepared statement of....................................    25
        Additional material submitted............................    26
    Krahe-Eggleston, Sue, executive director, Our Family.........    11
        Prepared statement of....................................    13
    Rolle, Chris ``Kazi,'' creator, Art Start's Hip-Hop Project..     7
        Prepared statement of....................................     9
        Additional material submitted............................    11


                     RUNAWAY, HOMELESS, AND MISSING
                   CHILDREN: PERSPECTIVES ON HELPING
                     THE NATION'S VULNERABLE YOUTH

                              ----------                              


                         Tuesday, July 24, 2007

                     U.S. House of Representatives

            Subcommittee on Healthy Families and Communities

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 3:05 p.m., in 
Room 2175, Rayburn House Office Building, Hon. Carolyn McCarthy 
[chairwoman of the subcommittee] presiding.
    Present: Representatives McCarthy, Grijalva, Sarbanes, 
Yarmuth, Lampson, Platts, and Biggert.
    Staff present: Aaron Albright, Press Secretary; Tylease 
Alli, Hearing Clerk; Jody Calemine, Labor Policy Deputy 
Director; Carlos Fenwick, Policy Advisor, Subcommittee on 
Health, Employment, Labor and Pensions; Michael Gaffin, Staff 
Assistant, Labor; Lamont Ivey, Staff Assistant, Education; 
Brian Kennedy, General Counsel; Deborah Koolbeck, Policy 
Advisor, Subcommittee on Healthy Families and Communities; 
Lisette Partelow, Staff Assistant, Education; James Bergeron, 
Minority Deputy Director of Education and Human Services 
Policy; Robert Borden, Minority General Counsel; Kathryn Bruns, 
Minority Legislative Assistant; Cameron Coursen, Minority 
Assistant Communications Director; Kirsten Duncan, Minority 
Professional Staff Member; Taylor Hansen, Minority Legislative 
Assistant; Susan Ross, Minority Director of Education and Human 
Resources Policy; and Linda Stevens, Minority Chief Clerk/
Assistant to the General Counsel.
    Chairwoman McCarthy [presiding]. A quorum is present. The 
hearing of the subcommittee will come to order.
    Pursuant to committee rule 12-A, any member may submit an 
opening statement in writing, which will be made part of the 
permanent record.
    Before we begin, I would like everyone to take a moment to 
ensure that your cell phones and BlackBerrys are on ``silent.''
    I would now like unanimous consent to allow the 
distinguished gentleman from Texas, Mr. Lampson, to be allowed 
to join us on the dais today and participate in the hearing.
    Without objection, so ordered.
    I now recognize myself, followed by the Ranking Member, Mr. 
Platts, from Pennsylvania, for an opening statement.
    I am pleased to welcome you all to the Subcommittee on 
Healthy Families and Communities hearing on runaway, homeless 
and missing children.
    I would like to thank the ranking member, Mr. Platts, for 
his interest in this important subject.
    I would also like to thank my two colleagues on the Healthy 
Families Subcommittee, Mr. Grijalva and Mr. Yarmuth, for their 
dedication to the issues of runaway and homeless children.
    Mr. Grijalva has taken the lead and urged the appropriation 
to increase funds for runaway and homeless youth programs, with 
success, this year. Mr. Yarmuth recently held a town-hall to 
illuminate the issues of runaway and homeless youth in his 
district in Kentucky.
    We are lucky to have such passionate members on this 
subcommittee, and I look forward to hearing from the witnesses 
from your districts today.
    Later, we would also like to welcome a visitor to hearing 
today, Mr. Lampson from Texas. We are glad that he will be able 
to join us later. Mr. Lampson has been personally dedicated to 
this issue for the last 10 years. He founded the Congressional 
Missing and Exploited Children's Caucus, which now has over 130 
members. Mr. Lampson remains the champion of missing and 
exploited children in Congress.
    We are here today to learn about runaway, homeless and 
missing children and gain perspectives on how we can help these 
young people as we begin the reauthorization process.
    Although there are no exact figures for the number of 
runaway and homeless youth in our nation, in 2002 1.6 million 
young people between the ages of 12 to 17 ran away from home 
and slept in exposed or poorly sheltered locations.
    Runaways may find shelter with a friend or member of the 
community, but for the children who find themselves on the 
street, food, shelter, health care, and personal safety needs 
are not met. Studies of runaway and homeless youth show high 
rates of emotional and mental health problems. According to the 
Basic Center Program and Transitional Living Program in 2006, 
29 percent were identified as having mental health issues upon 
exiting care.
    In addition, many of the young people who enter shelters 
have a history with the juvenile justice system, on which we 
had a hearing just a few weeks ago. These issues are all 
related, as we have a juvenile correction system that fails to 
protect youth from shelters and streets.
    Runaway children may fall into the missing children 
category. A study funded by the Department of Justice found 
that nearly all of the 1.3 million children who went missing in 
1999 were reunited with their caretakers.
    We will learn of the grassroots activities on these issues, 
which includes collaboration between those who assist runaway 
and homeless youth and those who locate missing children.
    However, not every child was reunited with caretakers, and 
that is why we have AMBER alerts, the National Center for 
Missing and Exploited Children, a Task Force on Internet Crimes 
Against Children and Law Enforcement Training Center.
    Today's topics are difficult. I am looking forward to 
learning what we do for our runaway, homeless and missing 
children and recommendations on what we can do through 
reauthorization to better serve these young people.
    I want to thank all of you for taking the time to be here 
this afternoon.
    And now I yield to Ranking Member Platts for his opening 
statement.
    [The statement of Mrs. McCarthy follows:]

 Prepared Statement of Hon. Carolyn McCarthy, Chairwoman, Subcommittee 
                  on Healthy Families and Communities

    I am pleased to welcome you to the Subcommittee on Healthy Families 
and Communities hearing on runaway, homeless, and missing children.
    I would like to thank the Ranking Member, Mr. Platts for his 
interest in this important hearing.
    I would also like to thank my two colleagues on the Healthy 
Families Subcommittee, Mr. Grijalva and Mr. Yarmuth for the dedication 
to issues of runaway and homeless children.
    Mr. Grijalva has taken the lead and urged the appropriations to 
increase funds for runaway and homeless youth programs, with success 
this year.
    Mr. Yarmuth recently held a town hall to illuminate the issues of 
runaway and homeless youth in his district in Kentucky.
    We are lucky to have such passionate members on this subcommittee, 
and I look forward to hearing from the witnesses from your districts 
today.
    I would like to welcome a visitor to our hearing today, Mr. Lampson 
from Texas. We are glad that you could join us today. Mr. Lampson has 
been personally dedicated to this issue to for the last ten years. He 
founded the Congressional Missing and Exploited Children Caucus, which 
now has over 130 members. Mr. Lampson remains the champion of missing 
and exploited children in Congress.
    We are here today to learn about runaway, homeless, and missing 
children, and gain perspectives on how we can help these young people 
as we begin the reauthorization process.
    Although there no exact figures for the number of runaway and 
homeless youth in our nation, in 2002, 1.6 million young people between 
the ages of 12 to 17 ran away from home and slept in exposed or poorly 
sheltered locations.
    Runaways may find shelter with a friend or member of the community, 
but for the children who find themselves on the street, food, shelter, 
healthcare, and personal safety needs are not met. Studies of runaway 
and homeless youth show high rates of emotional and mental health 
problems. According to the Basic Center Program and Transitional Living 
Program in 2006, 29 per cent were identified as having mental health 
issues upon exiting care.
    In addition, many of the young people who enter shelters have a 
history with the Juvenile Justice system, on which we had a hearing a 
week and a half ago. These issues are all related, as we have a 
juvenile correction system that fails to protect youth from shelters 
and streets.
    Runaway children may fall into the missing children category.
    A study funded by the Department of Justice found that nearly all 
of the 1.3 million children who went missing in 1999 were reunited with 
their caretakers.
    We will learn of the grassroots activity on these issues, which 
includes collaboration between those who assist runaway and homeless 
youth and those who locate missing children. However, not every child 
was reunited with caretakers, and that is why we have AMBER alerts, the 
National Center for Missing and Exploited Children, a task force on 
internet crimes against children, and law enforcement training center.
    Today's topics are difficult. I am looking forward to learning what 
we do for our runaway, homeless, and missing children, and 
recommendations on what we can do through reauthorization, to better 
serve these young people.
                                 ______
                                 
    Mr. Platts. Thank you, Madam Chair.
    I will submit a formal statement for the record, and first 
just want to commend you for your continuing leadership on 
issues of importance to our youth, throughout our nation and 
here, especially dealing with runaway, homeless and missing 
children. Your hosting this hearing is going to allow us as a 
committee to be that much better informed and better prepared 
as we go into the reauthorization process. So thank you for 
your leadership.
    I also want to reference Mrs. Biggert from Illinois, who is 
also co-chair of the Missing and Exploited Children's Caucus 
and has been a great leader on these issues for us on the 
Republican side.
    And, Judy, we are glad to have you here with us, as well.
    To our witnesses, each of you bring what will be invaluable 
knowledge to be shared with us. Through your written testimony 
that you provided and your oral testimony here today, your life 
experiences, your expertise in this area is so critical for us 
being better informed.
    I look at our job as Congress men and women as being kind 
of general practitioner. We need to know a little bit about 
everything and, as an issue is moving forward, become experts 
on a few things. And, on this committee, dealing with the needs 
of our nation's children is one of those areas where we are 
charged with being more experts. The way we become more expert 
on these issues is through information shared with us, such as 
you are going to do today.
    So I sincerely thank each of you for being here and for 
making time in your schedules to participate to help us have 
the knowledge we need to do right by our nation's children and 
look forward to your testimony.
    Thank you, Madam Chair.
    [The statement of Mr. Platts follows:]

   Prepared Statement of Hon. Todd Russell Platts, Senior Republican 
        Member, Subcommittee on Healthy Families and Communities

    Good afternoon. I'd like to welcome each one of you to this hearing 
entitled ``Runaway, Homeless, and Missing Children: Perspectives on 
Helping the Nation's Vulnerable Youth.'' This is the third hearing in a 
series which we have held that examine the programs authorized by the 
Juvenile Justice and Delinquency Prevention Act (JJDPA). The Runaway 
and Homeless Youth Act and the Missing Children's Assistance Act are 
Titles III and IV respectively of JJDPA.
    The Runaway and Homeless Youth Act authorizes three grant programs 
to meet the needs of homeless youth. The first, the Basic Center 
Program, provides emergency short-term shelter for youth, as well as 
food, clothing, counseling, and referrals for health care. The second 
program, the Transitional Living Program, assists older homeless youth 
in developing skills to promote their independence and prevent future 
dependency on social services. The final program authorizes funding for 
Maternal Group Homes, which provide a range of services for young 
mothers such as childcare, education, job training, and advice on 
parenting to promote their well-being and success as a parent.
    The Missing Children's Assistance Act coordinates the various 
federal missing children's programs though the Department of Justice's 
Office of Juvenile Justice and Delinquency Prevention. In addition, it 
authorizes the National Center for Missing and Exploited Children, 
which provides assistance to families and law enforcement officials to 
help reunite families.
    Today, I look forward to hearing from our panel of expert witnesses 
and learning what their assessments are of the current programs. In 
Pennsylvania, 40 percent of individuals who become homeless during any 
given year are youths. It is vital that we provide support early to 
homeless youth to get them on a path of responsible independence and 
decrease their risk of entering the juvenile justice system.
    Finally, I would like to thank all of the panelists were joining us 
today. With that, I yield back to Chairwoman McCarthy.
                                 ______
                                 
    Chairwoman McCarthy. Thank you, Mr. Platts.
    And, again, welcome Ms. Biggert. We appreciate you being 
here.
    And, also, Mr. Lampson is here.
    Without objection, all members will have 14 days to submit 
additional materials or questions for the hearing record.
    Today we will hear from a panel of witnesses.
    Your testimonies will proceed in the order of your 
introduction.
    Our first witness, Mr. Chris--I am going to pronounce this 
wrong--``Kazi'' Rolle, comes to us as one of two voices of 
experience on our panel about homelessness. However, he will 
also have a message of hope and growth to share through his 
work on Art Start's Hip-Hop Project, an after-school program 
for teens which teaches them to turn their life experiences 
into art through hip-hop. He also has worked on the Hip-Hop 
Project, which can be seen in the documentary by the same name, 
with all profits going to support organizations working with 
young people.
    Now I wish to recognize the distinguished gentleman from 
Arizona, Mr. Grijalva, to introduce the next witness, Ms. Sue 
Krahe-Eggleston from Arizona.
    Mr. Grijalva. Thank you very much, Madam Chair and Ranking 
Member Platts, for holding this very important hearing.
    Today, it is my distinct honor and pleasure to introduce a 
fellow Tucsonan, Sue Krahe-Eggleston, who is director of Our 
Family Services back home in Tucson. This service, Our Family, 
provides a comprehensive range, Madam Chair, of services 
addressing the needs of at-risk youth, children, families, 
seniors and works with neighborhoods.
    For the past 16 years, Sue, in her capacity as executive 
director, has helped define back home for the community the 
needs and the attention and the resources that youth in our 
community need. For that, we are very grateful for her 
leadership and for her very strong advocacy.
    She is nationally renowned and recognized as an advocate 
for children and family social services and currently serves as 
a board member of the National Network for Youth. It is my 
honor to introduce her.
    Thank you very much, Madam Chair, and look forward to the 
testimony of all our witnesses and welcome them, as well.
    I yield back.
    Chairwoman McCarthy. And I thank you.
    Now I wish to recognize the distinguished gentleman from 
Kentucky, Mr. Yarmuth, to introduce the next witness, Mr. Rusty 
Booker.
    Mr. Yarmuth. Thank you, Madam Chair.
    It is my distinct privilege today to introduce a young man 
of incredible strength and courage, Rusty Booker.
    I met Rusty about 3 weeks ago at a forum I hosted on 
disconnected youth in our mutual hometown of Louisville, 
Kentucky. Rusty spoke of his experience with abuse, how he ran 
away at age 12 and about his placement in five different foster 
homes.
    The power of his story comes not simply from the hand that 
he was dealt but the way that he played it. So often, when we 
think of disconnected youth, we think, often correctly, of 
helplessness and victimization.
    But this exceptional young man has long since left behind 
helplessness and the role of a victim. After a childhood of 
neglect, he took control of his life, set himself on a path 
toward adult success.
    He is determined to get a high school degree and join the 
police force. Also, at the age of 17, he has dedicated himself 
to helping others who suffered like he did, reaching out to 
kids on the street.
    Rusty is the success story. I thank him for being here to 
share his story. He has demonstrated an awful lot of courage in 
his life and today is one more chapter in displaying courage.
    I also want to thank Safe Place for ensuring he could be 
here today.
    I yield back.
    Chairwoman McCarthy. Thank you.
    Our next witness, Mr. Steve Berg, is the vice president for 
programs and policy of the National Alliance to End 
Homelessness. Prior to coming to Washington, Mr. Berg spent 14 
years as a legal service attorney. Mr. Berg will speak to us 
today about what the research on runaway and homeless youth 
tells us.
    Mr. Yarmuth from Kentucky will also introduce our next 
witness, Mr. Ernie Allen.
    Mr. Yarmuth. Thank you again, Madam Chair. It is my big day 
here today. Big day for Louisville, too.
    You would be hard pressed to find someone who so 
consistently has shown more devotion to the nation's missing 
and exploited children than the next witness to be introduced.
    My friendship with Ernie Allen goes back many years, to his 
time in Louisville. He has always shown a selfless dedication 
to serving our community as our city's director of health and 
public safety, director of our county crime commission and now, 
as founder, president and CEO of the National Center for 
Missing & Exploited Children.
    He serves all our communities today, having helped recover 
well over 100,000 missing children, increasing the recovery 
rate from 62 percent in 1990 to 96 percent today. Not despite, 
but because of, his success, Ernie knows as well as anyone the 
vast challenges still ahead of us.
    And so, Madam Chair, it is my honor to introduce a true 
humanitarian and an example for all of us, my friend, Ernie 
Allen.
    Chairwoman McCarthy. Thank you very much.
    Now I wish to recognize the distinguished gentleman from 
Texas and our guest today, Mr. Lampson, to introduce the next 
witness, Ms. Beth Alberts.
    Mr. Lampson. Thank you, Madam Chair, and I certainly thank 
you for allowing me to participate in the hearing today.
    As founder and co-chair of the Congressional Caucus on 
Missing and Exploited Children, thanks to the suggestion from 
Ernie Allen a number of years back, I really am pleased to be 
able to welcome Beth Alberts here.
    Beth is the CEO of Texas Center for the Missing. It is a 
not-for-profit organization, established in 2000 by Houston 
executive Doreen Wise in memory of her son, Gabriel, after his 
4-month disappearance and tragic loss. The center has one goal: 
to keep vulnerable children and adults safe.
    And since July 2001, Ms. Alberts has served as the director 
of the Houston Regional AMBER Plan, the largest regional AMBER 
Alert system in the country.
    Ms. Alberts also serves as the coordinator for both the 
Southeast Texas Child Abduction Response team, which is a 
multi-jurisdictional, multi-discipline team of 70 different 
agencies prepared to respond to endangered/missing child cases, 
and the Southeast Texas Search and Rescue Alliance, a 
consortium of volunteer search and rescue teams and missing 
children's organizations, providing support to law enforcement 
agencies and families of the missing.
    Ms. Alberts serves as the secretary of the board of AMECO, 
Inc.--it is an international consortium of missing children's 
organizations--and is a board member of the Harris County 
Department of Education's Safe and Secure Schools and sits on 
the Children's Assessment Center Partnership Council.
    A busy, busy lady, one that we have tremendous appreciation 
for her for caring, for her willingness to help and give back 
so much of herself and for being here today.
    Welcome.
    And, thank you, Madam Chair.
    Chairwoman McCarthy. And I thank you.
    For those of you that have not testified before, you will 
see in front of you a lighting system. Each witness will be 
able to speak for 5 minutes. The warning lights are green. 
Then, when you have yellow, you have a minute left. When it 
turns red, I will let you go a little bit, but if you go too 
long, you will hear a light tapping, which will get louder.
    That goes the same for the members sitting at the dais. 
Especially for us, right?
    The first witness we want to hear from is Mr. Rolle, if you 
would?

 STATEMENTS OF CHRIS ``KAZI ROLLE'', CREATOR, ART START'S HIP-
                          HOP PROJECT

    Mr. Rolle. Mike check, one, two, one, two. Peace and love.
    My name is Kazi, also known as Chris Rolle. I was born on a 
little island called Nassau, in the Bahamas. My mother was a 
Jamaican immigrant who was trying to get to America, because it 
was easier for a Bahamian to get to America than coming 
straight from Jamaica.
    At 6 months of age, she left on that journey and left me 
with her friend. Her friend and her husband were very abusive. 
And I lived there for 4 years. And at 4 years old, I was found 
wandering the streets, and, subsequently, the Department of 
Social Services in the Bahamas took me out of that home and 
placed me in the Children's Emergency Hostel for orphans.
    Catherine Brown, who was a social worker there, she and I 
developed a relationship, and in 1982 I was fostered by her and 
her family. And the adjustment was very difficult. I had 
numerous behavioral problems. I always like to say she tried to 
give me heaven and I gave her hell.
    But she trucked on with me, and I was officially adopted in 
1988, on November 4th, still posing a lot of behavioral 
challenges. And the family didn't have the know-how or the 
resources to provide me with the emotional healing and help 
that I needed.
    And, in 1990, I was forced to have to go back to the 
orphanage. And in the orphanage, all the boys in my room, we 
got in trouble and we were asked to leave the orphanage. Some 
kids were adopted, and I went on to a psychiatric ward for 
unruly children.
    While I was there, the psychiatrist, his analysis came to 
the conclusion that a lot of the stuff I was dealing with was 
based on the fact that I missed my mother. I couldn't 
understand why these strangers were doing so much for me and my 
own mother could give me away.
    So we contacted the American embassy, sent a letter to her 
and found that she wanted me. We sent a one-way ticket, and I 
came here on December 22nd, to America, in 1990.
    We had a tumultuous reunion, and I found myself 2 years 
later on the streets of Brooklyn. Wherever I laid my head was 
my home, and got in a lot of trouble.
    I was involved in street pharmaceutical corporations and 
family organizations that were one color, if you understand 
what I am saying. And they were my family.
    After being incarcerated a few times, I decided that I 
needed to get my life together, and I leaned on the people and 
the resources that I knew. I was a part of a theater company 
called Tomorrow's Future Theater Company, Elaine Robinson, and 
she helped me to get into a school called Public School 
Repertory Company, which was a last-chance high school for kids 
who were interested in the arts.
    There I found a guy by the name of Scott Rosenberg, who 
founded an organization called Art Start, which was an arts 
education organization. And he just gave me the opportunity to 
just use my voice and use music and art. And I found that it 
was really a healing tool, to be able to put my life and all 
the things I was going through in music and art.
    I created a play called ``Brooklyn Story,'' and I shared it 
with people across the tri-state, and it moved a lot of young 
people. And just to put it out there, I think that was the 
beginning of my healing and a change for my life.
    Scott also supported me in creating my own program, because 
I made a commitment that I have got to give back. I understand 
what these kids are going through and I understand the journey, 
now. And I need to give back the same way that there were 
people along the way that took the time out to give to me.
    In 1995, I appeared on numerous shows for just gaining all 
these awards and recognition for doing all of this work. In 
2000, I made it all the way to the Oprah Winfrey Show, to 
basically just say that this young brother has overcome some 
obstacles and was once homeless and now speaks at Harvard and 
across the world about how hip-hop can really heal and change 
lives.
    In 2007, this year, May 11th, a movie was released, 
executive produced by Bruce Willis and Queen Latifah, that 
chronicled my journey and the creation of this program, and a 
lot of lives were moved based on that.
    I am here today to just basically say that the step-
parents, the organizations like Art Start, like the Hip-Hop 
Project, Network for Youth, all of the programs across the 
country that are trying to really reach our missing children, 
kids like myself, who were homeless and living in orphanages, 
they need the resources.
    They need the resources to do this work, because I could 
have been that kid crawling through somebody's window or 
robbing somebody, because when you don't have, you have to try 
to get it by any means necessary. And the only reason there was 
a change in my life, because there were programs and there were 
people and institutions that had some type of resources and a 
heart to try to help me.
    And those people need the resources and help to continue to 
do that work, because all young people need a place to call 
home.
    [The statement of Mr. Rolle follows:]

          Prepared Statement of Chris ``Kazi'' Rolle, Creator,
                      Art Start's Hip-Hop Project

    I was born in a little Island called Nassau in the Bahamas. My 
mother was a Jamaican immigrant who was trying to get to Amercia via 
the Bahamas , due the fact there were less obstacles for Bahamians 
seeking to come to United States than there were for people coming from 
here country.
    At 6months old, my mother left me in the care of friends to venture 
to the United States in hopes of opportunity. She had left three kids 
before with my grandmother in Jamaica. She never returned for me. In 
1980, the Bahamian Department of Social Services substantiated reports 
that I was living in an abusive situation. At four years old, I was 
found wandering in the streets of and was subsequently 
institutionalized at the Children's Emergency Hostel for orphans.
    Catherine Brown, a social worker at the hostel, developed a 
relationship with me and in 1982, I was fostered by here and her 
family. The adjustment was very difficult--they said that I presented 
numerous behavioral problems at home and in school, as I could not 
understand how strangers could love me when my own mother abandoned 
him. Thank fully Mrs. Brown trucked on. I was officially adopted on 
November 4th 1988.
    I still got into a lot of trouble and posed ongoing challenges. Due 
to lack of the proper resource to help me with my emotional issues, the 
family came their wits end in dealing with me. In 1990, I was placed in 
the Ranfurly Home for Children. While in the Ranfurly Home, I was 
placed in a psychiatric ward for unruly children. It was determined by 
the Department of Social Services that my challenges were directly 
related to my early childhood experiences--as a result, the American 
Embassy was contacted to locate my biological mother and on December 
21, 1990, reunited with her in New York City, USA.
    From 1990-1992, I's relationship with my biological mother was 
highly tumultuous. By 1992, at age 16, I found himself homeless once 
again, on the streets of New York City. From 1992-1994, Wherever I laid 
my head was my home. Gangs were my family. Warm train station was my 
apartment. Street Pharmaceutical Corporations became was my employers. 
Five discount was how I shopped for clothing. It was all bout survival. 
I found my self incarserated numerous time. I was on a road to nowhere. 
All the people who said that I wouldn't amount to nothing were being 
proved right.
    In 1994, at age 18, I finally decided to get my life together. I 
enrolled in Public School Repertory Company, a ``last chance'' 
performing arts high school and I discovered that I had a passion for 
music and theatre, and realized the power of the arts as an outlet for 
healing. I wrote a play based on my life story called a Brooklyn Story.
    At Public School Repertory, I connected with Art Start--an arts-
based youth organization he also began writing, directing and acting 
for the award winning urban theater company, Tomorrow's Future. My 
play, A Brooklyn Story, earned me a New York Governor's Citation and a 
Martin Luther King, Jr. Award. In 1995, I received the CBS Fulfilling 
the Dream Award for my play and my work in schools and homeless 
shelters advocating education and drug abuse prevention.
    In 1999, having personally experienced the healing power of the 
arts, I chose to dedicate my life to providing a similar outlet for 
under-served youth. I created The Hip Hop Project, an award-winning 
program that connects New York City teens to music industry 
professionals to write, produce and market their own compilation album 
on youth issues. The program attracted Russell Simmons and Bruce 
Willis, whose support contributed largely the success of the program. 
In 2000 I was featured on the Oprah Winfrey Show in a segment called 
People Who Are Using Their Lives. In 2005 he passed the torch of 
leadership of the Hip Hop Project one of my students, and joined the 
organization's Board of Trustees.
    I say all of this to say that I was that kid. Homeless. No where to 
go. Pocket had rabbit ears. I had nothing. I was at the bottom. Rock 
bottom. Being homeless. Not have a family. Not having resources, 
influenced my choices. If no one was there to give it to me, I am going 
to have to take it. Steal it. Whatever. By any means necessary. You 
feel me?
    We need more support for the programs like Art Start, Tomorrow's 
Future theater group, The Hip Hop Project and all of the wonderful 
people who take their time to help people like myself.
    We also need to get the word out in a big way to caring community 
members, parents, and young people themselves that millions of youth 
experience homelessness in the United States each year. All of the step 
and extend family members who step up to the plate, they need all the 
support, resources and services available to assist them. These 
programs, families and those working to bring about awareness 
desperately need federal funding, cause these are expensive 
undertakings. Every youth in the nation deserves a place to call home.
                                 ______
                                 
    [Additional material submitted by Mr. Rolle follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
                                ------                                

    Chairwoman McCarthy. I thank you for that testimony.
    Mrs. Eggleston?

   STATEMENT OF SUE KRAHE-EGGLESTON, EXECUTIVE DIRECTOR, OUR 
                        FAMILY SERVICES

    Ms. Krahe-Eggleston. Good afternoon.
    In addition to serving as the Our Family executive 
director, I am also a member of the board of directors of the 
National Network for Youth, the nation's leading organization 
on youth homelessness. I am testifying on behalf of both 
organizations today.
    Our Family delivers the full continuum of runaway and 
homeless youth programs, including a street outreach program, a 
drop-in center, a shelter and family reunification program for 
minor-age youth, a transitional living program for older youth 
and supervised apartments for homeless young families.
    My agency could not offer this programming without the 
federal RHY funds. Arizona only appropriates a small amount of 
targeted money for homeless youth, but many states do nothing. 
The national system of support for this population is wholly 
reliant on federal funds. Accordingly, RHY must be 
reauthorized.
    In addition, Congress should raise authorization and 
appropriation levels, both to start new programs in underserved 
communities, as well as provide a cost of living increase to 
current grantees, which have operated at the same funding 
levels year after year after year, despite inflation.
    The causal factors for homelessness among young people in 
Tucson match those across the country. Our agency has supported 
youth in all manners of dire circumstances, and I want to give 
you some examples.
    There is a 14-year-old boy named John, who felt safer 
living in a tunnel than with his abusive parents. Then, there 
is a 16-year-old gay young person by the name of Paul dropped 
off at our shelter by his mom, with his belongings in a plastic 
bag, saying to us, ``Take him.''
    Then think about Angie, a young mom standing outside the 
hospital in Tucson with her four-pound little infant, not 
knowing where she was going to go. Then, lastly, there is 
Precious, a 21-year-old mom of two, living in her car because 
the children's father had been incarcerated.
    These are all stories of Tucson, but they could be stories 
of any community across our country.
    Yet we also see incredible resilience in our youth, young 
people whose running away is an expression of their most basic 
right to survive, young people seeking better options, young 
people craving for caring adults and supportive peers for the 
first time, or longing to mend those old family ties.
    Our Family helps youth tap their inherent strength and 
mobilize those assets for the youth's recovery and ultimate 
well-being.
    Now, turning to policy considerations, my written statement 
includes 18 of the RHY reauthorization recommendations that the 
National Network of Youth has put together. They are the 
outcome of a consultation process we took with the grantee 
community.
    I will mention just two. First, we recommend the act 
require a process for developing performance standards for RHY 
programs so that all grantees would work towards common 
performance expectations. Secondly, RHY grantees seek a process 
to request reconsideration of unsuccessful applications when 
there is a good cause.
    We look forward to working with Representative Yarmuth and 
the subcommittee leadership in developing the RHY 
reauthorization bill. To complement RHY, we call on Congress to 
pass measures that respond to the needs of homeless youth, 
which surpass the scope of the RHY.
    Among them, Congress should pass Representative Biggert's 
forthcoming Homeless Education Bill. Also, Congress should pass 
H.R. 601, the Homeless Student Aid Bill.
    RHY programs have never intended to be the tools to end 
youth homelessness. The act forms the safety net for 
unaccompanied youth and must be continued, with increased 
funding. But if we are to prevent and end youth homelessness, 
we must go way beyond RHY.
    We need more publicly funded resources for family substance 
abuse, mental health and strengthening of family services. We 
need a child welfare systems that permits youth to remain in 
care until they research the developmental age of adulthood, 
rather than the artificial legal age of majority.
    We need to support reentry of youthful offenders, such as 
the one that Representative Grijalva will be proposing. 
Permanent housing targeted to youth is also required.
    We are pleased to support Representative Hinojosa's 
forthcoming Place to Call Home Act. It contains the solutions I 
just identified and much, much more. It is a policy blueprint 
for preventing and ending youth homelessness. We call on 
Congress to follow its design.
    Youth-serving organizations, young people and concerned 
community members will continue to fight for the day when there 
will be indeed a place to call home for all youth. Until then, 
the Runaway and Homeless Youth Act must remain available for 
the millions of young people in America each year without a 
safe place to live.
    And I thank you.
    [The statement of Ms. Krahe-Eggleston follows:]

     Prepared Statement of Sue Krahe-Eggleston, Executive Director,
                               Our Family

Part I--About Our Family
    Sue Krahe-Eggleston is the Executive Director of Our Family, a 
community-based organization in Tucson, Pima County Arizona which 
offers services in four main areas, including youth services. Youth 
programs include street outreach, youth center, shelter, and 
transitional living for runaway and homeless youth.
Part II--Unaccompanied Youth Primer
    Runaway and homeless youth are the most vulnerable of our nation's 
disconnected youth. Between one million and three million U.S. youth 
experience an unaccompanied situation annually. Unaccompanied youth 
become detached from parents, guardians and other caring adults due to 
a combination of family and community stressors. Data specific to Pima 
County also point to large numbers of homeless, at-risk youth in the 
region, with the same causal factors and risk factors as their peers 
nationally.
Part III--Runaway and Homeless Youth Act Reauthorization
    The federal Runaway and Homeless Youth Act (RHYA) has established 
funding streams to support outreach, family reunification, shelter, and 
transitional living programs targeted to unaccompanied youth, all in an 
effort to provide a basic level of support for these vulnerable young 
people regardless of the state in which they are living.
    Federal RHYA programs are a substantial and reliable funding stream 
to Our Family and other RHYA grantees. For organizations in many 
states, RHYA funds are the only resources available explicitly to serve 
unaccompanied youth. RHYA is the sole federal law targeted solely to 
unaccompanied youth. Without RHYA, many unaccompanied youth in 
communities across the nation would go completely without support.
    Our Family urges Congress to reauthorize and strengthen the 
programs and authorities of the Runaway and Homeless Youth Act. We 
offer 18 recommendations for RHYA reauthorization. These 
recommendations were identified after an intensive consultation process 
with the RHYA grantee community convened by the National Network for 
Youth, the membership association of RHYA agencies.
Part IV--Beyond RHYA
    The Runaway and Homeless Youth Act, while a critical federal law 
that must be continued and fully funded, is no substitute for the 
aggressive interventions necessary to eliminate the very factors 
causing unaccompanied situations among millions of the nation's youth, 
or to respond to the resources and services needs of currently 
unaccompanied youth that surpass the scope and purpose of the Act. We 
call for action in juvenile justice, elementary and secondary 
education, postsecondary education, workforce investment, and other 
areas. We support the Place to Call Home Act.
Part I--About Our Family
    Our Family makes Southern Arizona a better place to live, to grow 
up, and to grow older with a continuum of services to people in every 
stage of life. Last year, more than 29,000 at-risk children, youth, 
families, seniors and disabled adults used our services, which include 
counseling, education and mediation, housing, mediation and help for 
people in crisis.
    Our Family provides services in four main areas--counseling, 
education and prevention, youth services, and services to older and 
disabled adults.
    Our youth services include:
    <bullet> Teens in Transition helps homeless and near-homeless youth 
13-21 stay in school and gain the skills to succeed, through case 
management, counseling, education and career planning, housing, and 
help with basic needs.
    <bullet> Reunion House offers brief-stay shelter, respite and 
family reunification services to youth ages 12-17, including systems 
youth who are awaiting placement and homeless youth who want to come 
off the street.
    <bullet> CommonUnity is a complex of safe, supervised apartments 
and a community of support for homeless young mothers ages 18-21 with 
up to two children. Life-skills classes and case management help 
residents break cycles of poverty and crisis and create a support 
network among themselves.
    <bullet> Skrappy's is a drug- and alcohol-free youth center. Young 
people from all backgrounds participate in youth-led media arts and 
theater projects, dance classes, health fairs, volunteer projects and 
community activism, as well as concerts.
    <bullet> Street Outreach goes where homeless, runaway and street 
youth gather and helps them come off the streets.
    Of the more than 29,000 individuals who used Our Family's services 
last year, six percent were age 12 or under, 54 percent were 13-17, 16 
percent were 18-21, 18 percent were 22-59, and 6 percent were 60 or 
older.
    Our Family is a $4.2 million organization with 100 employees, as 
well as an active corps of volunteers. It is accredited by the Council 
on Accreditation of Services for Families and Children Inc. and 
licensed as a behavioral healthcare institution by the Arizona 
Department of Health Services. Services are available in English and 
Spanish.
    Our Family, created in October 2005 by the merger of Family 
Counseling Agency and OUR TOWN, has a combined history of more than 75 
years of service to the greater Tucson community.
    Our Family invites Members of Congress and Congressional staff in 
Arizona or visiting the Tucson area to visit our agency. For more 
information, please visit www.ourfamilyservices.org or call (520) 323-
1708.
Part II--Unaccompanied Youth Primer
            Unaccompanied Youth Basics
    Runaway and homeless youth are the most vulnerable of our nation's 
``disconnected'' youth. We refer to these two populations collectively 
as ``unaccompanied youth.'' Like other disconnected youth, 
unaccompanied youth experience separation from one or more of the key 
societal institutions of family, school, community, and the workplace. 
Their disconnection is accentuated by their lack of a permanent place 
to live, which is not only disruptive in and of itself, but also 
indicative of the larger socioeconomic instability they are 
experiencing.
    Between one million and three million of our nation's youth 
experience an unaccompanied situation annually, according to various 
estimates derived from government studies and data sets. Some of these 
estimates do not include young adults ages 18 and older within their 
scope.
    Unaccompanied youth become detached from parents, guardians and 
other caring adults--legally, economically, and emotionally--due to a 
combination of family and community stressors.
    Family Stressors--Many of our nation's unaccompanied youth are 
compelled to leave their home environments prematurely due to severe 
family conflict, physical, sexual, or emotional abuse by an adult in 
the home, parental neglect, parental substance abuse, or parental 
mental illness. For other youth, the values and traditions with which 
their families operate prescribe that the young person separate 
economically from the family unit upon reaching of majority or after 
graduation, in some cases regardless of whether the youth is actually 
prepared for independent adulthood. Others are expelled from the home 
due to parental inability to accept the sexual orientation, parenting 
status, mental or addictive disability, or normal adolescent behavior 
of their child. For still other young people, their families are simply 
too poor to continue to bear the financial burden of providing for the 
youth's basic needs. Others are abandoned as their parents are 
incarcerated. Youth in families that are experiencing homelessness may 
be separated from the family unit--and become homeless on their own--so 
that emergency shelter or domestic violence services can be secured for 
the remaining family members, or to squeeze most of the family into 
means of habitation that are too small for all of its members.
    Community Stressors--State custodial systems--including child 
welfare, juvenile justice, mental health, addiction treatment, and 
developmental disabilities--which have responsibility for ensuring the 
safety and protection of children and youth who are not properly cared 
for by parents and guardians--are failing in general to accept older 
youth into their custody due to financial limitations and policy 
disincentives. Many of the young people who do come in contact with 
public custodial systems are not adequately prepared for independence 
and residential stability during their period of custody nor provided 
an aftercare arrangement to support them after the custodial 
relationship has ended. Many of these young people have no home 
environment to which to return. Youth with mental illness, addiction, 
and other disabilities face discrimination when searching for an 
independent living arrangement.
    Many unaccompanied youth who are psychosocially prepared for 
independent adulthood are not economically ready for self-sufficiency. 
Inadequate educational preparation, lack of employment skills, short or 
non-existent work histories, language barriers, and undocumented 
immigration status all contribute to the relegation of many youth to 
unemployment or to low-wage jobs--neither of which generate income 
sufficient for acquiring affordable housing.
    Policy barriers also stand in the way of permanency for 
unaccompanied youth. In some jurisdictions, youth below the age of 
majority are prohibited from entering into leases or other contracts on 
their own behalf. ``One strike'' laws prohibit individuals with 
criminal histories from residency in public and assisted housing and 
prohibit juvenile ex-offenders from returning to their families. And, 
federal, state, and local public and assisted housing programs rank 
young people low, if at all, among their priority populations for 
assistance.
    Regardless of the causal factor, unaccompanied youth, when left to 
fend for themselves without support, experience poor health, 
educational, and workforce outcomes which imperil their prospects for 
positive adulthood. This results in their long-term dependency on or 
involvement in public health, social service, emergency assistance, and 
corrections systems.
Youth Homelessness in Arizona and in Pima County
            Youth Homelessness in Arizona
    According to the U.S. Department of Health and Human Services, 
National Extranet Optimized Runaway and Homeless Youth Management 
Information System (NEO-RHYMIS), 943 youth were involved with Runaway 
and Homeless Youth Act emergency (BCP) and transitional (TLP) programs 
in Arizona in the 2004-2005 federal fiscal year. Of this population, 67 
percent were white, 6 percent were American Indian, 0.42 percent were 
Asian, 10 percent were African American, 0.32 percent were Native 
Hawaiian or other Pacific Islander, and 16 percent did not report 
racial information. Within the population of those reporting ethnicity 
(804), 14 percent were Hispanic. 42 percent were male and 58 percent 
were female. Girls are more prevalent in every age group of youth 
except for youth under the age of 12, where there are more boys than 
girls. The vast majority (81 percent) of Arizona youth who receive 
services through a BCP or TLP in that same time period entered the 
program from a private residence; more than half of these youth came 
from the home of a parent or legal guardian. Two percent of youth came 
from correctional institutions, two percent came from residential 
programs, four percent came from other shelters, two percent came from 
other living situations, less than one percent came from the military, 
and 10 percent came from the streets. 53 percent were attending school 
regularly, and 3 percent had already graduated or obtained a GED. The 
rest were not regularly attending school. 24 youth seeking BCP or TLP 
services in Arizona were turned away during this time period.
            Youth Homelessness in Pima County
    Data specific to Pima County also point to the large numbers of 
homeless, at-risk youth in our region. Pima County demonstrates a 
number of factors that indicate significant need for the proposed 
services. First, there is a high number of runaways in our county. In 
2003, 3,036 runaways were reported in Pima County, accounting for 20 
percent of all juvenile crime reported. This number amounts to two 
percent of Pima County's total juvenile population. Second, runaways 
face a pervasive drug economy in our region. The county lies 70 miles 
from the Mexican border in a high impact drug corridor. Drugs flow 
across the border and are distributed nationwide. Runaway and homeless 
youth, always at risk for involvement in drug use and drug sales, are 
at an especially high risk in Pima County.
    Tucson's need for Runaway and Homeless Youth services is further 
demonstrated by a Homeless Youth Survey administered in the spring of 
2005 by the Tucson Planning Council for the Homeless Youth Committee 
and Arizona State University's School of Social Work. Information was 
gathered through 30 minute in-person and telephone interviews using an 
18 page questionnaire that covered the following domains: demographics; 
housing and living situations; education; employment and income 
sources; sexual orientation, practices and risk behaviors and abuse; 
physical health, mental health, and substance abuse; use of, access to, 
and knowledge about community services, modes of transportation, social 
networks and personal issues; and personal/familial legal concerns. In 
total 458 surveys were completed. The information obtained indicates, 
from the youth themselves, what are the most pressing issues for 
Tucson's runaway and homeless youth. (Homeless in Tucson by LeCroy and 
Milligan, 2005.)
    Homeless youth interviewed ranged from 13-18 years old and were 
predominantly Hispanic/Latino/a or white, heterosexual, non-married and 
female. The majority of youth (76 percent) lived in Tucson before 
becoming homeless. Over 60 percent of the youth had been homeless at 
least twice during their young lives, with an average 3.5 times in 
2005, up from 1.92 times in 2002. Over half of the youth had spent at 
least one year of their life homeless and, at the time of the survey, 
half had been homeless for more than 180 days. The average age at which 
youth first became homeless was 14. Nine percent self-reported 
homosexuality and 7 percent reported bisexuality. The main reasons 
cited for leaving home the first time included running away because of 
problems (24 percent), being removed by Child Protective Services (21 
percent), and being kicked out or told to leave the home (20 percent). 
Over 75 percent of the youth said they would not continue to be 
homeless if they had a choice.
    Forty percent of the youth spent the night prior to the interview 
at a friend's house, 14 percent spent the night in an unstable 
environment (e.g., park, wash, car, street, backyard), and 13 percent 
spent the night at a family member's house. Notably, 10 percent of the 
youth did not know where they would be sleeping the night of the 
interview. Half of the youth (50 percent) were currently enrolled in 
school or some other type of educational/training program, down 
slightly from 2002 when 56 percent of youth surveyed were enrolled in 
school and/or an educational program. Of those not currently attending 
school, the main reasons reported were lack of a permanent address and/
or difficulties with transportation.
    Many of the youth had experienced significant trauma before age 18, 
and were still suffering its effects. 63 percent reported experiencing 
verbal/emotional abuse, 52 percent said they had witnessed domestic 
violence occur in their household, 50 percent reported witnessing drug/
alcohol abuse, 44 percent reported experiencing physical abuse, 42 
percent experienced neglect, and 25 percent reported being sexually 
abused (19 percent of females, 6 percent of males) before the . When 
asked whether abuse/neglect was ever a factor in their leaving home, 60 
percent of the youth said yes. Alarmingly, 28 percent said that they 
had attempted suicide in the past, up from 19.5 percent in 2002. These 
statistics substantiate the tenuous, high-risk situation that faces RHY 
in Tucson, the risk factors they face for having unsuccessful 
adulthoods, and the critical nature of getting services to them.
Our Family's Homeless Youth Profile
    Data collected on homeless clients who received case management 
services at Our Family between 7/1/05 and 6/30/06 (n=82) reflect 
similar patterns to the County and the State. The average number of 
runaway episodes was four. The current status of youth entering the 
program included: 35 percent at home; 35 percent runaway; 17 percent 
homeless; 9 percent throwaway, 8 percent other/street. Substance use 
was a prevalent problem indicated at intake: 35 percent smoke 
cigarettes; 55 percent use beer, wine or wine coolers; 45 percent use 
hard liquor; 35 percent had 5 or more servings of alcohol on the same 
occasion; 40 percent use marijuana; 10 percent use cocaine; 10 percent 
use methamphetamines, 5 percent use over the counter drugs above 
recommended dosage; 2 percent use inhalants; 40 percent use alcohol and 
marijuana on the same occasion; 5 percent used two or more drugs 
(excluding alcohol and tobacco) on the same occasion; 30 percent have 
been asked to sell drugs and 12 percent have sold drugs. Approximately 
30 percent of the youth said they had been physically abused by a 
parent or guardian. 5 percent reported being sexually abused by parents 
and another 12 percent reported being sexually abused by a parent's 
partner. Almost all of them listed emotional abuse, and 30 percent said 
that a household member abused alcohol or drugs. In addition 30 percent 
had poor grades in school, 60 percent had been charged with a 
misdemeanor, 5 percent with a felony, and 26 percent were depressed.
Trends in Homeless Youth Population Observed by Our Family
    Our Family's Reunion House Basic Center Program (RH) has seen 
double the number of youth 12-17 who are school dropouts at intake. 
These young people have been absent from educational services often for 
a semester or more and as such are a grade or two behind their peers. A 
number of these youth profess to have no desire to continue their 
education, seeing school as a useless and stressful environment.
    Our Family's Teens In Transition TLP (TNT) has noted a continuing 
high demand from couples coming in for services where the female is 
significantly younger than the male. Because of the male partner's age 
these couples are unable to access housing options and homeless couples 
services targeted to underage youth. There appears to be no defined 
reason for this shift but it is noteworthy and provides a considerable 
challenge when attempting to provide housing for these individuals and 
their children.
    Our Family's CommonUnity TLP (CUP) has continued to see increasing 
numbers of 22-24 year old mothers and their infant children on street 
who are coming in to seek services. CUP must turn these mothers away, 
as they are too old for the program. They are referred out to other 
providers who often have considerable waiting lists or are limited in 
their effectiveness with younger adults. Domestic and Relationship 
Violence issues remain prevalent, with approximately 92 percent of the 
young parents coming into CUP dealing with the effects of relationship 
and domestic violence in their lives.
    The Street Outreach Program (SO) continued to see an increase in 
the number of youth dealing with death or loss of a parent or guardian 
in their lives due to substance abuse. In many cases these issues 
directly relate to the initial destabilization of the youth with their 
families.
    The Homeless Youth Services at Our Family continued to see a steady 
increase in the numbers of Lesbian, Gay, Bisexual, and Transgender 
(LGBT) youth requesting services. This is due in part to increased 
awareness through outreach to LGBT organizations as well as 
establishing a positive rapport and reputation among LGBT youth. This 
also highlights the number of LGBT youth who run away, are kicked out, 
or who otherwise become homeless and need the services we offer.
    CommonUnity and Teens in Transition Programs have seen increases in 
the number of parenting youth that have inquired about transitional/
independent living services.
    Tucson youth service providers also report an explosion of 
methamphetamine use--a trend mirrored nationally.
Barriers Facing Pima County Homeless Youth
    The Homeless Youth Committee of the Pima County, Arizona Plan to 
End Homelessness has identified the following major barriers that 
impede homeless youth in their transition back to permanent housing and 
to successful adulthoods. (Plan to End Homelessness, Pima County, 
Arizona, Spring 2006.)
    <bullet> While Tucson's youth services are extensive, they are not 
enough to meet these needs. Homeless youth ages 18 through 24 have few, 
if any, emergency and transitional housing options. Whether they are 
``legally'' adults (i.e. over 18) or not, Pima County homeless youth 
are at best uncomfortable, and at worst subject to victimization, in 
adult shelters or service environments.
    <bullet> Youth of all ages have almost no affordable addiction 
treatment options: in part because there is little funding to serve 
them, in part because agencies which do offer youth treatment are 
oversubscribed, and in part because youth simply do not feel 
comfortable engaging in therapeutic environments with older adults.
    <bullet> LGBT youth, many of whom have already been victimized, 
have no dedicated, safe emergency or transitional housing alternatives.
    <bullet> And all youth making a transition to independence need 
serious--and now seriously underfunded--life and job skills training, 
adequate housing, and often counseling.
    Our Family has identified the following additional barriers, based 
on our observation of the daily struggles of our residents and program 
participants:
    <bullet> Some homeless youth and young adults are unable to access 
HUD-funded homeless assistance services because their homeless living 
arrangement, usually ``couch surfing,'' does not qualify as 
``homeless'' under the HUD definition.
    <bullet> Many of our participants are unable to pursue the 
postsecondary education and training they desire--and that is 
imperative to move them to high-wage employment in high-growth 
sectors--because they must forego education in order to maintain 
employment, which is their sole source of income.
    <bullet> Homeless young families expend considerable resources on 
childcare; subsidized child care slots are precious in our community.
    <bullet> Permanent housing to which our youth may transition is in 
short supply. Youth and young adults are low on priority lists, or even 
the community's radar screen as a subpopulation in need of housing 
assistance.
    <bullet> Youth access to mental health services is a major 
challenge; there is simply insufficient publicly funded mental health 
treatment and support options for adolescents and for adults.
    <bullet> Reentry of youth offenders into the community is uneven, 
and certainly far behind in program development compared to the system 
of support for transitioning foster youth.
Runaway and Homeless Youth Act Program Basics
    The federal government, through the Runaway and Homeless Youth Act 
(RHYA) has established funding streams to support outreach, family 
reunification, shelter, and transitional living programs targeted to 
unaccompanied youth, all in an effort to provide a basic level of 
support for these vulnerable young people regardless of the state in 
which they are living. RHYA programs have the purposes of preventing 
victimization and ensuring basic safety of unaccompanied youth and 
ensuring their access to family reunification, housing, education, 
employment training, health care, and other social services.
    The RHYA Basic Center Program (BCP) provides grants to community-
based, faith-based, and public organizations to support family 
strengthening efforts, including counseling, home-based services for 
families with children at risk of separation from the family, and 
emergency and respite shelter (no greater than 15 days) for youth under 
the .
    The RHYA Transitional Living Program (TLP) provides competitive 
grants to community-based, faith-based, and public organizations to 
support longer-term residential services (up to 18 months) and life 
skill supports to youth ages 16 through 21 who are unable to return 
home safely. TLPs assist youth in successfully transitioning into 
responsible adulthood and self-sufficiency and connecting them to 
education, workforce, and other supports. This program includes 
maternity group homes, which are residential arrangements for pregnant 
and parenting youth who are fleeing from abusive homes. Maternity group 
homes assist these youth in accessing housing, prenatal care, parenting 
classes, child care, and educational services.
    The RHYA Street Outreach Program (SOP) provides competitive grants 
to community-based and faith-based organizations to support street-
based outreach and education to homeless children and youth who have 
been sexually abused or who are at risk of commercial sexual 
exploitation.
    RHYA basic centers and transitional living projects serve nearly 
50,000 youth in all 50 states. RHYA street outreach projects make over 
2.3 million contacts with youth annually.
    The Runaway and Homeless Youth Act also authorizes funds for the 
National Runaway Switchboard, a national communications system for 
runaway youth and their families; regional training and technical 
assistance for grantees; an information clearinghouse; a management 
information system; research and evaluation; and peer monitoring of 
grantees.
    Congress first enacted the Runaway and Homeless Youth Act in 1974 
as Title III of the Juvenile Justice and Delinquency Prevention Act. It 
was most recently reauthorized in 2003. RHYA programs are administered 
by the Family and Youth Services Bureau within the U.S. Department of 
Health and Human Services (HHS).
Part III--Runaway and Homeless Youth Act Reauthorization
            Need for the Runaway and Homeless Youth Act
    Federal RHYA programs are a substantial and reliable funding stream 
to Our Family and other RHYA grantees. For organizations in many 
states, RHYA funds are the only resources available to serve 
unaccompanied youth explicitly. More important, they are the sole 
federal programs targeted to unaccompanied youth. Without RHYA, many 
unaccompanied youth in communities across the nation would go 
completely without support.
    More RHYA Capacity is Needed across the Nation. The basic living 
needs of too many of our nation's unaccompanied youth are not being met 
through state and local child welfare systems or permanent housing and 
homeless assistance programs. Furthermore, few states have established 
funding streams targeted to unaccompanied youth. RHYA basic center and 
transitional living projects served approximately 55,000 youth in FY 
2005, yet estimates of the U.S. unaccompanied youth population are one 
million at minimum, suggesting that at least approximately 950,000 of 
the nation's unaccompanied youth are not able to access RHYA services.
Effectiveness of the Runaway and Homeless Youth Act
    RHYA Projects are Cost Effective Alternatives to Custodial Care and 
Arrest. The average cost of serving a youth in a transitional living 
project of $11,877 is less than half the minimum cost of serving youth 
through the child welfare or juvenile justice systems, with annual 
costs ranging from $25,000--$55,000 per youth depending on the state. 
Law enforcement officials are the referral source for 20 percent of 
youth entering basic centers.
    RHYA Projects Use Federal Funds to Leverage Community Resources. 
RHYA projects succeed due to partnerships created among families, 
schools, community-based organizations, faith communities, law 
enforcement agencies, businesses and volunteers.
    RHYA Projects Raise the Achievement Level of Unaccompanied Youth. 
The last federally-funded evaluations of the Basic Center Program and 
the Transitional Living Program found that they produced positive 
outcomes for participating youth in the following areas:
Family Strengthening
    <bullet> Basic center youth reported lessened rates of family 
conflict and parental physical abuse.
    <bullet> Transitional living youth reported that the program helped 
them better manage communication and maintain positive relationships 
with their families.
Education
    <bullet> School participation among basic center youth doubled 
after basic center services commenced, compared to the participation 
rate 30 days prior to accessing a basic center.
    <bullet> The proportion of youth in transitional living projects 
attending college was three times that of homeless youth who were not 
in a TLP.
Employment
    <bullet> Employment rates of youth in basic centers increased by 24 
percent.
    <bullet> 60 percent of transitional living youth were employed 
part-time or full-time, compared to 41 percent of homeless youth not 
participating in a TLP.
Runaway and Homeless Youth Act Reauthorization Recommendations
    The Runaway and Homeless Youth Act is scheduled to sunset in 2008 
and merits extension. In addition, new issues affecting unaccompanied 
youth and unaccompanied youth service providers have emerged that 
require a Congressional response. Our Family urges Congress to 
reauthorize and strengthen the programs and authorities of the Runaway 
and Homeless Youth Act in a timely manner. We offer the following 
recommendations for RHYA reauthorization. These recommendations were 
identified after an intensive consultation process with the RHYA 
grantee community.
Funding
    1. Reauthorize and increase authorization levels for Runaway and 
Homeless Youth Act programs. The runaway and homeless youth 
consolidated account should be authorized at the $200 million level in 
FY 2009 and ``such sums as may be necessary'' in each of FY 2010 
through FY 2013. The runaway prevention account should be authorized at 
the $30 million level in FY 2009 and ``such sums as may be necessary'' 
in each of FY 2010 through FY 2013.
    Funding levels for RHYA programs are inadequate for meeting the 
need for such services. With estimates of unaccompanied youth at the 
low-end of one million, and the RHYA basic center and transitional 
living programs reaching only 55,000 youth annual, at least 900,000 of 
the nation's unaccompanied youth do not have access to the supports and 
services that RHYA programs offer. For these unserved youth, their 
unaccompanied episodes are prolonged; they are at heightened risk of 
victimization, poor health, school failure, and unemployment; and they 
are thwarted from attaining safe, productive, and healthy adulthoods.
    2. Increase the RHYA Basic Center Program allotments for small 
states and for territories. The minimum BCP allotment for states with 
small youth populations should be increased to $200,000. The maximum 
BCP allotment for U.S. territories should be increased to at least 
$100,000.
    BCP formula allotments to states with small youth populations are 
limited to $100,000. This amount makes it difficult for HHS to fund 
more than one basic center in each such state, even though the 
geographic swath of many such states tends to be wide. BCP allotments 
to territories are limited to $40,000. This amount is hardly enough to 
act even as seed money for basic centers in territories to leverage 
non-RHYA funds.
    3. Permit HHS to redistribute unexpended BCP funds to other BCP 
applicants for a one-year grant period, after which time the amount 
should be returned to the BCP general pool for re-allocation. RHYA 
grantees and applicants would benefit from greater transparency and 
standardization in the manner in which HHS reallocates ``unrequested'' 
BCP allotments from states lacking applicants to ``excess'' BCP 
applicants from states with qualified applicants requesting a total of 
funds that exceed the state's allotment.
            RHYA Project Admission and Length of Stay Criteria
    4. Limit basic centers to providing shelter services to individuals 
who are years of age, with an exception that basic centers located in 
states with child-caring facility licensure laws that permit a higher 
age may serve up to the age permitted by the state law. RHYA grantees 
and applicants would benefit from clarification on the maximum age of 
youth permitted to receive emergency shelter through a basic center. 
The current RHYA permits basic centers to provide emergency shelter to 
youth ``not more than ,'' which some interpret to mean ages 17 and 
under and others interpret to mean through age 18. To resolve confusion 
in the field, we recommend that the maximum age for emergency shelter 
services through a BCP be extended to youth ``who are years of age,'' 
which is in alignment with the maximum age used in the formula for 
allocating BCP funds. However, grantees should be given the discretion 
to serve youth over age 17 if the child-caring facility licensure law 
in which the basic center is located permits a higher age.
    5. Allow extensions in length of stay in basic centers from 14 days 
to up to 30 days and in transitional living projects from 18 months 
through 24 months, on a case-by-case basis, provided that the state 
child-caring facility licensure law applicable to the basic center 
permits a longer length of stay. RHYA grantees report difficulty in 
ensuring safe exists for some of their program participants within the 
timeframes required by current law. The grantees then find themselves 
in the situation of either keeping the participant at the basic center 
or transitional living project with other than federal funds, or 
triggering an unsafe exit by the youth. Providing grantees limited 
flexibility to keep some of their participants in service beyond the 
target exit period would allow a greater level of individualized 
support for those unaccompanied youth at greatest risk of unsafe 
program exits.
            RHYA Applicant Eligibility, Use of Funds, and Funding 
                    Conditions
    6. Add public entities as eligible applicants for Street Outreach 
Program funds. Eligibility for the Street Outreach Program (SOP) is 
limited to private nonprofit organizations, whereas public 
organizations as well as private nonprofit organizations may apply for 
BCP and TLP funds. Extending SOP eligibility to public organizations 
would provide public entities receiving either BCP and/or TLP funds the 
opportunity to build a longer continuum of RHYA services by also 
competing for SOP funds.
    7. Clarify that RHYA funds are to be distributed to organizations 
and not directly to program participants. The President's FY 2007 
budget request included a proposal to reserve a portion of Transitional 
Living Program (TLP) funds for vouchers directly to participants to 
purchase maternity group home services on their own. Appropriations 
Committees in both chambers the 109th Congress, in consultation with 
their authorization committee counterparts, concluded that a voucher 
arrangement was neither contemplated by the statute nor in the best 
interest of either the pregnant and parenting youth or unaccompanied 
youth service providers. Accordingly, the committees rejected the 
proposal in report language to accompany the FY 2007 Labor-HHS-
Education appropriations bills. Current law should be amended to 
clarify that RHYA funds are to be made available for distribution to 
organizations and not directly to program participants.
    8. Allow transitional living projects to use RHYA funds for 
facility renovation. Renovation costs should not exceed 15 percent of 
the total first-year award. The current RHYA permits use of BCP funds 
for facility renovation, but does not permit TLP funds to be used for 
facility renovation. A parallel use of funds for renovation should be 
extended to TLP grantees.
    9. Require basic centers and transitional living projects to have 
in place written emergency management and crisis response plans as a 
condition for receiving federal RHYA awards. Hurricanes Katrina and 
Rita focused national attention on the need to ensure more effective 
responses to emergencies and crises, including by congregate care 
providers. The 109th Congress recently amended the Older Americans Act 
and the Promoting Safe and Stable Families Act to ensure that 
federally-funded congregate care providers funded through these 
programs have emergency management and crisis plans in place. A 
parallel requirement should be established for RHYA basic centers and 
transitional living projects.
            Federal Program Management
    10. Require HHS to develop performance standards for RHYA direct 
service grantees. The HHS Secretary shall provide an opportunity for 
public comment on the performance standards. At one time, HHS had 
developed program performance standards for basic centers, and was in 
process of developing program performance standards for TLP and SOP 
grantees. These standards provided guidance to grantees on the minimum 
expectations of program performance. HHS has suspended standards 
development or activation lacking clear instruction in the RHYA statute 
to support them.
    11. Require HHS to develop a process for accepting and considering 
appeals for reconsideration from unsuccessful RHYA applicants. The HHS 
Secretary shall provide an opportunity for public comment on the 
appeals process. The RHYA statute does not prescribe, and HHS has not 
established, an orderly process for accepting or considering appeals 
for reconsideration from unsuccessful RHYA applicants. Lack of a formal 
process has led to lack of transparency whether or how reconsiderations 
are made.
    12. Add a finding on the applicability of positive youth 
development to the organization and delivery of services to 
unaccompanied youth. Inclusion of a finding on positive youth 
development in the RHYA statute is important for encouraging grantees 
to apply youth development principles to the development and 
implementation of their projects.
    13. Add a statutory definition of ``runaway youth'' identical to 
the definition of such term in the Code of Federal Regulations. The 
RHYA statute does not include a definition of ``runaway youth.'' 
However that term is defined in the Code of Federal Regulations (45 CFR 
1351.1) as ``a person under who absents himself or herself from home or 
place of legal residence without the permission of his or her family.'' 
For the convenience of policymakers, RHYA grantees, and the general 
public, the current regulatory definition of ``runaway youth'' should 
be inserted into statute.
            National Activities
    14. Require HHS to develop each fifth year, directly or via 
contract, a national estimate of the prevalence of unaccompanied 
situations among youth and young adults. The nation lacks a single, 
reliable source of data on the prevalence of unaccompanied situations 
among youth. The dearth of data impairs federal, state, and local 
public policy decision-making, community needs assessment, service 
organization and delivery, and performance measurement.
    15. Require HHS to establish research, evaluation, and 
demonstration priorities each two years and to provide an opportunity 
for public comment on such priorities. The RHYA grants HHS authority to 
make grants for research, evaluation, demonstration and service 
projects. RHYA grantees, youth, advocates, and other stakeholders have 
limited to no input into the identification or prioritization of issues 
to be studied or evaluated.
    16. Require HHS to conduct, directly or via contract, a study 
demonstrating the economic and social benefit of providing emergency 
housing, transitional housing, permanent housing and supportive 
services to unaccompanied youth, and the extent to which that housing 
and services offsets the costs of allowing such conditions to persist 
for young people. While it is intuitive that interventions which 
resolve unaccompanied situations among youth are more cost-effective to 
the public in the long-term than ignoring the problem, there is yet to 
be conducted an authoritative cost-benefit analysis to ``prove'' this 
assertion. A cost-benefit study would be instructive to policymakers 
about the type and level of investments in health and human needs 
programs for children, youth, and families.
    17. Authorize HHS to conduct, directly or via contract, a public 
information campaign to raise awareness of the unaccompanied youth 
population and their service and support needs. Unaccompanied youth are 
a largely invisible or misunderstood population. Lack of public 
awareness of this group of young people, their life circumstances, and 
the interventions available to support them and end their homeless 
situations, allows homelessness to persist among the nation's youth.
    18. Amend the Higher Education Act to authorize forgiveness of 
educational loans for workers in RHYA grantees with at least five 
consecutive years of service. Nonprofit and public organizations 
supporting unaccompanied youth face a number of workforce challenges, 
including difficulty recruiting and retaining employees for long terms 
of service, compensating employees at competitive wages, and attracting 
employees with postsecondary education. Student loan forgiveness is a 
strategy that has been deployed with success in other sectors to 
recruit and retain workers in shortage occupations and should be 
extended to the unaccompanied youth service sector.
PART IV--Beyond RHYA
    The Runaway and Homeless Youth Act, while a critical federal law 
that must be continued and fully funded, is no substitute for the 
aggressive health and human needs interventions necessary to eliminate 
the very factors causing unaccompanied situations among millions of the 
nation's youth, or to respond to the resources and services needs of 
currently unaccompanied youth that surpass the scope and purpose of the 
Runaway and Homeless Youth Act. A comprehensive response to the causal 
factors of and ultimate solutions to unaccompanied situations among 
youth is required. We call the Education and Labor Committee's 
attention to a number of opportunities beyond RHYA reauthorization 
within its jurisdiction where decisive impact could be made for 
unaccompanied youth.
Juvenile Justice
    There is a clear intersection between the juvenile justice system 
and youth homelessness, in terms of both youth entry into the system 
due to their homeless and youth exit from the system into homelessness. 
We urge the Committee to use the reauthorization of the Juvenile 
Justice and Delinquency Prevention Act to break the connection between 
juvenile justice and youth homelessness. We call for repeal of the 
valid court order exception to the JJDPA deinstitutionalization of 
status offenders requirement. We also call for the establishment of a 
youth offender reentry grants program.
Elementary and Secondary Education
    Youth experiencing homelessness encounter difficulties enrolling in 
and attending School. These barriers include legal guardianship 
requirements, residency requirements, lack of necessary immunization, 
academic, or other records, and inadequate transportation to their 
schools of origin from their temporary living arrangements. As a 
result, many homeless young people struggle in obtaining education, or 
fall out of the educational system altogether. Congress has responded 
to the educational needs of homeless children and youth by establishing 
laws and a grant program (the EHCY program) which ensure that children 
and youth experiencing homelessness shall have a right to enroll, 
attend, and succeed in school. We urge Congress to reauthorize and 
strengthen the Education for Homeless Children and Youth program during 
No Child Left Behind reauthorization.
Postsecondary Education
    Postsecondary education offers students experiencing homelessness 
and others hope for escaping poverty as adults. The Higher Education 
Act has the potential to assist disconnected youth to graduate from 
high school, apply for and access postsecondary education, and complete 
their degrees--if they can access the network of HEA programs and 
services. The most basic access barrier facing homeless students is the 
very ability to apply for student financial assistance. We
    Urge Congress to approve the FAFSA Fix for Homeless Kids Act (H.R. 
601, Biggert), legislation that would allow youth to be considered 
independent students for purposes of applying for financial aid (the 
Federal Application for Federal Student Aid) if they have been verified 
as an unaccompanied homeless youth by a school district homeless 
liaison, shelter director, or financial aid administrator.
    We also encourage the establishment of a supportive services 
program for disconnected postsecondary students and the establishment 
of a grant program to colleges and universities so that they may assist 
homeless students in retaining campus or off-site housing during 
periods when the institutions are closed.
Workforce Investment
    Income is a necessary tool which unaccompanied youth must possess 
in order for them to pay for housing and thus exit homelessness. 
Workforce services for yout l far more than job readiness training and 
job placement. Because of their developmental stage, youth require 
comprehensive, intensive employment and training programs that involve 
the following: job skill training, including classroom training, on-
the-job training, and apprenticeships; training in life skills and 
work-related ; ploration of life options, including career paths that 
are non-traditional for a youth's gender, race, culture and/or social 
class; meaningful connections between youth and their peers, adults, 
and communities; opportunities for youth to assume leadership roles and 
develop responsibility, self-reliance, initiative and the desire and 
ability to participate in decisions affecting their lives; 
opportunities that take into account the life circumstances of youth, 
such as housing, health, and transportation; and connections to 
postsecondary education and training opportunities. Like other systems, 
unaccompanied youth are experiencing difficulty accessing workforce 
services in their communities. We urge the Committee to use the 
reauthorization of the Workforce Investment Act to help connect 
unaccompanied youth to the workforce. We ask that runaway and homeless 
youth organizations be added as members of local Youth Councils. We 
also call for an assurance that Youth Councils permit unaccompanied 
youth to participate in workforce services without parental consent.
Place to Call Home Act
    In February 2007, the National Network for Youth announced a long-
term campaign to end youth homelessness. A Place to Call Home: The 
National Network for Youth's Permanency Plan for Unaccompanied Youth. 
Our Family supports the Place to Call Home Campaign.
    The signature public policy component of the campaign is the Place 
to Call Home Act, comprehensive legislation to prevent, respond to, and 
end runaway and homeless situations among youth. The bill includes 
provisions in the homeless assistance, housing, child welfare, juvenile 
justice, public health, education, workforce investment, teen 
parenting, and immigration areas. Representative Ruben Hinojosa (D-TX) 
will introduce the bill imminently. We encourage Members of Congress to 
join as original co-sponsors to the Place to Call Home Act.
                                 ______
                                 
    Chairwoman McCarthy. Thank you very much.
    Mr. Booker?

       STATEMENT OF RUSTY BOOKER, FORMERLY HOMELESS YOUTH

    Mr. Booker. Hi. My name is Rusty Booker. I am 17. I was 
born and raised in Louisville, Kentucky. I just want to thank 
all of you for giving me an opportunity to share my story with 
you.
    I was born to a mom, 17. Living with my mom and stepfather 
was difficult. My stepfather came home every night drunk and 
would beat my mom. My brother and I didn't sleep well, not 
knowing if we would be next.
    At age 8, my parents finally divorced, and my mom started 
drinking. She never laid a hand on my brother and I. Drinking 
was her way of forgetting the past.
    I was sent with my stepfather and his wife at age 9. The 
abuse soon started afterwards. My brother soon came afterwards. 
I was placed in foster care and then, very quickly and 
unbelievably, back with my stepfather.
    Months after I was placed back with my stepfather, I 
started sending letters to my previous foster family from an 
abandoned house's mailbox, so my stepparents wouldn't know. A 
month or so after the letters, I built the courage to run.
    I contacted my previous foster family, and they told me to 
look for a Safe Place instead of going back home. I went to a 
library that had a Safe Place sign on the front. I was 12 at 
the time, and until that day didn't know what Safe Place was 
but glad that there was a public place, like the library, where 
I could get help.
    They took me to the YMCA Safe Place Services shelter in 
Louisville. When I got to the shelter, the staff welcomed me. I 
felt safe for the first time in many years.
    They did an intake, provided me clothes, hygiene products 
and clean linens. The next morning, I had a warm breakfast and 
I met with a caseworker who would change my life forever, Mr. 
Bill.
    When we talked, at first I had a hard time connecting with 
him and getting solutions, but it wasn't long before I was 
sharing my life story with him. The shelter determined that 
going home was not going to be possible, and I understood.
    Within 2 weeks, they arranged for me to be placed in a 
foster home with a loving family. But I still had problems, and 
over the next several years I was placed in psychiatric 
hospitals and along with that came therapy and meds.
    Then came another foster home, group homes, even jail. I 
started using drugs. And, after witnessing my friend get shot 
in a deal gone bad, I thought to myself, ``Nobody asked me what 
I wanted.'' I felt like I was to blame, and powerless to change 
my life. I had no family, no home and, at this rate, no future.
    After another failed foster home, I went to Safe Place 
again and asked for help. I knew the shelter was there for me. 
Again I felt safe and understood. I met with Ms. Missy and told 
her everything that I had been through. She didn't judge me or 
laugh at me. She understood me and made me feel wanted.
    The next day I met Mr. Quan, a man with a story for every 
lesson he learned that I needed to learn or had already but in 
a rougher way. He, too, understood me. He has taught me very 
many ways of how to not let little things get blown way out of 
proportion.
    And then there is Mr. Bill. When I met with him again after 
several years, I gave him a hug. I felt so relieved to see 
someone I knew that really cared about me and loved me more 
than anyone I knew at the time.
    I am not really going to put his business out on Front 
Street, but I will say that he has been through a huge amount 
of things that other kids and myself can relate to.
    Mr. Bill, Ms. Missy and Mr. Quan and the other wonderful 
and amazing staff at Safe Place Services are keeping me drug-
and alcohol-free. I don't know the last time I have felt this 
good about myself.
    To some, these people I mentioned may just be ordinary 
people, but to me and 600 other kids a year in Louisville, 
these people are heroes. Mr. Bill even gave up his vacation to 
bring me to D.C. so I could testify.
    There are 14 kids at the Safe Place Services right now who 
have experienced many of the same things that I have. I would 
like to be able to convince kids that Safe Place is a first 
step to getting help and the shelter is a place where they can 
feel safe and begin to solve their problems.
    Many times, when I was younger, I wanted to run for help, 
but when I was in a rural area there weren't many places to go. 
Louisville is a smaller city, compared to here in D.C. or L.A. 
or even Atlanta.
    Kids all around the country, thousands of kids, feel like I 
did. No one understands them, and they need a place to turn. I 
hope that they, too, will be able to get to find a Safe Place 
site, get to a shelter, feel safe and have a bed, a warm meal 
and someone to talk to instead of roaming the streets or 
bumming money.
    I am asking for your help to make a difference for kids 
just like me, because every kid deserves a second chance. I 
plan to finish my GED and plan to go to college and get a 
degree in law enforcement.
    Thank you for letting me share the experiences I have had. 
I know I am headed in the right direction. I used to always ask 
myself, ``Why me?'' Maybe this is why. Maybe what I have been 
through can make a difference for someone else. I hope you will 
make it possible for kids like me to have these programs in 
their city.
    Thank you.
    [The statement of Mr. Booker follows:]

      Prepared Statement of Rusty Booker, Formerly Homeless Youth

    My name is Rusty Booker. I'm 17 years old. I was born and raised in 
Louisville, KY. I just want to thank all of you for giving me an 
opportunity to share the story of my life with you.
    My life was never easy. I was born to a mom of 17. Living with my 
mother and stepfather was so difficult. My stepfather came home every 
night, got drunk and beat my mom. My brother and I didn't sleep well 
not knowing if we would be next. At age eight my parents divorced and 
my mom started drinking. She never laid a hand on my brother and me. 
Drinking was her way of forgetting the past. I was sent to live with my 
stepfather and his wife at age nine. The abuse started then. Belts, 
ping pong paddles, even his hand all against flesh. I wouldn't be able 
to sit while my bottom and legs were marked with bruises. My brother 
soon came afterwards. I was placed in foster care and then back with my 
stepfather. Months after I was placed back with my stepfather. I 
started sending letters to my previous foster family from an abandoned 
house's mailbox so my stepparents wouldn't know. A month or so after 
the letters, I had built the courage to run.
    I contacted my previous foster family and they told me to look for 
a Safe Place instead of going back home. I went to a library that had a 
Safe Place sign on the front. I was 12 at the time and until that day 
didn't know what Safe Place was but was glad that there was a place 
like the library where I could get help. They took me to the YMCA Safe 
Place Services shelter in Louisville. When I got to the shelter the 
staff welcomed me. I felt safe for the first time in many years. They 
did an intake and got me clothes, hygiene products and clean linens. 
The next morning I had a warm breakfast and it was good. I met with a 
caseworker who would change my life forever--Mr. Bill. When we talked, 
at first I had a hard time connecting with him and getting solutions, 
but it wasn't long before I was sharing my life's story with him.
    The shelter determined that going home was not going to be possible 
and I understood. Within two weeks, they arranged for me to be placed 
in a foster home with a loving family. But I still had problems and 
over the next several years, I was placed in a psychiatric hospital and 
along with that came therapy and meds. Then came another foster home, 
group homes, even jail. I started using drugs and after witnessing my 
friend getting shot because of drugs, I thought to myself, nobody asked 
me what I wanted. I felt like I was to blame and was powerless to 
change my life. I had no family, no home and at this rate, no future. 
After another failed foster home, I went to Safe Place again and asked 
for help.
    I knew the shelter was there for me. Again I felt safe and 
understood. I met with Ms. Missy and told her everything that I had 
been through. She didn't judge me or laugh at me. She understood me and 
made me feel wanted. The next day I met Mr. Quan, a man with a story 
for every lesson he learned that I needed to learn or had already but 
in a rougher way. He too, understood me. He has taught me very many 
ways of how to not let little things get blown way out of proportion. 
And then there is Mr. Bill. When I saw him again after several years, I 
gave him a hug. I felt so relieved to see someone I knew that really 
cared about me and loved me more than anyone I know. I'm not really 
going to put his business out to the public, but I will say that he has 
been through a huge amount of things that other kids and me can relate 
to. Bill, Ms. Missy and Mr. Quan and the other wonderful and amazing 
staff at Safe Place Services are keeping me drug and alcohol free. I 
don't know the last time I have felt this good about myself.
    To some, these people I mentioned may just be ordinary people, but 
to me and six hundred other kids a year in Louisville, these people are 
heroes. Mr. Bill even gave up his vacation to bring me to DC so I could 
testify today.
    There are 14 kids at the Safe Place Services right now who have 
experienced many of the same things that I have. I would like to be 
able to convince kids that Safe Place is a first step to get help and 
the shelter is a place where they can feel safe and begin to solve 
their problems. Many times when I was younger, I wanted to run for 
help, but when I was in a rural area there weren't many places to go. 
Louisville is a smaller city compared to here in DC or LA or even 
Atlanta. Kids all around the country, thousands of kids, feel like I 
did. No one understands them and they need a place to turn. I hope that 
they, too, will be able to get to find Safe Place sites to get to a 
shelter, feel safe, and have a bed, food, someone to talk to instead of 
roaming the streets, bumming money or doing anything just to survive.
    I'm asking for your help to make a difference for kids just like 
me, because every kid deserves a second chance. I plan to finish my GED 
and plan to go to college and get a degree in law enforcement. Thank 
you for letting me share the experiences I have had. I know I'm headed 
in the right direction. I used to always ask myself ``Why me?'' Maybe 
this is why. Maybe what I have been through can make a difference for 
someone else. I hope you will make it possible for kids like me to have 
these programs in their city.
                                 ______
                                 
    [Additional material submitted by Mr. Booker follows:]

                          National Safe Place

    Safe Place offers the first step to help for any young person at 
risk of abuse, neglect or serious problems. The testimony presented by 
Rusty Booker to the US House of Representatives, Healthy Families and 
Communities subcommittee of the Labor and Education Committee 
addressing Runaway and Homeless Youth issues represents just one young 
man who was the victim of serious circumstances and made the decision 
to ask for help. His courage and determination to alter the path on 
which he was headed represents that of many other young people. More 
than 205,000 youth have also made the decision to seek help at a Safe 
Place location or contacted a youth shelter agency after learning about 
Safe Place at their school.
    Businesses and community buildings such as fire stations and 
libraries are designated as ``Safe Place'' sites. Any youth in crisis 
can walk into one of the nearly 16,000 Safe Places across the country 
and ask an employee for help. These locations display the yellow, 
diamond-shaped Safe Place sign on their location. Inside, employees are 
trained and prepared to assist any young person asking for help. Youth 
who go to a Safe Place location are quickly connected to the nearby 
youth shelter. The shelter then provides the counseling and support 
necessary to reunify family members and develop a plan to address the 
issues presented by the youth and family.
    In addition to providing youth in crisis immediate access to help 
and safety at community locations, the visibility of Safe Place signs 
makes the community more aware of some of the issues that young people 
experience. As consumers enter their neighborhood market or convenience 
store, the Safe Place sign is a constant reminder that keeping young 
people safe is everyone's responsibility. Safe Place provides an 
opportunity for the entire community to get involved in helping to 
solve some of the serious issues that face young people and getting 
their life back on track. According to Suzanne Quinlan, Human Resources 
Director for Louisville area Dairy Queen corporate stores, ``You could 
not pay us enough to take down the Safe Place sign. Even if we only get 
one child, it is important that both kids and parents can easily find 
Safe Places.''
    The success of Safe Place is based on public/private collaborations 
between businesses, school systems, fire departments, law enforcement, 
and a network of volunteers. An estimated 250,000 employees at Safe 
Place locations nationally are trained and ready to help a child or 
teen. Transit systems in 45 cities designate their buses as mobile Safe 
Place sites. When a youth boards a bus asking for help, the driver 
contacts the dispatch office and a trained supervisor is immediately 
sent to transport the youth to the shelter.
    National Safe Place, headquartered in Louisville, KY provides youth 
shelters across the nation with the infrastructure, materials and 
training to establish and maintain a Safe Place program. Agencies 
operating Safe Place receive all of the tools for successful 
implementation. National corporations such as Sprint, Southwest 
Airlines, and CSX partner with National Safe Place to offer support 
benefiting youth in Safe Place communities through cause marketing 
campaigns, awareness and education initiatives and in-kind 
contributions.
    National Safe Place currently partners with 140 shelters in 40 
states. An equal number of runaway youth shelters could establish the 
program, but have not because of limited resources. Safe Place expands 
the reach of youth shelters, offering additional front doors in the 
community where a youth can get help in his or her own neighborhood. 
Often young people must quickly run from a dangerous or threatening 
situation. Having a Safe Place nearby makes it possible for them to do 
so.
    Safe Place is a proven, nationally recognized program. Its success 
is contingent upon each generation of young people understanding that 
the Safe Place sign is a symbol of immediate help and safety and that 
seeking help is a better resolution to their crisis than running. 
Efforts must be made to bring Safe Place to the 10 states where it is 
not available and to incorporate this outreach program within more 
shelters. Safe Place is a cost-effective initiative. Businesses and 
public organizations are willing to support the program to foster the 
safety of young people and the community. Safe Place also empowers 
young people to seek help earlier in their crisis before it escalates; 
thus it is easier for shelter staffs to affect a positive resolution in 
a shorter period of time. In many instances, it eliminates 
inappropriate placements in the juvenile justice or other such systems, 
saving tax payer dollars.
    Rusty Booker testified on behalf of other runaway and homeless 
youth in similar situations. We must make an effort to raise the 
awareness of the services provided by runaway and homeless youth 
shelters. Safe Place does that. An investment of resources for Safe 
Place will benefit many other young people like Rusty.
                                 ______
                                 
    Chairwoman McCarthy. Thank you, Rusty.
    Mr. Berg?

 STATEMENT OF STEVEN R. BERG, VICE PRESIDENT FOR PROGRAMS AND 
         POLICY, NATIONAL ALLIANCE TO END HOMELESSNESS

    Mr. Berg. Thank you, Madam Chair. Thank you.
    I would like just start by saying thank you for holding 
this hearing. I know every person who is on this panel who has 
done specific things to move this issue forward, move the issue 
of homelessness forward. And we are grateful for that and for 
what so many other members of Congress have done.
    I am here to talk a little bit about some of the research 
numbers about this problem. We have submitted our written 
testimony, which I would refer people to. Part of that is a 
bibliography which makes a pretty good reading list for people 
who want to dip into the issue even further.
    Let me just make a few quick points here, by way of 
summary. The first point, it is a couple of bad news and a 
couple pieces of good news.
    The first piece of bad news is this is a sizable problem. I 
mean, the number you recited, 1.6 million people, young people, 
every year, this does not include people who are staying with 
relatives or staying with friends. It is young people who are 
in shelters, who are on the streets or who are staying 
temporarily with strangers in often dire circumstances.
    A striking finding of the research is that for more than 
half of these young people, no one was looking for them while 
they were going through this experience. There were not people 
making police reports or posting things. They were on their 
own, in many cases, abandoned by families or what supports they 
had.
    And the other thing is substantially fewer than half were 
in shelters during these experiences. The rest, a small number 
of the 1.6 million, was living with strangers. For the most 
part, young people were surviving on the streets. They were 
surviving in abandoned buildings. They were surviving outside.
    The second piece of bad, but mixed, news is that many of 
the young people how have these experiences, there are mixed 
and complex and difficult histories. Severe conflict within the 
family is a near-universal experience. Also prevalent are 
issues of abuse and neglect, issues of abandonment, issues of 
substance abuse, more often with the parents than with young 
people. Issues of mental health and poverty is a common 
occurrence.
    The involvement with the juvenile justice system is very 
common. The involvement with the child welfare system is very 
common. These add up to the fact that prevention of 
homelessness for young people, while extremely important and, 
the research shows, doable, is difficult.
    The good news, and I hope you take this from the hearing 
and the witnesses that have preceded me, is that young people 
are resilient. They go through these experiences, but the 
research shows what many people who work in the field know from 
experience, which is that despite incredible hardship and 
incredible experiences, people, when they are given the chance, 
do recover from the trauma and do go on to lead very useful 
and, indeed, in many cases, exemplary lives.
    The other piece of good news is we have a pretty clear idea 
of what the interventions are that bring about those good 
results. We could always have more on this, and one of the 
probably areas where there is more research needed is sort of 
individual rigorous evaluations of individual program models.
    But, from the research that exists, we see that a stable 
residence, a connection and attachment to a caring adult and 
the supportive services that build on the strength of these 
young people and that address the problems that they have get 
good results. So sort of programmatically, we are aware of the 
answers and we can put them into place.
    The final point I would like to make, and the research 
bears this out, is the urgency of this question. I think 
sometimes in this day and age we are all a little too used to 
the idea of homelessness and have lost, to some extent, the 
idea that homelessness for anyone is an immediate and crucial 
problem that needs to be dealt with as a crisis, an individual 
emergency in each case.
    I think certainly for young people this is the case. I 
think the stories you hear will back this up. What I can say 
about the research is, the longer young people stay homeless, 
the worse their troubles get.
    Every night is an additional risk of drug abuse and 
addiction, of being the victims of crime or of turning to 
crime, of sexual abuse, of physical abuse. Every night that 
young people stay homeless increases the risk of deteriorating 
mental health conditions, higher risks of suicide, the longer 
people stay homeless.
    These are young people who are in grave danger. But, on the 
other hand, every night, young people are moved from the 
streets into programs that prevent those dire consequences from 
happening. We know what the programs are. We have good federal 
policies in place.
    We will be working with the committee staff to make them 
even better through reauthorization, but the main point is we 
need to get behind these programs and make sure they are funded 
and available to everyone.
    Thank you.
    [The statement of Mr. Berg follows:]

 Prepared Statement of Steven R. Berg, Vice President for Programs and 
             Policy, National Alliance to End Homelessness

    Thank you, Chairwoman McCarthy, Ranking Member Platts, and the 
honorable members of this subcommittee on behalf of our Board of 
Directors and partner members for providing this opportunity to address 
the subcommittee on research findings concerning youth homelessness in 
the United States. I would like to start by congratulating this 
subcommittee on its important work in addressing the need of homeless 
and other vulnerable youth in our nation. The National Alliance to End 
Homelessness believes that ending youth homelessness is well within our 
reach. The population is small enough for our collective effort to 
eradicate this social crisis among our states.
    The National Alliance to End Homelessness is a nonpartisan, 
nonprofit organization that was founded in 1983 by a group of leaders 
deeply disturbed by the appearance of thousands of Americans living on 
the streets of our nation. We have committed ourselves to finding 
permanent solutions to homelessness. Our bipartisan Board of Directors 
and our 5,000 nonprofit, faith-based, private and public sector 
partners across the country devote ourselves to the affordable housing, 
access to services, and livable incomes that will end homelessness. The 
Alliance is recognized for its organization and dissemination of 
evidence-based research to encourage best practices and high standards 
in the field of homelessness prevention and intervention and we wish to 
share our insights with you today.
    As our name implies, our primary focus is ending homelessness, not 
simply making it easier to live with. We take this idea very seriously. 
There is nothing inevitable about youth homelessness in the United 
States. We know more about youth homelessness and how to address it 
than we ever have before, thanks in part to extensive research. We know 
a great deal about the pathways into homelessness for youth, the 
characteristics of youth who experience homelessness, and interventions 
and program models which are effective in offering youth reconnection 
to family, community, and stable housing.
    We have been asked today to summarize the research available on the 
characteristics and experiences of homeless youth, the causes of youth 
homelessness, and the solutions to youth homelessness. We will also 
point out the limitations of the research, and identify some research 
questions that we believe need to be addressed.
Overview of research
            Demographics and Experiences of Youth Homelessness
    Homeless youth are typically defined as unaccompanied youth aged 12 
to 24 years who do not have familial support and are unaccompanied, and 
who are living in shelters, on the streets, in a range of places not 
meant for human habitation (e.g. cars, abandoned buildings) or in 
others' homes for short periods under circumstances that make the 
situation highly unstable (so-called ``couch surfing''). Youth 
homelessness is essentially caused by a breakdown in families, where 
environments of abuse, neglect, or youth abandonment are exacerbated by 
larger systemic issues such as poverty, unemployment, poor housing, and 
lack of community and economic support in rural and urban 
neighborhoods. Youth turn to shelters and the streets as an often 
rational choice to avoid violence, abuse, neglect, and abandonment but 
the alternative can be hard lives riddled with poor health and 
exploitation by unscrupulous adults.
    Two major incident studies by the U.S. Department of Justice and 
Professor Ringwalt and colleagues estimate that the number of youth 
below the who flee from their home, are barred from home by their 
guardian, or experience homelessness ranges from 1.6 to 1.7 million in 
the course of a year. Additionally, an unknown number of young adults 
aged 18 to 24 experience homelessness each year. Some youth will remain 
away from their home for only short periods of time (a few nights) 
while others will experience long periods of homelessness and become 
street-dependent. Street-dependent youth often sleep exclusively 
outdoors, in public places, or in abandoned buildings, form their own 
unique culture and family structure with other street-dependent youth, 
and often rely on street economies such as prostitution, drug sales, 
theft, or begging to meet their basic needs. However, street-dependent 
youth represent a small minority of the total homeless youth 
population. Local programs funded by the federal Runaway and Homeless 
Youth Act (Department of Health and Human Services) served over 500,000 
homeless and runaway youth in 2005. Homeless youth can be found in 
urban, suburban, and rural areas through the United States and few 
differences have been found when urban, suburban, and rural youth are 
compared.
    A 1999 study by the U.S. Department of Justice, the Second National 
Incidence Studies of Missing, Abducted, Runaway, and Thrownaway 
Children, estimated 1,682,900 youth had a runaway/throwaway episode 
that year. Of these youth, 37 percent were actively sought by their 
caretakers and 21 percent were reported to authorities for purposes of 
locating them. This study underscores that a majority of runaway and 
homeless youth (63 percent) are never reported or sought after by their 
parents or primary caretakers.
    There is little gender disparity among various homeless youth 
groups, except that youth living on the streets are more likely to be 
male. While youth from all races and cultures run away, become homeless 
or are thrown away by parents, shelter and housing programs report a 
significant disproportionate representation of American Indian and 
African-American youth.
    Also, gay, lesbian, bisexual, and transgender youth have been found 
to be overrepresented in homeless and street populations with estimates 
ranging from 11 to 35 percent. Compared to heterosexual homeless youth, 
gay, lesbian, bisexual, and transgender homeless youth also are exposed 
to greater victimization while on the streets.
    Background information on homeless youth show that they tend to 
come from low-income communities and their families are 
disproportionately poor or working class. Many grew up in single-parent 
households or blended families.
    Contrary to stereotypes about homeless youth, studies have not 
consistently shown that substance abuse is characteristic of a majority 
of runaway youth. While many studies show use and abuse of drugs or 
alcohol, research is inconclusive that homeless youth are more prone to 
dependency. However, studies of homeless youth have shown high rates of 
parental alcohol or drug abuse (24 to 44 percent) which likely 
contributes to youth homelessness. Additionally, most homeless youth 
are still in school but may have experienced difficulties, discipline 
actions, and delays. One 2005 study showed that 79 percent of youth 
were attending school on a regular basis before entering shelter.
    Additionally, homeless youth are at elevated risk for mood 
disorders, suicide attempts, and post-traumatic stress disorder. High 
rates of behavioral disorders are also noted. Regardless of the 
assessment method used or the sample, homeless youth are more likely to 
experience mental health and behavioral disorders than adolescents in 
the general population.
    Numerous studies have indicated that once homeless, youth often 
engage in sexual behaviors that put them at high risk for both sexually 
transmitted diseases and pregnancy. Most studies indicate that a 
portion of the homeless youth population engages in survival sex which 
is the trading of for basic needs like a place to stay. A significant 
number of homeless girls are also pregnant or parenting. One national, 
representative sample study published in the American Journal of 
Adolescent Health found that 48 percent of street youth and 33 percent 
of shelter youth had histories of pregnancy or impregnating someone, as 
compared to 10 percent of a nationally representative sample of housed 
youth.
    Homeless youth may be characterized by the length of time spent 
homeless--recent runaways, transitionally or episodically homeless, 
homeless and shelter using youth, and street-dependent youth who may 
travel. Evidence suggests that differences may exist between subtypes 
of homeless youth, and therefore, unique, targeted interventions may be 
merited.
    In summary, research has given us insight into some fairly constant 
variables that cut across most homeless youth groups. The common 
characteristics of their experience prior to becoming homeless include:
    <bullet> Abuse and neglect histories
    <bullet> Parental alcohol and substance abuse
    <bullet> Poverty (except runaways)
    <bullet> Broken family relationships (single parent, blended, or no 
parental contact)
    <bullet> Severe family conflict
    <bullet> Difficulty with educational success and advancement 
despite enrollment in school.
    Research has also given us a warning that the longer youth remain 
homeless, the greater their likelihood of experience a host of 
troubles, including:
    <bullet> High rates of sexual activity
    <bullet> Acute medical problems
    <bullet> Alcoholism and alcohol/chemical addiction
    <bullet> HIV
    <bullet> Mental health diagnosis & institutionalization
    <bullet> Suicide
    <bullet> Physical violence
    <bullet> Sexual assault.
Pathways to Homelessness for Youth
    Research offers information about the pathways into homelessness 
for youth. Studies show that there are often multiple factors which 
cause a youth to leave home: severe family conflict, physical abuse, 
sexual abuse, neglect, substance abuse, mental health disabilities, and 
abandonment. Youth consistently report severe family conflict as the 
primary reason for their homelessness but also report multiple barriers 
to reunification. Behavioral issues on the part of the youth may be a 
source of the conflict, but this is certainly not always the case.
    Beyond the individual and family problems, youth homelessness is 
also fed by lack of affordable housing, poverty, and child welfare and 
juvenile correction systems that fail to protect youth from shelters 
and the streets.
    A sizable minority of homeless youth have had histories of foster 
care or juvenile justice placements and still end up homeless before 
their 18th birthday. According to the 2007 National Symposium on 
Homelessness Research, the percentage of homeless youth who report 
previous placement in foster care or an institutional setting ranged 
between 21 and 53 percent across studies. A longitudinal study by the 
University of Chicago found that 14 percent of former foster youth 
became homeless after being discharged from care. Another large 
representative sample study of foster youth aging out of care by 
Professors Fowler and Ahmed noted that 17 percent of homeless youth had 
experienced literal homelessness during the 3.6 years after exiting 
care. One predictor of future homelessness for foster youth is whether 
the youth had repeatedly run away from placement. By contrast, feeling 
very close to at least one family member reduced the odds of becoming 
homeless by nearly 80 percent.
    Homelessness may not be a surprising result given the multiple 
placements and school transfers experienced by foster youth. One study 
by Casey Family Programs found that more than 30 percent of foster 
youth experienced eight or more placements with foster families and 
group homes and a majority experienced seven or more school changes 
between elementary and high school age. In addition to residential 
instability, many foster youth face mental health problems and 
developmental or behavioral challenges. The Northwest Foster Care 
Alumni Study by Casey Family Programs found that foster youth 
experience anxiety disorders, depression, panic disorders, and social 
phobias at two to four times the rate of the general population.
Solutions to Youth Homelessness
    There is a growing body of evidence about what works. We know 
interventions that work to restore youth and offer them a pathway out 
of homelessness. The past ten years of research and study have provided 
some indication of methodologies which result in positive outcomes for 
youth to prevent or end homelessness.
    Most homeless youth do not experience long-term homelessness. 
Homeless youth often go home, find relatives, or make it on their own 
as young adults. In a 2004 study by Professor Paul Toro of 249 homeless 
youth as compared to a matched sample of 149 housed youth, ages 13 and 
17 years, conducted longitudinally over seven years, most of the 
adolescents returned fairly quickly to their family of origin. Nearly 
93 percent were no longer homeless after seven years of study. However, 
not all were successfully reunified with parents. One third lived with 
their families, about 20 percent lived with relatives or friends, and 
over a third (34 percent) lived on their own. Therefore, the pathway 
out of homelessness sometimes focuses on parents, sometimes focuses on 
kin and extended family, and sometimes focuses on independent living.
    Studies of what works focus on three areas. The first is early 
intervention/prevention that seeks to avert a homelessness episode or 
to ensure that a family separation does not result in an out-of-home 
placement that so often leads to long term homelessness. The second is 
interventions with youth who are already homeless, to rapidly reunite 
them with their families while strengthening the families to achieve 
more stability. The third is independent housing options other than 
reunification for youth who will not be able to return to their 
families. The implication of these three strategies is that the first 
and best option is to try to reconnect youth with their families, and 
only after this fails should independent living options be considered.
    Initial early intervention and prevention services which focus on 
mental health and family systems can often meet the crisis needs of a 
family and prevent homelessness and/or foster care placement.
    Two forms of mental health services have been identified that show 
positive results in decreasing youth anti-social behavior and 
aggression: multisystemic therapy (MST) and functional family therapy 
(FFT). Both have indicated that youth recipients have significantly 
fewer out-of-home placements and decreased recidivism to the juvenile 
justice system.
    Multisystemic Therapy is an intensive family- and community-based 
treatment that addresses multiple aspects of serious antisocial 
behavior in adolescents. MST uses family members to design the 
treatment plan and attempts to encourage behavior changes by using 
strengths in various areas of the youth's life (family, peers, school, 
and neighborhood). Evaluations of MST have demonstrated the following 
benefits:
    <bullet> decreased recidivism and re-arrests;
    <bullet> reduced adolescent alcohol and drug use;
    <bullet> reduced long-term rates of crime for serious juvenile 
offenders;
    <bullet> improvements in family functioning;
    <bullet> decreased behavior and mental health problems for youth; 
and
    <bullet> favorable outcomes at cost savings in comparison with 
usual mental health and juvenile justice services.
    Functional Family Therapy is so named to identify the family as the 
primary focus of intervention. Therapists employing FFT believe they 
must do more than simply stop antisocial or unhealthy behavior, they 
must motivate families to change by identifying their strengths, 
helping build on those strengths in ways that enhance self respect, and 
offering recommendations on particular pathways for improvement. Data 
show that when compared with other forms of community intervention like 
probation support, residential treatment, and alternative therapeutic 
approaches, FFT is highly successful. In randomized trials FFT was 
shown to have reduced recidivism for a wide range of anti-social or 
criminal behavior. In addition, studies have shown it to reduce the 
cost of treatment.
    Youth who are experiencing abuse or neglect at home could also be 
diverted away from costly out-of-home placements and homelessness 
through Family Group Conferencing or Family Group Decision Making 
programs. In these early intervention and prevention programs extended 
family, kin, and important people in the life of the youth come 
together to implement a plan for the continued safety, nurturance, and 
permanency of the youth. These programs show remarkable success in 
stabilizing youth. Research on Family Group Decision Making found 
reductions in re-abuse, increased family involvement, decreased 
residential instability, and more extended families accepting care of 
the youth.
    Program models have proven effective at reuniting homeless youth, 
even those with troubled histories, with their families.
    Originally designed to assist young people who have been diagnosed 
with mental health disabilities and their families, Intensive Case 
Management (ICM) works with a family (in conjunction with teachers and 
other helping professionals) to develop an individualized comprehensive 
service plan. Case Managers who are professional and specially trained 
conduct an assessment and assist in coordinating supports and services 
necessary to help children and adolescents live successfully at home 
and in the community. The case loads are small (1 to 10 or 1 to 12) and 
offer round-the-clock access. Intensive Case Management services have 
been used successfully with homeless youth. One study published in the 
Journal of Emotional and Behavioral Disorders noted that homeless youth 
receiving Intensive Case Management services showed improved 
psychological well-being, less aggression, and satisfaction with their 
quality of life.
    Both shelter and outreach services can be used as a gateway to exit 
homelessness. A 2002 study by Professor Thompson and colleagues 
compared 261 runaway and homeless youth who received services through 
emergency shelter and crisis services with 47 at-risk youth receiving 
services from a long-term day treatment program. The study found that 
both groups experienced positive changes in their family relationships, 
runaway behavior, school behavior, employment, sexual behavior and self 
esteem. The study noted that there were no significant group 
differences in the amount of change they experienced, leading one to 
observe that the less-costly shelter system had as positive return in 
positive outcomes for youth as the more expensive day treatment 
programs.
    Some youth will never be able to return to their families, and 
there are successful housing programs that not only meet the housing 
needs of such youth, but also have programming that addresses their 
development needs and helps them to build relationships with adults and 
with the community.
    Multiple housing models exist for youth but they have limited 
capacity in most jurisdictions. Examples of youth housing models 
include: host homes, shared housing, community-based group homes, 
dormitories, scattered site transitional housing, single-site 
transitional housing, permanent scattered site housing with supportive 
services, and foyer (employment-focused) housing. These models 
incorporate life skills training, connection to caring adults, and 
opportunities for growth, mistakes, and positive youth development. 
Many homeless youth rely on such housing options when family members 
are unwilling or unable to care for their nurturance and welfare. Most 
homeless youth never receive housing benefits because of lack of supply 
and long waiting lists.
Limitations of the research and unanswered questions
    There is an extensive body of study and research on the 
characteristics and demographics of homeless youth, as well as the 
pathways or antecedent factors leading up to a youth turning to life on 
the streets. Unfortunately, there are limitations to existing research 
and we are left with remaining questions.
    One problem is that studies that have examined homelessness among 
adolescents have often cast the problem as individual vulnerability 
instead of examining the broader environmental factors involved. This 
has created the tendency by research to focus on the youth behavior in 
risky situations while homeless, rather than on the adult behaviors 
that often propel youth from their homes or on interventions and 
supports that could end youth homelessness. Additional research that 
focuses on child welfare, juvenile justice, and economic or social 
network failures that have a role in youth homelessness may allow us to 
address these causal factors.
    Further, little research has been conducted on the inherent 
characteristics possessed by youth which make them resilient to 
negative outcomes despite their homelessness. Homeless youth are 
resilient and creative and often exit homelessness after short periods 
of time. While it is important to understand the deficits of homeless 
youth, a greater understanding of their strengths and assets could lead 
us to new interventions that build upon these strengths to help young 
people gain residential stability and escape life on the streets.
    There is little research that helps clarify the distinction between 
youth who remain on the streets or hop between shelters and those that 
remain housed with friends and relatives, either stably or unstably. 
Further research is needed to understand which program models, 
resources, or intervention methods best equip ``couch surfing'' youth 
with the opportunity to find stable homes and brighter futures.
    There are several programmatic models and methodologies which may 
hold promise in working with youth. However, there is little rigorous 
research that verifies results. School-based programs that offer youth 
a safe way to access services or receive one-to-one counseling and 
support may help prevent and end homelessness, but we have found little 
evaluation of such programs. We also know that a minority of homeless 
youth experience chemical or alcohol addiction, yet we do not know 
whether out-patient support groups or residentially-based treatment 
geared toward adolescents is more effective. Most of the research on 
chemical and alcohol addiction is focused on adults. Further, given the 
high rates of ual exploitation, molestation, and assault of homeless 
youth, it would be helpful to have a better understanding of the level 
of support, outreach, case management, and housing stability that are 
needed to effectively escape prostitution and the commercial sex 
industry. Another area of youth homelessness that has been under-
examined is the experience of undocumented youth who may flee to 
America to escape abusive, violent, or neglectful families in their 
home countries. We do not know the dimensions of this problem, or what 
solutions are workable.
    Finally, Congress has funded an array of services, housing and 
shelter for vulnerable and homeless youth, although not enough to meet 
all of the need. While we are able to point to some interventions that 
offer solutions, the vast array of service systems have yet to be 
rigorously evaluated. It would appear that critical research and study 
in this area is in its own adolescent phase--able to produce some 
solutions but not fully matured. When evaluations have been done on 
local service systems or specific programs, rigorous experimental 
designs have generally not been used and often lack comparative data to 
allow cross-system comparison.
Implications
    After a reviewing the current body of research and studies on youth 
homelessness, the Alliance wishes to offer the following implications, 
as a framework for this subcommittee in crafting public policy to end 
youth homelessness:
    1. Youth by definition are still developing and require attachment 
to and the support of caring adults. Homeless youth are unique in that 
they represent a population of homelessness that is impacted by 
physical, emotional, and cognitive development. Any consideration, 
intervention, or program model must consider how positive youth 
development is both retarded and enhanced through our programmatic 
responses.
    2. Youth homelessness is as much about societal and system failures 
as individual and family breakdown. The pathways to homelessness for 
youth are about breakdown of families, abuse and neglect, but also 
community systems (including economic conditions, social networks, 
housing stock, and child welfare systems) contributing to youth living 
on the streets of America.
    3. Our targeted response should be tailored toward the length of 
time spent homeless. Recent runaways and couch surfing youth should be 
quickly served to find alternative family placements, while shelter and 
street-dependent youth require intensive case work and access to 
housing models grounded in life skills training and opportunity for 
growth, with rapid stabilization in housing as the highest possible 
priority.
    4. We know some of what works and Congress should invest in those 
interventions that have shown positive outcomes. Those typically tend 
to be mental health services, intensive case management services, 
respite care tied to family reunification counseling, and housing 
coupled with life skills training and positive youth development 
services.
    5. We can end homelessness for youth, and prevent untold suffering, 
hardship and expense in so doing. With coordination of services between 
child welfare systems and community-based organizations centering on 
family, health, and housing this is a social condition that is not 
inevitable.
    Thank you again and we look forward to working with you to confront 
and end youth homelessness.
                                sources
Cauce, A. M., Morgan, C. J., Wagner, V., Moore, E., Sy, J., Wurzbacher, 
        K., Weeden, K., Tomlin, S., and Blanchard, T. (1994) 
        Effectiveness of intensive case management for homeless 
        adolescents: Results of a 3-month follow-up. Journal of 
        Emotional and Behavioral Disorders, 2, 219-227.
Courtney, M., Dworsky, A., Ruth, G., Keller, T., Havlicek, J., and 
        Bost, N. (2005). Midwest Evaluation of the Adult Functioning of 
        Former Foster Youth: Outcomes at age 19. Unpublished report. 
        Chicago, IL: Chapin Hall Center for Children.
Fowler, P. J., Ahmed, S. A., Tompsett, C. J., Jozefowicz-Simbeni, D. 
        M., and Toro, P. A. (2006) Community violence, race, 
        religiosity, and substance abuse from adolescence to emerging 
        adulthood. Unpublished manuscript, Department of Psychology, 
        Wayne State University.
Green, J. M., and Ringwalt, C. L. (1998). Pregnancy among three 
        national samples of runaway and homeless youth. Journal of 
        Adolescent Health 23, 370-377.
Promising Strategies to End Youth Homelessness: Report to Congress, 
        U.S. Department of Health and Human Services, Administration 
        for Children and Families, Administration on Children, Youth, 
        and Families, Family and Youth Services Bureau.
Ringwalt, C. L., Greene, J. M., Robertson, M., and McPheeters, M. 
        (1998). The Prevalence of homelessness among adolescents in the 
        United States. American Journal of Public Health, 88(9), 1325-
        1329.
Robertson, M. J., and Toro, P. A., Homeless Youth: Research, 
        Intervention, and Policy, 1998 National Symposium on 
        Homelessness Research.
Second National Incidence Study of Missing, Abducted, Runaway and 
        Thrownaway Children (NISMART II), U.S. Department of Justice, 
        2002, Washington, D.C.
Thompson, S. J., Pollio, D. E., Constantine, J., Reid, D., and Nebbitt, 
        V. (2002). Short-term outcomes for youth receiving runaway and 
        homeless shelter services. Research on Social Work Practice, 
        12(5), 589-603.
Toro, P. A., Dworsky, A., and Fowler, P. J., Homeless Youth in the 
        United States: Recent Research Findings and Intervention 
        Approaches, 2007 National Symposium on Homeless Research, Draft 
        from February, 2007.
                                 ______
                                 
    Chairwoman McCarthy. Thank you, Mr. Berg.
    Mr. Allen?

 STATEMENT OF ERNIE ALLEN, PRESIDENT AND CEO, NATIONAL CENTER 
               FOR MISSING AND EXPLOITED CHILDREN

    Mr. Allen. Madam Chair, members of the committee, I 
particularly want to express my gratitude to my friend, 
Congressman Yarmuth, and to the great leadership of the 
Congressional Caucus on Missing and Exploited Children, 
Chairman Lampson and co-chair Congresswoman Biggert.
    I want to report to the committee that the progress in the 
search for America's missing children is extraordinary. More 
missing children come home safely today in this country than at 
any time in the nation's history, and that is because the 
leadership of Congress and the leadership of law enforcement, 
we have been able to build a national network.
    Today, images and information are transmitted instantly 
across the nation. There are 50 state missing children 
clearinghouses. Because of the AMBER Alert and the leadership 
of great nonprofit organizations like the Texas Center for the 
Missing, we are mobilizing the eyes and ears of the public.
    Law enforcement is better prepared. There is more 
technology, more resources. The good news is, it is working. 
The bad news, as you all know, is that 2,000 children will be 
reported by their parents to the police as missing today 
somewhere in the United States.
    And, the bad news is, despite all our progress and despite 
a recovery rate in the upper 90s, thousands of children each 
year still don't make it home. Our national center, which is 
now 23 years old, at your mandate operates a National Missing 
Children's Hotline.
    We are currently handing about 300 calls a day. We have 
handled 2.2 million over our history. And let me say the long 
partnership with the runaway and homeless youth community is 
extraordinarily important, because, for example, we link with 
the National Runaway Switchboard.
    When the kid calls our hotline, we pass them immediately to 
the National Runaway Switchboard. And when the parent or a 
member of the public calls the National Runaway Switchboard, 
they send it to us. It is that kind of cooperation that I think 
is essential in this issue.
    We are focusing aggressively on issues like the long-term 
missing. There are still thousands of children who have not 
been identified, many of whom are deceased and whose remains 
have not been identified, bringing closure for these families.
    We are working with the FBI and others to provide direct, 
on-scene response, technical experts to help law enforcement, 
who may waste valuable time because they don't know what to do. 
So there is enormous progress.
    An area of perhaps greater challenge is the area of child 
sexual exploitation. And let me just say a few words about 
that. This is an issue that has exploded with the advent of the 
Internet. In 1998, the Congress asked our center to establish 
what it called the 911 for the Internet, a cyber tip line. Last 
week, we handled our 500,000th report, and these reports are of 
online enticement of children, ography, child sex tourism, a 
range of child sexual exploitation offenses.
    The good news is that these reports have led to thousands 
of arrests and successful prosecutions. The bad news is that 
this problem has proliferated. For example, ography has become 
a multi-billion dollar commercial industry and the victims are 
getting younger and younger. Our staff has reviewed 8 million 
images and videos in an attempt to identify the children.
    And what we have learned is that of the offenders how have 
been identified, 39 percent have had images of children younger 
than 6 years old. Nineteen percent have had images of children 
younger than 3 years old.
    This is an enormous challenge. Law enforcement is doing 
more today than ever before. The FBI, ICE and other agencies 
are gearing up the Internet crimes against children task forces 
around the country are doing extraordinary work, but law 
enforcement is under-resourced, under-manned and is tackling a 
problem that is far greater than any of us ever thought.
    The last thing I would want to point out is that a couple 
of years ago, in the PROTECT Act, the Congress asked for us to 
take on a pilot project to do background screening for youth-
serving organizations.
    We have done that, and we have found that even though these 
applicants are being fingerprinted and know they are being 
subject to national criminal history background checks, fully 3 
percent of the applicants have had criminal histories, many of 
them serious criminal histories involving crimes against 
children.
    Background screening needs to be continued. This needs to 
be a national effort for youth-serving organizations that is 
fast, accurate fingerprint based and either free or as close to 
free as we can get it.
    Thank you, Madam Chair.
    [The statement of Mr. Allen follows:]

 Prepared Statement of Ernie Allen, President and CEO, National Center 
                   for Missing and Exploited Children

    Madame Chairwoman and members of the Subcommittee, as President of 
the National Center for Missing & Exploited Children (NCMEC), I welcome 
the opportunity to appear before you to discuss issues affecting our 
nation's children. NCMEC joins you in your concern for the safety of 
the most vulnerable members of our society and thanks you for bringing 
attention to the problems facing America's families and communities.
    Let me first provide you with some background information. NCMEC is 
a not-for-profit corporation, mandated by Congress and working in 
partnership with the U.S. Department of Justice as the national 
resource center and clearinghouse on missing and exploited children. 
NCMEC is a true public-private partnership, funded in part by Congress 
and in part by the private sector. Our federal funding supports 
specific operational functions mandated by Congress, including a 
national 24-hour toll-free hotline; a distribution system for missing-
child photos; a system of case management and technical assistance to 
law enforcement and families; training programs for federal, state and 
local law enforcement; and programs designed to help stop the sexual 
exploitation of children.
    In recent years, our nation has become outraged by the abductions 
of children like Jessica Lunsford, Jetseta Gage, Erica Pratt, Shasta 
Groene, Samantha Runnion, Elizabeth Smart, and many others. Their 
stories have unleashed fear among parents everywhere who are asking, 
``How safe is my child?''
    The response is, ``Safer than ever before.''
    More missing children are coming home safely today than at any time 
in our history. Law enforcement is responding more swiftly and 
effectively. There is a national network in place. Parents are more 
alert, more aware, and talking to their children about their safety.
    Yet that is not enough, and there are some inescapable facts. 
Hundreds of children still do not make it home each year, and many more 
continue to be victimized by acts of violence. In fact children are the 
most victimized segment of our society.\1\ Further, research has 
consistently shown that crimes committed against children of all ages 
are the most underreported of any victim category.\2\
    How has NCMEC responded to this?
    We have worked with law enforcement on more than 133,000 missing-
child cases, and played a role in reuniting more than 115,000 children 
with their families. We have a 96.2 % recovery rate, up from 62% in 
1990. We have analyzed more than 500,000 reports of crimes against 
children on the Internet, and referred them to law enforcement, 
resulting in hundreds of arrests and successful prosecutions.
    Here are some of the services we provide:
    <bullet> Hotline: Since 1984 our 24-hour, national and 
international toll-free hotline has received more than 2 million calls, 
or, on average, nearly 300 calls per day, intaking new cases and 
receiving leads on current cases, which are triaged according to 
urgency of the information and the case, and referred to the 
investigating law enforcement agency. Information from callers about 
runaway children is immediately transmitted to the National Runaway 
Switchboard.
    <bullet> Case Management: NCMEC Case Managers serve as the single 
point of contact for the searching family and provide technical 
assistance to locate abductors and recover missing children.
    <bullet> Case Analysis and Support: Using NCMEC databases, external 
sources, and geographic databases, our analysts track leads, identify 
patterns among cases, and help coordinate investigations by linking 
cases together. In 2006 NCMEC created the Attempted Abduction Program 
to analyze attempted abduction trends and patterns and collect 
information to assist law enforcement during investigations. Currently, 
no other national organization aggressively tracks attempted abductions 
across the United States.
    <bullet> Forensic Imaging: NCMEC provides age-progressed 
photographs of missing children and reconstructed facial images of 
unidentified, deceased children. Since 1990 NCMEC has age-progressed 
the photographs of almost 3,300 children; these new photos played a 
role in helping to identify and recover 768 children. Of the 117 facial 
reconstructions performed by NCMEC forensic artists for law 
enforcement, 29 children have been identified.
    <bullet> Cold Case Team: NCMEC works with families, law 
enforcement, and medical examiners to resolve long-term missing 
children cases, cases of unidentified human remains of victims believed 
to be children and young adults, and ``cold'' child homicide cases. 
Former homicide detectives review each case, develop a set of 
recommendations regarding the investigation, and, if requested, provide 
forensic resources. NCMEC is currently handling 468 cases of long-term 
missing children, 201 cases of unidentified human remains, and 7 
``cold'' child homicide cases.
    <bullet> Photo Distribution: NCMEC is actively distributing photos 
of missing children via a wide array of resources, including franked 
envelopes of members of Congress. Three hundred and fifty public and 
private sector companies and organizations partner with us to 
distribute photos, at no cost to NCMEC or taxpayers.
    <bullet> Team Adam: Created in 2003, Team Adam is a rapid, on-site 
response and support system that provides no-cost investigative and 
technical assistance to local law enforcement. It consists of 62 
retired federal, state and local investigators experienced in crimes-
against-children investigations. NCMEC has deployed Team Adam 296 times 
in 43 states, which has helped to resolve 321 cases of missing 
children.
    <bullet> AMBER Alerts: NCMEC offers technical assistance and 
training, in concert with the U.S. Department of Justice, to all state 
AMBER Alert programs. We also disseminate AMBER Alert messages to 
secondary communications distributors, such as cell phone service 
providers.
    <bullet> Website: In 1997 we launched our website, 
www.missingkids.com. The use of the web has enabled us to transmit 
images and information regarding missing children instantly across 
America and around the world. The response has been overwhelming. On 
the first day of operation, our website received 3,000 ``hits.'' Today, 
we receive more than 1 million ``hits'' every day, and are linked with 
hundreds of other sites to provide real-time images of breaking cases 
of missing children. To demonstrate the value of this in a real-world 
sense, a police officer in Puerto Rico searched our website, identified 
a possible match, and then worked with one of our case managers to 
identify and recover a child who had been abducted as an infant from 
her home seven years earlier.
    <bullet> Publications: NCMEC has designed, written, edited and 
published many collaterals and publications for law enforcement, other 
child-serving professionals, and the general public. Since 1984, NCMEC 
has published more than 42 million copies of its publications.
    <bullet> Training: Each month, in our Jimmy Ryce Law Enforcement 
Training Center, NCMEC brings in police chiefs and sheriffs for 
training in the policy and practical aspects of missing and exploited 
child investigations. In addition, we are also training state and 
federal prosecutors, police unit commanders, and many others. We also 
conduct on-site training sessions for hospital staff in preventing 
infant abductions.
    <bullet> International Cases: NCMEC plays a key role in 
international child abduction cases, handling all cases of children 
abducted out of the United States, as well as acting as the State 
Department's representative on incoming cases under the Hague 
Convention on the Civil Aspects of International Child Abduction. Since 
September 1995, we have handled 8,264 international child abduction 
cases, resulting in the resolution of 4,714 cases. We are using the 
Internet to build a network to distribute images worldwide in 
partnership with Interpol. We also provide attorney referrals and other 
assistance to American parents whose children were abducted to another 
country.
    While NCMEC's initial mandate was missing children's issues, NCMEC 
has also been a leader in the fight against child sexual exploitation. 
As technology has evolved and provided those who sexually exploit 
children with more sophisticated and insidious tools to prey on their 
vulnerability, the challenges of protecting our children have increased 
in complexity and number. The mission and resources of NCMEC have 
responded to this challenge in the following ways:
    <bullet> Exploited Child Division: In 1997, in response to the 
increasing prevalence of child sexual victimization, NCMEC officially 
opened our Exploited Child Division (ECD). ECD is responsible for the 
receipt, processing, initial analysis and referral to law enforcement 
of information about these crimes. As technology continued to advance 
and the use of computers became more widespread, Congress recognized 
the need to provide the public with a central reporting mechanism for 
crimes against children on the Internet--and came to us.
    <bullet> CyberTipline: In response to Congress' request, NCMEC 
launched the CyberTipline, www.cybertipline.com, in 1998. The 
CyberTipline serves as the national online clearinghouse for 
investigative leads and tips and is operated in partnership with the 
Federal Bureau of Investigation (``FBI''), the Department of Homeland 
Security's Bureau of Immigration and Customs Enforcement (``ICE''), the 
U.S. Postal Inspection Service, the U.S. Secret Service, the U.S. 
Department of Justice's Child Exploitation and Obscenity Section and 
the Internet Crimes Against Children Task Forces, as well as state and 
local law enforcement. Leads are received in seven categories of 
crimes:
    <bullet> possession, manufacture and distribution of ography;
    <bullet> online enticement of children for ;
    <bullet> child prostitution;
    <bullet> child-sex tourism;
    <bullet> child sexual molestation (not in the family);
    <bullet> unsolicited obscene material sent to a child; and
    <bullet> misleading domain names.
    These leads are reviewed by NCMEC analysts, who visit the reported 
sites, examine and evaluate the content, use search tools to try to 
identify perpetrators, and provide all lead information to the 
appropriate law enforcement agency. The FBI, ICE and Postal Inspection 
Service have ``real time'' access to the leads, and all three agencies 
assign agents and analysts to work directly out of NCMEC and review the 
reports. The results: in the 9 years since the CyberTipline began 
operation, NCMEC has received and processed more than 500,000 leads, 
resulting in hundreds of arrests and successful prosecutions.
    <bullet> CyberTipline for Internet Service Providers: In 1998, 
Congress passed the Protection of Children from Sexual Predators 
Act,\3\ which requires that providers of electronic communication 
services report apparent ography on their systems to NCMEC. To 
facilitate this new role, NCMEC created a separate reporting mechanism 
through which these providers can swiftly and efficiently transmit the 
images and related information to NCMEC for analysis and referral to 
law enforcement. In response to this congressional mandate, NCMEC 
handles approximately 500 reports per week.
    <bullet> Child Victim Identification Program (CVIP): CVIP was 
formally created in 2002 in response to the Supreme Court's decision 
that federal laws prohibiting ography only apply to images of real 
children and not to images that simply appear to be children.\4\ CVIP 
analysts assist law enforcement and prosecutors by maintaining a 
catalog of information about identified child victims, which can be 
used to provide the evidence required to get a conviction in court. The 
program also serves to assist law enforcement in rescuing children who 
are currently being abused but whose identity and location are unknown. 
To date, CVIP has processed more than eight million images and movies, 
and has cataloged information about more than one thousand child 
victims who have been identified by law enforcement agencies around the 
world.
    Here is but one example of CVIP's success: our analysts received 
images of several young girls whom they did not recognize from previous 
images. The photos were taken in various rooms in a home. By 
scrutinizing the background in each image, our analysts detected clues 
to the location of the girls: an ad for a local convenience store, an 
envelope with the name of a storage facility, and a Girl Scout uniform. 
A team of federal, state and local law enforcement used this 
information to find the girls and arrest their abuser. He was the 
grandfather of two of the girls as well as their legal guardian. He was 
convicted and given a sentence of 750 years in prison. None of the 
girls had told anyone about what he had done to them. Their abuse would 
be continuing today if no one had tried to find them.
    <bullet> Partnerships with Internet Industry: Last year, six 
Internet industry leaders, AOL, Yahoo, Google, Microsoft, Earthlink and 
United Online, created a Technology Coalition to work with NCMEC to 
develop and deploy technology solutions that disrupt the ability of 
predators to use the Internet to exploit children or traffic in 
ography. The Technology Coalition brings together the collective 
experience, knowledge and expertise of its members and represents a 
significant step towards making the world safer for our children.
    <bullet> NetSmartz411: This is a first-of-its-kind, online service 
operated by NCMEC to answer questions about Internet safety, computers 
and the web. It is provided at no cost to the public, in partnership 
with the Qwest Foundation. Concerned parents, children, or anyone, can 
directly access the NetSmartz411 library to search for information as 
well as contact NCMEC experts to ask questions related to online safety 
and the Internet.
    <bullet> Safety Education Campaigns: NCMEC has partnered with 
federal agencies, industry leaders and public service organizations to 
create campaigns to educate parents and children about Internet safety. 
These safety messages include ``Help Delete Online Predators,'' ``Don't 
Believe the Type,'' ``Type Smart. Post Wisely'' and ``Think Before You 
Post.''
    In recent years, Congress has asked NCMEC to undertake a number of 
new challenges and responsibilities beyond its core functions. We have 
welcomed them and believe that NCMEC is well suited to take on these 
tasks. Further, we consider these initiatives to be an integral part of 
our mandate as the national resource center and clearinghouse on 
missing and exploited children. These new challenges include the 
following:
    <bullet> LOCATER: Congress asked NCMEC to develop and implement a 
program to enhance basic law enforcement technology in responding to 
missing child cases. NCMEC created LOCATER, a web-based program which 
enables police to create high-quality color posters for local 
distribution when a child disappears as well as disseminate that 
information online to other law enforcement agencies, the media and 
other outlets. NCMEC has approximately 4,000 active LOCATER users.
    <bullet> NetSmartz Internet Safety Resource: When Boys & Girls 
Clubs of America launched its effort to create technology centers in 
all of its clubs, Congress asked that NCMEC develop a state-of-the-art 
Internet safety resource to ensure that these centers could be used 
safely by children. Thus, NetSmartz was born--an interactive, 
educational safety resource for children, parents, educators and law 
enforcement that uses age-appropriate, 3-dimensional activities to 
teach children how to stay safer on the Internet. NetSmartz is now 
available at no cost to other youth organizations, schools, and the 
general public at www.netsmartz.org. Since its inception, 16 state 
Attorneys General have recommended the use of NetSmartz in their public 
schools; currently, all 50 states have schools that use NetSmartz.
    <bullet> Background Checks for Non-Profit Child-Serving 
Organizations: In response to Congress' request in 2003,\5\ NCMEC 
launched a pilot program to conduct national criminal history 
background checks on applicants for volunteer positions with non-profit 
organizations that provide services to children. Because it is a fact 
that child molesters will seek legitimate access to children, these 
organizations are particularly attractive to predators. To date, our 
Background Check Unit (BCU) has conducted over 33,000 fitness 
determinations based on criminal histories. A startling number of 
applicants were found to have lied about not having criminal histories, 
which included violent crimes and crimes against children. This project 
has demonstrated not only the need for fingerprint-based checks of the 
national criminal history database, as opposed to name-based checks of 
state databases, but also the need to make these comprehensive checks 
available at the lowest possible cost to ensure that these 
organizations are able to provide the best protection to the children 
they serve.
    <bullet> Hurricanes Katrina and Rita/National Emergency Child 
Locator Center: The Department of Justice asked NCMEC to lead federal 
and local efforts to recover the more than 5,000 children displaced 
during Hurricanes Katrina and Rita in 2005. Team Adam consultants were 
deployed to the affected areas to serve as an on-site rapid response 
and support system, providing investigative and technical assistance to 
local law enforcement. Team Adam consultants also set up safe areas for 
missing children in the evacuee shelters and, working directly from 
these shelters, electronically transmitted information and photos of 
the children directly to NCMEC headquarters. To manage the volume of 
Katrina/Rita-related calls, NCMEC created a dedicated Katrina/Rita 
Missing Person Hotline which we operated in addition to our existing 
Call Center Hotline. In the aftermath of the hurricanes, NCMEC handled 
more than 34,000 Katrina/Rita-related calls. NCMEC's relationship with 
the media proved vital to our efforts--because of the ongoing 
television coverage of NCMEC's Katrina/Rita Operation, millions of 
people saw the photos of displaced children and got information that 
led to their reunification. As a result of NCMEC's expertise and 
ability to rapidly mobilize critical resources, all (100%) of the more 
than 5,000 missing/displaced children cases reported to NCMEC in the 
aftermath of the storms were resolved within 6 months.
    In 2006, Congress passed legislation to create the National 
Emergency Child Locator Center at NCMEC \6\ to similarly handle all 
future such disasters. We have developed a Disaster Response Plan and 
are actively working with the Department of Homeland Security, the 
Federal Emergency Management Agency and the American Red Cross to 
establish policies and procedures necessary for the Center's operation.
    <bullet> The Financial Coalition Against ography: At the request of 
Senator Richard Shelby, NCMEC brought together leading banks, credit 
card companies, third party payment companies and Internet service 
companies, in a joint effort to eradicate the multi-billion-dollar 
commercial ography industry from the Internet.
    <bullet> Sex Offender Tracking Team: At the request of the U.S. 
Marshals Service, under its mandate per the Adam Walsh Child Protection 
and Safety Act,\7\ NCMEC created the Sex Offender Tracking Team (SOTT) 
to serve as the central information and analysis hub to help locate 
non-compliant registered sex offenders. Analysts provide information 
upon request to federal, state and local law enforcement agencies. In 
addition, SOTT analysts compare NCMEC's attempted abduction data, 
online predator data, and child abduction data to identify potential 
linkages with non-compliant sex offenders being sought by law 
enforcement. This information will be used to create more effective 
prevention and response strategies regarding these offenders.
    The legacy of missing and exploited children in the United States 
can be seen in new laws, heightened public awareness, improved response 
from law enforcement, and unprecedented national attention to 
prevention and education. The recent resurgence of awareness of this 
ongoing problem is a call to action to all law- and policymakers across 
the country. Enormous progress has been made to better protect our 
nation's children in the past 20 years, but our children deserve even 
more.
    Since 1984, per your mandate and with your support, NCMEC has been 
proud to serve as America's national resource center and clearinghouse 
for missing and exploited children.
    Madame Chairwoman, we are deeply grateful for the Subcommittee's 
leadership and support, and, as always, stand ready to work with you 
and your committee to bring more missing children home and keep every 
child safe.
                                endnotes
    \1\ Children as Victims: 1999 National Report Series. Washington, 
D.C.: Office of Juvenile Justice and Delinquency Prevention, Office of 
Justice Programs, U.S. Department of Justice, May 2000, page 6.
    \2\ David Finkelhor and Richard Ormrod. Reporting Crimes Against 
Juveniles. Washington, D.C.: Office of Juvenile Justice and Delinquency 
Prevention, Office of Justice Programs, U.S. Department of Justice, 
November 1999, page 3.
    \3\ P.L. 105-314.
    \4\ Ashcroft v. Free Speech Coalition, 535 U.S. 234 (2002).
    \5\ The Prosecutorial Remedies and Other Tools to end the 
Exploitation of Children Today (PROTECT) Act, P.L. 108-21.
    \6\ Defense Appropriations Bill, P.L. 109-295.
    \7\ P.L. 109-248.
                                 ______
                                 
    Chairwoman McCarthy. Thank you, Mr. Allen.
    Ms. Alberts?

  STATEMENT OF BETH ALBERTS, CEO, TEXAS CENTER FOR THE MISSING

    Ms. Alberts. Thank you so much for letting me come from the 
small state of Texas today to talk to you.
    During 2006, there were more than 650,000 children reported 
missing in the United States and more than 60,000 of those are 
in my home state of Texas. Of these Texas cases, at the end of 
2006, 5,182 of those children remained missing. Those are the 
kinds of things that make me lie awake at night and wonder if 
we are ever going to get all of those kids back.
    I beg you, when you are looking at the issue of missing and 
homeless children, not to differentiate between them, even if a 
child left home voluntarily. Any child who is away from home, 
from a stable, loving environment, is a child at risk.
    No child chooses to be marginalized. Children never 
knowingly choose to expose themselves exploitation and 
victimization. A child who chooses to run away is always 
running to a better place, they hope, than the place they have 
been. They do not consciously choose to become vulnerable to 
predators and exploiters.
    Children who live on the street have three ways to support 
themselves: They steal from us, our communities; they sell 
drugs; and they sell themselves. Many resort to all three, 
creating yet more victims.
    It has also been said that children are our most valuable 
resource, but this is seldom reflected in our practices as a 
society. With our national focus on terrorism, we worry more 
about an enemy we cannot see, cannot know and whose motives we 
cannot understand than those who threaten our children daily.
    Make no mistake, the animals who prey on our children are 
terrorists of the worst order, and they target our most 
vulnerable citizens, those who represent our future, our 
children.
    Predators systematically and methodically threaten and 
terrorize our children on all fronts, whether they are runaway 
or homeless children, those threatened by their own family 
members or by ographers who line their pockets with the profits 
from the sale of innocents.
    Our defense must be no less systematic and methodical. The 
primary motive for stranger abduction is sexual assault of the 
child, and child molesters have on average 117 victims prior to 
their first arrest.
    Children are no longer safe from these terrorists online, 
on the streets, in their homes or even in their beds. And what 
is our response? Very little response, until that particular 
chicken comes home to roost in our backyard. And then we are 
outraged and we pick up the mantle and carry on.
    But we must act now, before another young life is lost, 
before another child loses the very innocence that defines 
childhood.
    There is good news. There is hope. There are concerned 
citizens working together, such as the member organizations of 
the Association of Missing and Exploited Children's 
Organizations and the National Center who work tirelessly to 
ensure that no stone is left unturned in the battle to protect 
our children and to punish the guilty.
    The AMBER Alert program has been so successful and has 
accomplished so much. The multi-jurisdictional, multi-
discipline child abduction response teams now are poised to 
take this critical notification system one step further by 
providing for an immediate, full-scale response to a critical 
missing child incident.
    The attorney general's Project Safe Childhood has begun 
successful efforts to pull together teams to wage war on 
Internet predators. And as a response to continued threats to 
our kids, small, independent efforts are popping up across 
communities daily.
    I am very proud of the staff and volunteers of the Texas 
Center for the Missing for being on the front lines, providing 
both leadership and training to others in the field for all of 
these critical programs.
    Unhappily, I must report to you that not one of these 
programs is adequately funded and few, if any, receive a penny 
of government funding at the local, state or national level. 
Local grassroots efforts are the most effective method for 
delivering prevention efforts and saving children's lives.
    If only a fraction of our war on terror dollars was devoted 
to the protection of our children, we could dramatically reduce 
the number of children traumatized.
    Margaret Mead said, ``Never doubt that a small group of 
thoughtful, committed citizens can change the world. Indeed, it 
is the only thing that ever has.''
    I believe that we at the Texas Center for the Missing, 
through our extensive collaborative partnerships, and through 
our champions like Congressman Lampson, that we have begun to 
have a tremendous impact on this problem. But true social 
change does not happen in isolation. It happens through the 
concerted efforts of a diverse group of caring, committing 
citizens focusing on a complex issues and seeing, really 
seeing, not just the forest, but the trees.
    We must ensure the replication of these collaborative 
networks 10,000-fold are our country and the world to save both 
our children and ourselves from a future more bleak than we can 
imagine.
    Thank you.
    [The statement of Ms. Alberts follows:]

 Prepared Statement of Beth Alberts, CEO, Texas Center for the Missing

The problem
    During 2006 there were 662,228 children reported missing in the 
United States and 60,729 in my home State of Texas (The National Crime 
Information Center, 2007). In Texas, 5,182 of those cases remained 
active at the end of 2006, and I lie awake at night wondering if we 
will be able to recover all of those missing children.
    Any child who is away from a stable and loving home is a child at 
risk. No child chooses to be marginalized. Children never knowingly 
make a choice to expose themselves to exploitation and victimization. A 
child who chooses to run away is always running from a bad place to 
what they hope is a better place. They do not consciously choose to 
become vulnerable to predators and exploiters. It has often been said 
that children are our most valuable resource, but this is not reflected 
in our practices as a society.
    The National Runaway Switchboard reports between 1.6 and 2.8 
million youth run away in a year and that youth aged 12 to 17 are at 
higher risk for homelessness than adults.\1\ Despite these startling 
statistics, law enforcement training academies are not required to 
provide any Amber Alert or missing persons investigative tools, 
training, or resources. Local nonprofit agencies must fill the void.
---------------------------------------------------------------------------
    \1\ Hammer, H; Finkehor, D. & Sedlak, A. (2002). Runaway/Thrownaway 
Children: National Estimates and Characteristics. National Incidence 
Studies of Missing, Abducted, Runaway and Thrownaway Children. Office 
of Juvenile Justice and Delinquency Prevention.
---------------------------------------------------------------------------
The solution: Local nonprofit leadership and collaboration
    Harris County, Texas, represents Texas Center for the Missing's 
largest client base. Harris is the largest of the 13 counties in Texas 
Center for the Missing's primary service area and has a larger 
population than 24 states in U. S. From 2005 to 2006, the number of 
children reported missing rose from 11,648 to 14,809 and in Harris 
County alone, from 8,905 to 11,134--both of these represent more than a 
25% increase! Might I repeat, this is a 25% increase in just one year. 
Despite these alarming numbers, there is no dedicated funding for local 
prevention efforts or law enforcement investigation and response.
    Yes, there is some good news. Strategic partnerships are being 
formed across the United States and North America. Collaborative 
efforts like Project Safe Childhood and regional Child Abduction 
Response Teams are set to have a significant impact through both 
prevention and recovery of missing children. However, neither of these 
vital projects is funded. Local organizations are required to tap into 
their already stretched budgets to provide the people, the time, the 
resources, and the coordination to make these efforts successful.
Roles of Texas Center for the Missing: A model for local efforts
    Texas Center for the Missing offers, or coordinates the delivery 
of, services to meet the needs of the entire spectrum of missing 
persons issues. I would encourage other communities to implement a 
similar comprehensive community child safety plan that should include:
    <bullet> Programs to educate parents and caregivers in the ways to 
safeguard children on the streets and on the Internet, and exactly what 
to do, step-by-step, if a child does go missing;
    <bullet> Encouraging families to discuss safety issues and to 
create their own emergency response plan;
    <bullet> Programs to educate our children in ways to stay safe in 
our community and on the Internet, and alternatives to running away;
    <bullet> Fast public notification of a missing child via the Amber 
Alert for abducted children, or other systems for those missing 
children who were not abducted;
    <bullet> Timely, coordinated responses to endangered missing child 
incidents; and
    <bullet> Follow-up and aftercare for victims and families.
    Texas Center for the Missing's advocacy and support services for 
victims and their families include guidance in reporting and finding a 
missing or abducted child, guidance in finding a runaway child, a 
resource database for abduction survivors and their families, and 
liaison support between families and law enforcement including case 
management, reunification, and information and referral services.
            Amber Alert
    The National Center on Missing and Exploited Children reports that 
there are 121 Amber Alert programs across the United States credited 
with recovering 236 children. In the 13-county Houston Region, covering 
more than 12,000 square miles and a population of more than 5.5 million 
people, we have issued 65 Amber Alerts representing 70 children. Of 
these, children in 58 cases were recovered safely, 3 were found 
deceased, and 4 remain missing. This is an 89% success rate and 
exemplifies what a powerful tool the Amber Alert can be.
    The Amber Alert has made a huge difference in missing child cases; 
however, it is imperative to understand what the Amber Alert is and 
what it is not. The Amber Alert is a very effective tool for law 
enforcement to enlist help in tracking down an abductor, the abductor's 
vehicle or the missing child. It is a way for the media and the general 
public to assist in the recovery of an innocent child and a malicious 
predator.
    The Amber Alert is not a panacea. It will never replace a thorough, 
efficient, and effective law enforcement investigation. It will not 
replace vigilant supervision of children by trusted adults nor will it 
replace missing ion and education programs. It will not replace 
adequate prison sentences and good criminal justice supervision of 
probationers or parolees and, in particular, child sex offenders. 
Rapists and child molesters are serial offenders. It is well documented 
within the mental health community that most sex offenders are beyond 
rehabilitation (``compared to non-sex offenders released from State 
prisons, released sex offenders were 4 times more likely to be 
rearrested for a sex crime.'' \2\ ).
---------------------------------------------------------------------------
    \2\ Report on the Recidivism of Sex Offenders Released from Prison 
in 1994. U.S. Department of Justice-Office of Justice Programs: Bureau 
of Justice Statistics.
---------------------------------------------------------------------------
    Law enforcement officers are the only ones who can issue an Amber 
Alert for an abducted child. It is a critical element in the resolution 
of a child abduction, but it is only a part of what we must do to keep 
children safe. We must each do our part by protecting children and 
responding when they are in danger. It is my fervent hope that someday 
soon we will not need the Amber Alert, the Child Abduction Response 
Team or a National Missing Children's Day because all of our 
community's children will be safe.
            Southeast Texas Child Abduction Response Team (SETCART)
    The Southeast Texas Child Abduction Response Team (SETCART) is an 
effort to bring seasoned investigators, tenured prosecutors, search-
and-rescue volunteers and victims' advocates together to work the most 
urgent child abduction cases. The Southeast Texas Child Abduction 
Response Team will enable the immediate deployment of all necessary 
resources for qualifying cases and therefore positively impact these 
serious, life-threatening scenarios.
    Texas Center for the Missing and the Houston Regional Amber Alert 
are providing leadership for the development and implementation of the 
Southeast Texas Child Abduction Response Team. Our effort was the first 
in Texas and serves the region that historically has the most missing 
child cases in the state. With over 150 law enforcement agencies in the 
Southeast Texas region, this is a Herculean effort that requires 
unbiased leadership and strong relationships within the community. 
Currently, more than 70 law enforcement agencies in our region have 
signed on to SETCART.
    SETCART is a multi-disciplinary, cross-jurisdictional, pre-planned 
and coordinated response to cases of endangered missing children and 
child abductions based upon a highly successful model system operating 
in Florida. While Florida has a state mandate and state funding with 
which to implement their CART process, Texas is not so fortunate. 
SETCART is a grassroots-driven effort in which participation is purely 
voluntary for all of our member agencies.
            Missing Persons Response Kit
    Texas Center for the Missing has also developed a Missing Persons 
Response Kit for law enforcement agencies so that they have at their 
fingertips the tools and contacts to provide the fastest, most 
effective response in the critical period after a child is missing. 
Amber Alert and Missing Persons Investigation training is provided upon 
delivery of each resource kit. Contents of the Resource Kits can be 
found in Appendix A.
            Southeast Texas Search and Rescue Alliance (SETSARA)
    One of the greatest achievements of Texas Center for the Missing 
has been the coordination of the Southeast Texas Search and Rescue 
Alliance (SETSARA): a coalition of volunteer search-and-rescue groups 
and law enforcement partners. Prior to the creation of SETSARA, law 
enforcement had little confidence in the professionalism of search-and-
rescue experts and, therefore, did not access this important resource. 
To compound the issue, there was a mutual feeling of distrust among the 
individual search-and-rescue groups so that communication was limited 
and duplication of efforts was common. Now local groups work together 
to offer effective and efficient search resources to law enforcement 
and the community.
    Formed in 2001, SETSARA provides its membership with search 
training and public safety agencies (e.g., law enforcement, fire 
department, and wildlife agencies) with awareness, education, and 
search services. By providing necessary resources to law enforcement 
(and only the resources they need and request), we enable law 
enforcement agencies to focus on what they do best--the investigation.
            Association of Missing and Exploited Children's 
                    Organizations (AMECO)
    AMECO is an organization of member agencies in the United States 
and Canada who provide services to families with missing and exploited 
children. Our mission is to build and nurture an association of 
credible, ethical and effective non-profit organizations that serve 
this vulnerable population.
    In partnership with the National Center on Missing and Exploited 
Children and the International Center on Missing and Exploited 
Children, the member organizations of the Association of Missing and 
Exploited Children's Organizations, of which Texas Center for the 
Missing is one, serve hundreds of thousands of children and families 
each year.
    These passionate, professional, caring staff and volunteers work 
diligently to protect children. Most of us feel it is a mission, a 
calling, and not just a job. However, we are truly fighting an uphill 
battle. Two things threaten the work we do: a lack of awareness on the 
part of the community and legislators about the severity of the 
problem, and the lack of funding to support these critical life-saving 
efforts.
    Our greatest challenge has been that funding dollars are scarce 
while demand for our services continues to increase!
            Crime-Stoppers
    Another collaborative partnership that Texas Center for the Missing 
has found to be successful is working with the local Crime Stoppers 
organization. Crime Stoppers of Houston works closely with Texas Center 
for the Missing and the Houston Amber Alert to maximize the publicity 
of open Amber Alert cases on the anniversary of the child's abduction. 
The press conferences convened by Crime Stoppers of Houston provide 
another tool for law enforcement agencies to secure leads in a cold 
case.
            The Internet Threat
    I believe the battle to protect our children has moved, largely, 
from the street to the Internet. This is not good news. Unfortunately, 
the Internet has re-defined who is accessible and expanded the victim 
pool exponentially. A single predator can communicate with hundreds of 
children and set them up for victimization. Predators share their 
victims with other predators and manipulate children to self-exploit by 
sending s across the internet which are then shared among these heinous 
criminals.
    Locally, Texas Center for the Missing participates in the US 
Attorney's Southern District Office efforts to implement this vital 
program. Prevention is key to educate children on the dangers they face 
online, as well as how to avoid self-exploitation. The very simple 
concept that, ``Digital is forever.'' is often lost on the most 
impressionable in our society--young teenagers who are looking for 
``safe'' ways to rebel against their parents and expand their 
boundaries as young adults. To address this issue, Texas Center for the 
Missing has developed a cadre of internet safety education programs 
which are modeled closely upon the National Center for Missing and 
Exploited Children's NetSmartz program. Preventing a child from being 
abused or exploited is the ultimate goal in all of our educational 
programs. A complete list of our educational programs can be found in 
Appendix B.
            Project Safe Childhood
    Guided by the leadership of the Attorney General, Project Safe 
Childhood (PSC) aims to combat the proliferation of technology-
facilitated sexual exploitation crimes against children. The threat of 
sexual predators soliciting children for physical sexual contact is 
well-known and serious; the danger of the production, distribution, and 
possession of ography is equally dramatic and disturbing. The response 
to these growing problems must be coordinated, comprehensive, and 
robust. It must aim to investigate and prosecute vigorously as well as 
protect and assist victimized children. At the same time, it must 
recognize the need for a broad, community-based effort to protect our 
children and to guarantee to future generations the opportunity to grow 
safely into adulthood.
    Project Safe Childhood is a definite step in the right direction, 
pulling together diverse teams working together to keep children safer 
online, to snare Internet Predators and prosecute them to the fullest. 
Unfortunately, the predators are cunning, incredibly technologically 
savvy and highly adaptable to all of the obstacles we place in front of 
them. We must arm ourselves better against this crime on all levels or 
we will remain seriously outgunned. As Attorney General Gonzales says, 
``We can not prosecute our way out of this problem.'' Sadly, this 
program, too, is unfunded.
                             jenny's story*
          In January, 2006, a petite, 15-year-old girl from League 
        City, TX, was lured away over the Internet by a 26-year-old man 
        who lived in her area. He picked her up, took her to his house, 
        drugged and raped her and shared her with two of his friends, 
        one of whom carved Xs with a razor blade from one of her pelvic 
        bones across to the other. 18 months later she and her family 
        are still struggling with their recovery while having to deal 
        with the court, the DA's office and the fact that one of the 
        perpetrators of this heinous crime is on the run and may never 
        face justice. This traumatized victim and family strive 
        everyday to get their lives back to normal.
---------------------------------------------------------------------------
    *Jenny's name has been changed to protect her identity.
---------------------------------------------------------------------------
          Many civilians as well as law enforcement officers do not 
        feel that internet lures are a danger or on some level believe 
        that a child who leaves of their own volition is not endangered 
        or does not deserve emergency response. Jenny's story 
        exemplifies how a child's single poor choice can lead to a 
        nightmarish experience that becomes a life sentence for and her 
        entire family.
Next steps
    The U. S. Attorney General's Project Safe Childhood, Jessica's Law, 
which has been passed in various states across the country, and the 
recently passed Adam Walsh Child Protection and Safety Act provide even 
greater support of programs to arm children and families as well as 
punish those who would rob our children of their innocence.
    We are fortunate to have all of the partnerships and programs 
discussed in this document, but it will take all of us, working 
together, to truly protect our children. In the past, we could let our 
children play in the front yard without standing guard over them. In 
the past, we could put our children to bed at night and comfortably 
expect to find them safely there the next morning. Unfortunately, these 
two simple acts, and many more, can no longer be taken for granted. We 
have seen children snatched out of their yards and their school and 
play areas, off the streets in our communities, and from their very 
homes, that place we all think of as a haven.
                                 rachel
          Robert Cooke, whose daughter Rachel has been missing since 
        January 2002 says ``When I first met the director of Texas 
        EquuSearch, he told me my wife Janet and I are now in a special 
        club. It's a club no one wants to join. It's a club of sorrow 
        and grief. It's the club of parents and families of missing 
        children.
          The club is full of emotions. There is anger at the person 
        who took your loved one. The worst feeling of all is 
        helplessness. What can I do? What haven't I done? We've posted 
        flyers and passed out bumper stickers and buttons, but nothing 
        has brought our Rachel home.
          Many sleepless nights occur in the club. When you are able to 
        sleep and you awake, you wake up to a reality far worse than 
        any nightmare. The guilt is overwhelming. Why was I not there 
        to protect her? Why didn't I teach her how to protect herself? 
        I am her father; it was my job to protect her. Well, I say it's 
        time to reduce the membership drive for this club''.
            Funding
    Nothing to which I have ever been exposed has affected me as deeply 
as this issue. I have never been more convinced that working together, 
caring people can make a difference. I have never been more convinced 
that we can, we must, do more to protect our children and keep their 
families from joining ``the club.''
    Unfortunately, most people believe that the missing children 
problem is solely the province of law enforcement and is already well-
funded by our tax dollars. As a result, concerned citizens are unaware 
of the need to support this effort. The truth is a very different 
story.
    Did you know that there are no designated funds for our Amber Alert 
system? There are no monies at the local, state or federal level to 
help offset the costs associated with administering this important 
effort. Each year in the thirteen-county Houston-Galveston region, 
populated by more than 5 million people, 12,000--15,000 children are 
reported missing, and Texas Center for the Missing is responsible for 
all costs associated with administering the Amber Alert in our high-
need region.
Legislation and other public policy issues to pursue
    <bullet> Comprehensive Funding Tied to Collaborative Efforts
    <bullet> Establish Statewide Minimum Standards for Certification 
for Search and Rescue Volunteers
    <bullet> Give parole officers the right to enter sex offenders 
residences so law enforcement officers do not have to wait hours for 
warrants when looking for an abducted child
Conclusion
    Regardless of the circumstances under which a child is missing or 
homeless--abduction, runaway or thrownaway--each of those children, 
dulled by that trauma, represents a bright future--our future. However, 
we must devote resources to helping them regain the innocence and sense 
of hope that will inspire them to become an active, caring part of the 
communities in which we live. Otherwise, we have condemned them and 
ourselves to less--less quality of life, less security, less of a 
safety-net for those closest to us.
    When I was a child, I dreamed of having a child, loving and 
nurturing a young life. When I realize that dream and had my two 
daughters, I poured my heart and soul and most of my energy into 
protecting them and raising them. They were my number one priority, as 
they should be.
    Too often children are not the number one priority of their 
parents, or of the communities and society in which they are reared. 
Lip-service is paid to them in grand speeches and editorials, and 
through poorly funded programs that address piece-meal programs instead 
of servicing the spectrum of comprehensive needs.
    Ultimately, we are judged not on what we say but what we do, and 
children learn from us too--not from listening to what we say but by 
watching and emulating what we do, and recognizing where they fall in 
our priorities. I believed while raising my young children that the 
world was, at least generally, a safe place. I wonder what young 
mothers think now.
    Unfortunately, adults no longer represent figures of authority to 
our children, those to whom respect is due. Adults are seen as threats 
to, or targets of, children. However, we must not blame the child. The 
child learns by example, by our actions not our proselytizing.
    We can blame the media, the celebrities, and law enforcement, but 
we are the ones who must bear the brunt of the blame--parents, 
grandparents, citizens of the communities in which our children grow 
up, decision-makers and policy-makers. We must ask ourselves each day 
``Am I putting the welfare of our children first?''
    We are fortunate in the Houston area to have a comprehensive 
network of organizations that mobilize and deploy resources to help 
save children. Most areas don't. However, would it not be better to 
eliminate the problem of missing children by putting child predators on 
notice that we won't tolerate them targeting our children, and if they 
do, we will hunt them down like the animals they are?
    Predators like Joseph Smith, who murdered Carlie Brucia in Florida 
in 2004 and will never be released from prison, will never victimize 
another child, but those like him are legion. Our best defense against 
his type are more, and better-funded, programs like the ones AMECO 
Organizations offer to parents and children in how to reduce the ways 
for them to become victims.
    Each time a child has been abducted--my heart is crushed, and I 
want to rewind the clock to see what could have been done differently 
to prevent the tragedy. But all I can do is help when I can and stay 
steadfast in my convictions that we can reduce these incidences. 
Working in the missing child field has changed my life forever. I am 
convinced there is no more challenging or rewarding work, nor has my 
contribution to any field been more important. Together we can save 
lives and childhood's innocence.
    For the victim and family involved in an abduction or Internet 
luring case--the victimization is a ``life sentence''. Their lives are 
normal the day before the incident, but during and after it there lives 
will never be the same again.
                                 ______
                                 
    [Additional materials submitted by Ms. Alberts follow:]

Appendix A.--Law Enforcement Missing Person Resource Kit Inventory List

Pre-Planning
    <bullet> When It's Not an Amber Alert: Developing a Missing Child 
Response Plan
    <bullet> Law Enforcement Policy and Procedures for Reports of 
Missing and Abducted Children
Amber Alert
    <bullet> Houston Regional Amber Plan Brochure
    <bullet> Missing Children, the (Houston) Amber Alert and You
    <bullet> Website Overview (www.amber-plan.net)
    <bullet> User Name and Password
    <bullet> Navigating the Online Web Activation System
    <bullet> Contact Information
    <bullet> Houston Regional Amber Plan (includes After Action Report 
Form)
    <bullet> Texas Amber Alert Network
    <bullet> Amber Alert (National) Brochure
    <bullet> Amber Alert Fact Sheet
    <bullet> Amber Alert Best Practices Guide for Public Information 
Officers
    <bullet> Amber Alert Best Practices Guide for Broadcasters and 
Other Media Outlets
Local Resources and Investigative Checklists, Alert Systems, and Guides
    <bullet> Resources for Law Enforcement--Texas Center for the 
Missing
    <bullet> Investigative Checklist for First Responders
    <bullet> Alzheimer's and Related Disorders Missing Person Checklist
    <bullet> Lost Person Questionnaire
    <bullet> A Child is Missing Flyer
    <bullet> Critical Reach Alert System Packet
    <bullet> FBI's Child Abduction Response Plan: An Investigative 
Guide
    <bullet> Missing and Abducted Children: A Law Enforcement Guide to 
Case Investigation and Program Management
    <bullet> Recovery and Reunification of Missing Children: A Team 
Approach
Texas Checklists, NCIC, DNA Tools, and Clearinghouse Services
    <bullet> Basic Checklist for Working Unidentified Person Cases 
(Texas)
    <bullet> NCIC $M Messages
    <bullet> Information on the Texas Missing Persons DNA Database
    <bullet> Texas Missing Persons CODIS DNA Database Sample Collection 
Kit
    <bullet> Sexual Assault Medical Examinations Reimbursement Form for 
Law Enforcement Agencies
    <bullet> Laboratory of Forensic Anthropology and Human 
Identification: Case Submission Information
    <bullet> Texas DPS Missing Persons Clearinghouse Brochure
    <bullet> Texas DPS Special Crimes Service Overview
    <bullet> Texas DPS Missing Persons Clearinghouse State and Federal 
Missing Persons Statutes
National Resources
    <bullet> National Center for Missing and Exploited Children (NCMEC) 
Resources for Law Enforcement Professionals
    <bullet> NCMEC Nationwide Support Services
    <bullet> Association of Missing and Exploited Children's 
Organizations (AMECO) Membership List
    <bullet> National Association of Search and Rescue (www.nasar.org)
    <bullet> Safe Return: Alzheimer's Disease Guide for Law Enforcement
    <bullet> Resources/Websites of U.S. Departments
    <bullet> NCMEC General Information and Publications
    <bullet> National Training Available
Family Resource Packet
    <bullet> When Your Child is Missing: A Family Survival Guide
    <bullet> Texas Crime Victims' Compensation Application Form 
(English)
    <bullet> Texas Crime Victims' Compensation Application Form 
(Spanish)
    <bullet> Victim Support Resource Database (Greater Houston Area)
    <bullet> A Family Resource Guide on International Parental 
Kidnapping
    <bullet> Alzheimer's Association Brochure
    <bullet> SafeReturn--Wandering: Who's at Risk?
    <bullet> Covenant House-Texas Flyer
Discs and Software
    <bullet> Simple Leads Management System
    <bullet> Federal Resources on Missing and Exploited Children: A 
Directory for Law Enforcement and Other Public and Private Agencies
                                 ______
                                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
                                ------                                

    Chairwoman McCarthy. Thank you very much.
    There are many of us that sit on the Education Committee 
that feel very strongly--before I came here, I was a nurse, so 
I kind of look at things holistically. And many of us are 
looking at those young families from when the child is born to 
be able to reach out and give help to them at that particular 
time, hopefully so that we won't be running into problems later 
on, working with the parents and certainly working with the 
newborn child.
    But, with that, Rusty and Mr. Rolle, I guess I would want 
to hear from you. You have been through the justice system, you 
have been through foster homes, you have been through homeless 
shelters.
    Where do you feel could be an improvement as far as where 
did the system drop both of you? Where did we lose you, as a 
society? What could have been done, or what do you think could 
have been done? Because I am sure you probably thought about 
that, if somebody had gotten to you at an earlier age to work 
with you, or did you have to go through it, just grow out of 
it, or with the help that you got?
    Could you put your mike on?
    Mr. Rolle. Today, I had a conversation with Vicki. She runs 
the Network for Youth. And I didn't know of half of the 
services that were in New York City. And I didn't know how to 
get to the place that would have told me where the services 
was.
    I kind of just stumbled on people in the community just 
trying--when I got kicked out of my mother's house, I was 
walking down the street and a friend of mine who was in the 
theater group said, you can stay at my house. I had this big 
bag of stuff in my hand, and he said, what happened? I told him 
what happened. But that was only because I was a part of that 
group.
    And this was out of our own pocket. We met at the local 
school, so it was just her ingenuity, trying to figure out how 
to do something, because she just had a heart. Even myself, 
with the work that I do. So a lot of it is, I guess, public 
awareness, or in entertainment we say marketing, to be known.
    I don't know, sitting on the subway, I can see a place, see 
signs or see something that is attractive to a young person 
that he can say, all right, if need something, I could call 
this number. And I never knew of any places like that. So I 
think that was missing.
    And then for me, personally, I think where I got lost a 
little bit was the arts in the school for me, being in school--
not so much the arts, but a place to kind of just talk, if that 
makes sense. When I heard him speak, it touched me, because I 
feel like that is why I couldn't pay attention in school, or I 
acted out, was because I didn't have a place that I could talk 
about those things.
    Who wants to hear about some kid, what he is dealing with? 
So that is where I kind of got lost.
    Chairwoman McCarthy. Thank you.
    Rusty?
    Mr. Booker. I guess I could say, going through everything I 
went through, I guess I can say I always felt like I could go 
to Safe Place to get what I needed done.
    Chairwoman McCarthy. How did you find out about the Safe 
Place, just to go to them?
    Mr. Booker. When I was 12, my previous foster mother told 
me about it and she told me to go to the library and ask for 
it. And it took me a couple of hours. I sat there thinking, 
because I was kind of scared about what was going to happen 
afterwards, after I got there.
    But I finally got the courage to walk up there and ask for 
it. And, like I said, when I got there, I talked to somebody 
and within 2 weeks I was with that previous foster mother that 
had told me about it.
    And I don't feel like the state really did anything after I 
left there to find me somewhere to go. They just stuck me back 
in an abusive home. And there, I just went downhill. I once 
again was in that home and it wasn't doing anything for me.
    I had nobody to talk to, was roaming the streets, selling 
drugs, doing drugs, just doing whatever I pleased. And nobody 
was ever there for me.
    Chairwoman McCarthy. And I guess just a follow-up question, 
for the rest of the panel, especially with what kind of 
background checks are we doing for the foster homes that these 
kids are going into?
    And what are we doing as far as when you talked about the 
first thing I was talking about--obviously, we should be 
fingerprinting those that are working with children. We should 
be doing the same thing with the elderly, in nursing homes.
    I happen to think we should be going both ways, because 
there is a lot of abuse in nursing homes, also. But I will go 
back with what is the answer? When these kids go into foster 
homes and they turn out to be bad homes and these kids have no 
place to go?
    Mr. Allen. Madam Chair, clearly, there are an extraordinary 
number of committed, dedicated people doing great work. I mean, 
what we hear around the country is there just aren't enough. 
And there are inadequate resources to support these alternative 
programs and been the basic social services programs.
    And state and local governments are just overwhelmed with 
the sheer magnitude of the problem. And I think this is a very 
complex answer, and it is one that involves more resources and 
also involves--you talk about background screening.
    We have dealt with these cases all the time that make it to 
us and we just have to build systems where the protection of 
the child is paramount in all of this. And I think there are 
ways to do that, but it is complicated.
    Chairwoman McCarthy. I will finish up with this. I know 
back in New York many years ago, actually, my neighbor took in 
foster children for a long time. One of the problems that she 
came across was back then every 2 years, even though the 
children were with her, happy, they had to be moved out so 
there would be no attachment. Thank goodness we have outgrown 
that, hopefully to a large extent.
    With that, Mr. Platts?
    Mr. Platts. Thank you, Madam Chair.
    My thanks again to all of our witnesses and, Rusty and Mr. 
Rolle, or Kazi, if you prefer, especially the two of you, being 
willing to come and share your personal experiences and 
stories. It certainly helps us better understand the real-life 
aspect of these issues.
    And I commend your courage in doing so and through your 
efforts of ensuring that your challenges result in positive 
outcomes for others. And that through your efforts here today 
and not just today in testifying, but in your work, in your 
community, in your efforts, that you are going to make a 
difference for others. And so I especially thank you.
    And I would like to recognize, and I don't know if he is 
comfortable, and I don't know who he is, so if he is not, but 
if Mr. Bill, as referenced here, if you would like to stand and 
be recognized on behalf of all of those who work with children. 
[Applause.]
    We appreciate your helping Rusty to be here and, as I say, 
in kind of being recognized on behalf of all of our men and 
women throughout the country who are working on behalf of youth 
to improve and ensure the safety of their lives, so thank you.
    Mr. Allen, I want to follow up, and you talked about it in 
your written testimony and in your oral testimony, about the 
background checks, this effort to try to ensure that predators 
don't get access through a legitimate program. Did you say 3 
percent on average?
    Mr. Allen. We have done in the pilot that was set up under 
the PROTECT Act, the FBI runs the records, and then we do 
fitness determinations so that we communicate to the youth 
organization on a red-light, yellow-light, green-light basis.
    We have reviewed 25,000 applicants, and of that number, 
roughly 7 percent had criminal records and slightly less than 3 
percent had what we considered disqualifying criminal records. 
This is in every case knowing that they are being fingerprinted 
and knowing that they are going to be subjected to a national 
FBI-based criminal history background check.
    Mr. Platts. Given that that is 3 percent of that 25,000, so 
we are talking a significant number, that are seeking access to 
children that shouldn't be, what happens once you make the 
identification?
    I guess, does law enforcing in any way follow up on that 
information? Are those who obviously present information either 
falsely, that they have no reason--I imagine some of those 3 
percent in their adjudication probably are prohibited from 
having contact with children.
    Is there any specific follow-up mechanism to ensure that 
not just they are prevented from being in that program, because 
the worry is they will go to another program and not get 
caught?
    Mr. Allen. Yes. Now, I think the key point in all of this 
is in many of these instances, these offenders have not done 
something wrong by applying to be a volunteer, absent some kind 
of violation of their parole condition or probation condition, 
but where possible, where actionable, we are making sure that 
the appropriate law enforcement agency gets that information.
    Mr. Platts. Because by them having it, there may be 
something in their parole that says no contact and the fact 
that they actively sought would then be evidence that they are 
violating that parole.
    Mr. Allen. Yes.
    Mr. Platts. Okay, related to that, and, Ms. Alberts, I 
think it was in your testimony you talked about access to 
parolees and parole officers being given more access on a 
timely manner where there is belief that perhaps a child has 
been abducted or sexually abused by someone on parole.
    Ms. Alberts. Absolutely. There are several cases. If you 
will recall, the Jessica Lunsford case, that was a case right 
there where she was in that parolee's residence, that had they 
not had to wait for a warrant, something could have been 
hopefully avoided at that time.
    We just felt that, in working with our law enforcement 
agencies, that the probation and parole officers have rights of 
access to the domicile for welfare checks or those kinds of 
things. And why not in a case, during those critical first 
hours that a child is missing, if we can close in and close 
that gap, I think that would be phenomenal.
    Mr. Platts. I assume that most of that is probably going to 
be driven by state law in most prosecutions.
    Ms. Alberts. Right, right.
    Mr. Platts. Although there are federal prosecutions as 
well. And I guess I was under the belief that someone on parole 
basically gave up their right to privacy while they are on 
parole. But your understanding is that if they go in for other 
reasons, but they still have to----
    Ms. Alberts. My understanding is that in order to come in 
in a circumstance like this, it still has to meet the probable 
cause in order to justify a warrant. That is my understanding. 
I am not an attorney, but that is what my law enforcement folks 
are telling me.
    Mr. Platts. I see my time has expired. I am not sure if we 
will have a chance to come back with a second round. If not, 
again, I want to thank each of you.
    Is it okay if Ms. Eggleston had a follow-up I think?
    Chairwoman McCarthy. Oh, sure.
    Ms. Krahe-Eggleston. Many of the RHY providers are licensed 
by the state. So in Arizona, and I speak about my own state, 
every staff member that works, or volunteer that works in our 
programs have to be fingerprinted and have to go through a 
background check.
    Yes, we do get those few that knowingly apply for 
positions. The challenge we have is the time line to get that 
information back. It is a drudgerous process. So even a good 
person coming to volunteer that has no background until they 
are cleared, we can't let them work with our young people.
    So the challenge we have is the time line. It can take 3 to 
6 months and it costs, $60, $80 a pop to have it done. So, for 
us, most of us are licensed. Most of us that provide the 
services within the RHY umbrella meet those criteria, but it is 
a time line issue more than anything else.
    Mr. Platts. Thank you.
    Thank you, Madam Chair.
    Chairwoman McCarthy. You are welcome.
    Mr. Grijalva?
    Mr. Grijalva. Thank you, Madam Chair.
    And, as my colleague Mr. Platts mentioned, let me thank Mr. 
Booker and Mr. Rolle. Your persistence and your strength is 
something that I respect and admire very much. Thank you for 
your testimony.
    Ms. Krahe-Eggleston, a couple of questions. Do you have any 
data, or even an idea, of the percentage of homeless young 
people in the centers that you have that have aged out of 
foster care?
    Ms. Krahe-Eggleston. Congressman, I could tell you an 
approximate, but I could gather that information for you 
specifically and get that to you in writing. We see a lot of 
street kids that have aged out of the system, by choice 
sometimes. They don't want to be involved with the system. They 
have been involved with the system that has been very difficult 
for them for a long time.
    The foster care system isn't always a friendly system, to 
say the least. So most of them would rather not be involved 
with the system, and as soon as they turn 18, they disappear.
    But the Chafee funds that came in a few years ago picked up 
a lot of those kids. But I can get you that information.
    Mr. Grijalva. Thank you.
    Your agency operates a residential program for homeless 
young families. Tell the committee a little bit about that and 
about what I perceive to be an increasing need for that kind of 
residential service.
    Ms. Krahe-Eggleston. The young families that we see, 
whether they are single-parent families or intact young 
families, just trying to get by in today's time, it is very, 
very difficult. The housing costs, just the day-to-day living 
costs, become insurmountable. In the service delivery system we 
have, we have young couples.
    We have couples that are under the or 24 sometimes, but 
mostly under the , that choose to have children and they are a 
couple. And some are married, some are not. But they are a 
couple.
    Being able to serve them is a huge gift to our community, 
and it is one that the need for that kind of service has become 
more and more apparent as time has gone by. I think we see that 
across the country with that.
    Of course, single moms, single dads, raising kids at age 19 
years old is a huge challenge today. We see it.
    Mr. Grijalva. Thank you.
    And one other question, if I may. Some examples of how your 
agency provides positive youth development principles to the 
young people that you work with. I think this legislation, this 
authorization, is also about youth development. It is not just 
a safe harbor. There are things that need to occur as part of 
that safe harbor.
    Ms. Krahe-Eggleston. For me, the biggest issue around 
positive youth development is having the kids involved with 
every step of their process within the system. People can't 
decide what is going to happen to a 16-year-old by themselves. 
That 16-year-old or 15-year-old or 18-year-old needs to have a 
voice in what happens to them, for them, with them.
    Also, getting the kids involved at all levels of our 
organization is really important, and most of us within the RHY 
community, kids are on our boards. Young people serve on our 
advisory committees. They have a say in how the program 
operates and what services they need.
    Mr. Grijalva. Thank you very much.
    Ms. Krahe-Eggleston. You are welcome.
    Mr. Grijalva. A final question. Mr. Berg, you mentioned in 
your oral testimony, I don't know how to describe it, but you 
become desensitized, tolerate, benign acceptance of the idea or 
the concept of homelessness, and, in this specific instance, 
homeless youth.
    We talked about outreach. We talked about getting 
information to those persons that need it. But how do we combat 
that attitude? I sense it as well. There is a margin of 
tolerance--``Oh, they are homeless''--and you kind of walk away 
from it.
    Mr. Berg. Yes, thank you, Mr. Grijalva. I agree. I think 
hearings like this are helpful. The more community-based kind 
of hearings, I think the more people can hear from, 
particularly in the issue of youth homelessness, from young 
people themselves who have gone through these things.
    I think that is very effective. I know I constantly talk to 
members of Congress and their staff who us sort of wonky, D.C. 
types can talk until we are blue in the face, but what they 
remember is talking to a person who had been homeless and 
suddenly realizing that this just wasn't some number on a page.
    We struggle with that all the time. The other part is we 
need policies that are directed at immediate solutions, short-
term solutions, getting people off the streets and into some 
sort of stable housing, fast. And we need to have performance 
measures for providers that include those.
    I know the National Network for Youth has been in favor of 
that. Those are some of the things that will be helpful.
    Mr. Grijalva. Thank you, Madam Chair.
    Chairwoman McCarthy. You are welcome.
    Mrs. Biggert?
    Mrs. Biggert. Thank you, Madam Chairman.
    One of the first situations I think that caused me to get 
so interested in these types of programs was having a neighbor 
who had a daughter that was troubled and was a runaway. And 
they never found her, never heard from her. My neighbor died 
not too long ago, and I think that was the thing that was so 
troubling to her, was never to know what had happened to her 
child.
    And for all of the good work that all of you do on this, I 
noticed that, Mr. Allen, you have a cold case where you are 
still working on finding those missing children that have been 
gone for a long time.
    Mr. Allen. Congresswoman, the media spotlight dims and the 
world forgets, but these families don't forget. And so we have 
a team that is actively looking at these long-term cases, 
trying to look for new leads. We have resolved, having worked 
more than 5,000 of these cases, resolved about, as I recall, 
368.
    All but 12 of them were resolved through identifying a 
deceased child. And while that doesn't bring a live child home, 
at least it brings closure. But I think it is important.
    These are long, long-term cases. And in 12 of the cases, 
where law enforcement had run out of leads, the child was found 
alive and was brought home. So it is really important that we 
not forget about these kids that are out there.
    Mrs. Biggert. Thank you, and thanks for all you do on that.
    And then, Mr. Berg, how do you reach runaways? Or any of 
you that are in these services, and I know so many times that 
they are ready to come home if they can find a way home or a 
pathway to connect with their families again. How do you 
encourage that? How do they get to know about the services?
    Mr. Berg. Yes, I think one of the things is the runaway and 
homeless youth programs of course include a very active street 
outreach program that I think is very effective and reaches 
lots and lots of people and are very effective where there is a 
family ready to take a child back.
    I would note parenthetically that there are many situations 
where that is not the case, where the outreach is a good first 
step, but there is nothing behind it. And that is why more of 
the kinds of programs, transitional programs and permanent 
housing options, are very necessary.
    But I think people in the field have really developed this 
sort of art and science of outreach to a very great extent. 
There are a lot of very skilled practitioners who carry this 
out.
    Partly, it is knowing that there are options available and 
just making sure that people know what those are. I mean, the 
story about sort of not having a place to find about what sort 
of services are available I think is sort of a common one.
    Mrs. Biggert. Well, one of the bill that I am working on is 
to provide for homeless children who are emancipated and are 
not working with their parents, or there is no connection. And 
right now, they cannot get scholarships to college because the 
parents can't or won't sign the form and they won't disclose 
their finances, which of course they wouldn't be using for 
their child's education, anyway.
    Do you have any idea how many youth could take advantage of 
something like this?
    Mr. Rolle. I had a couple of things, but just on that 
particular point, the state of California, they did something 
very similar where they wanted to talk about foster care, 
because it is very, very high there. And one of the things that 
I found when I emancipated is I didn't know where to go to go 
to the next level.
    And I think that I am creating a network for the people in 
positions like yourself to look down at all of these people 
doing this work and connect them, because sometimes we don't 
know about each other.
    And if there is a network of I don't have them, you have 
them, and we both kind of converse about what are the things 
that we can help each other on, I think that is very important. 
And a lot of times everybody is fighting for the money. There 
is not enough money. So if there is enough money, then we are, 
like, we can work more together.
    So I think that is very important, especially for 
emancipated youth, because they are the ones who feel the 
jails, fill the cemetery, the s, because those girls, a lot of 
them go to college. They are the ones that are in the clubs, 
trying to go to college, really, trying to find a way. And the 
innovation is not there, and I think that was wonderful, what 
Ms. Eggleston said about having the young people involved.
    Because young people, that is who evolved us as human 
beings. They are the ones that think innovatively and come with 
new ideas. And one of the feelings for most young people is 
that we don't matter.
    I think she said an excellent point about terrorism. We 
know that that matters in America, but we don't feel as young 
people that we matter, by the way the funding goes, that there 
is not a feeling or a marketing from the government to say that 
young people matter and we don't want them homeless, we don't 
want them running away from home.
    That feeling is not there, so I think innovation and having 
more strong voices of young people to say something about it.
    Mr. Berg. If I could just add on that particular piece of 
legislation. I hope everyone, other members of the committee, 
are aware of this particular piece of legislation.
    I can't tell you the numbers, but it is maybe not like the 
worst-off kids, but the idea that young people who have been 
abandoned by their parents can't go to college because there is 
nobody to sign the financial aid forms, I find that personally 
offensive. And I am glad it has been dealt with.
    Mrs. Biggert. I hope all the members know, because if they 
sign up as co-sponsors, we can get it through much faster. So, 
thank you.
    I yield back. Thank you.
    Chairwoman McCarthy. Thank you.
    Mr. Yarmuth?
    Mr. Yarmuth. Thank you, Madam Chair.
    And to all the professionals on the panel, thank you very 
much for being here. Thanks for all you do to help with this 
serious national problem.
    Kazi, thank you for your story and for all you do.
    Rusty, you did a great job and your community is very proud 
of you, and I am very proud to be your Congressman, so thank 
you for everything you have done today.
    And Mr. Platts beat me to introducing Bill, but I will say 
that this morning, I was talking to Bill, and he mentioned the 
fact that when he was younger and people were deciding what to 
do, that all of his friends were becoming lawyers and 
politicians. I don't know who all those people were. But the 
implication may be that he hadn't chosen the right path, but I 
know he knows he did. And I know today Rusty is grateful that 
he did, and so are we.
    Kazi mentioned something that leads me to a topic that came 
up in our forum that we held a few weeks ago. And that was the 
fact that even in a community like Louisville, which has 
national Safe Place headquarters and a wide array of services 
that are available to homeless and runaway youth, that there is 
no continuum of contact with the young people who are 
disconnected.
    And they go from one service, where they do get some help 
or attention, and then they are back into the community and 
disconnected once again and they go through a series of these 
encounters with services. But nobody is there to kind of help 
them through the entire process.
    Any of the professionals who would like to comment on that, 
and with specific reference to whether they know of any models 
for providing some kind of continuum.
    Ms. Alberts. I like to think we are, and I think that what 
you have heard today in talking about the partnerships and 
collaborations, I think that is the key. You will notice in my 
written testimony, one of the things I said was to tie funding 
to collaborative efforts so that people don't feel like it is 
okay to operate in isolation when they hit a particular point 
on a spectrum of services.
    There needs to be a requirement that you know what came 
before for the child and what needs to come after, because 
children fall through the cracks. They get a little bit of this 
and they get a little bit of that. And they try to make a 
patchwork quilt out of it, and there are huge, gaping gaps in 
those services.
    This is a pet peeve of mine. I have been in nonprofit 
management for 27 years, and the reason we have the program 
that we have at the Texas Center for the Missing is that I 
recognize the need to make sure that if we are not doing it, 
somebody is doing it, all along, from the beginning to the end 
of those programs, because it is the only true way to make a 
difference. It is the only way to save those kids who need 
help.
    And communication, collaboration, partnerships, whatever it 
takes. And no territoriality. There is no my piece of the pie 
needs to be bigger than your piece of the pie.
    I don't know who the author of the quote is. It is unknown, 
but it says it is amazing what you can get accomplished when 
nobody cares who gets the credit.
    Mr. Yarmuth. Did you want to respond, Ms. Krahe-Eggleston?
    Ms. Krahe-Eggleston. I would really like to.
    Mr. Yarmuth. Sure.
    Ms. Krahe-Eggleston. I have the honor of working in a 
community that works very hard at collaboration for the young 
people that we serve. We have a small group of providers of the 
types of services that I referred to today. There is four or 
five of us in town, and we meet every week or every other week, 
at least, and talk about the cases that we have.
    The money only goes so far, so we try not to duplicate 
services. We really have those conversations across the board 
that our case managers have.
    Good case management, to me, is the key, building that 
relationship with the young person and being able to maintain 
that. Funding that we get our service that we get that are 
narrow based, where there is a finite beginning and end, it 
doesn't do our young people any good.
    What does the best for your young people is a continued 
involvement over the long haul. It is the relationship Rusty 
talked about with his workers. It is the relationship that the 
young people we are involved with--in our young moms program, 
we have been involved with moms for the last 6 years and we 
know, and they stay with us a couple years, we know where 97 
percent of those young women are today and keep in touch with 
them regularly.
    That is the key to success.
    Mr. Yarmuth. I would like to also maybe add another element 
to this discussion, and that is the connection between the 
juvenile justice system and the social services that are 
available for the homeless, because obviously many of the kids 
who are homeless and runaways end up in an encounter with the 
juvenile justice system.
    Is this something that your experiences has shown that 
works or is there sometimes too great a disconnect between the 
judicial system and the social service aspect?
    Mr. Allen. Just a brief comment, and I think these folks 
know better than I, but when I got into this, when we got into 
it, in the 1970s, the whole premise was you would have the law 
enforcement system over here that is viewing these kids in one 
way. You have the social services system over here that is 
viewing these kids in another way. And the kids get caught in 
the cracks.
    And so our whole beginning in this effort in Louisville 30 
years ago was to create a police-social work team, to kind of 
blur the traditional lines and the traditional turf battles 
between jurisdictions, between units of government and, 
frankly, I think there are models all over the country where 
that is working and working very well.
    And when you put people together, they can share 
information, even though their mindset and their approaches are 
different.
    Mr. Rolle. I had just something real brief on that. I think 
that one of the key things is the innovation. And the reason 
why I say innovation, there is a song by a guy named Justin 
Timberlake. He had a song called I am bringing sexy back. But 
if you translate that into the work that we are doing, it is 
old ideas in a new time.
    Even the funding that is for stuff like this is, to my 
understanding, the same amount that it has been many, many 
years ago, and the economy is just different. So even finding 
the people working in social services, and I know a lot of 
them, they are burnt out.
    Their bosses don't even care, because their salaries don't 
really--so that feeling that you get burnt out doing this work. 
People need things. They need you to be excited about coming to 
work and that is why they fall through the cracks in the 
juvenile justice system.
    For people doing this youth work, there needs to be 
innovation in how we deal with them. We need to make the job, 
for lack of better words, in the way that I know how to 
translate it, is sexy. People need to feel like I want to be 
involved with the youth and giving back. So that is one thing.
    And another thing, something that you asked earlier, I 
think, when we fall through the cracks is in the foster home, 
when you go back there, there is not--I think that instead of 
just placing them in a home, the whole house should now go 
under some type of training.
    In New York City, there is a place called Harlem Children's 
Zone, and that is a great model for a lot of things that he is 
talking about. But, the Harlem Children's Zone, they provide 
training from birth, when the baby is still in the womb, for 
certain families, so that those families can have that 
training.
    And it is sexy to go there and the whole environment. The 
funding is there, the whole environment says that, all right, 
our youth matter. So I would just say innovation is the key 
word.
    Mr. Yarmuth. Thank you, Madam Chair.
    Chairwoman McCarthy. You are quite welcome. When you were 
talking about burnt out, I am thinking of my nurses, all over 
the country. We are trying to work on that, too.
    Mr. Sarbanes?
    Mr. Sarbanes. Thank you, Madam Chair, for holding the 
hearing.
    I wanted first to salute Representative Biggert for her 
work on these issues. In particular, we have been working 
recently on the McKinney-Vento funning, which is critical in a 
whole host of areas in terms of keeping families together and 
combating homelessness among young people. And Representative 
Lampson, who has obviously been right on the forefront of 
dealing with issues of missing children.
    Can you quantify the extent to which the issue is about 
communication and coordination and collaboration for purposes 
of finding kids who have fallen through the cracks, versus real 
services that have to be provided through affirmative outreach?
    Because what I gather from the discussion is there is a 
certain amount of this which is just making sure that we are in 
touch with each other better, so that when kids disappear or 
run away, or are lost or missing, there is a communication 
infrastructure in place that allows you to find them and get 
them back home.
    But there is another dimension, which is reaching out to 
kids on a continuous basis and having resources behind that so 
that you can not just get them reconnected, but support that so 
that they don't fall into the cracks again. And I don't know if 
you can quantify how that splits out.
    You will probably say that they are too interrelated to 
separate, but I don't know if anybody wants to comment on that.
    Ms. Krahe-Eggleston. I think for education purposes, the 
thing that helps the most is people just knowing what is going 
on. The schools are a great place to connect with young people. 
If they know there is a safe place out there within their 
school structure and the school is aware of what is going on in 
the communities, they are a huge help.
    We have found that over and over and over again. Youngsters 
as young as 8, 9, 10 years old, know that there is a principal 
or a teacher or somebody that has the information about a 
service, whether it be in regards to homelessness or a 
multitude of services.
    But the school system, I have found, is probably one of the 
best ways to get the information out so that teachers know that 
there are services out there, so that those other significant 
people in the little ones' lives start young enough that notice 
things going on with a child and his family. And teachers are 
great at that.
    Sometimes, they don't know the resources that are out 
there. So, in my book, it is really important that the 
education process is a community-wide process about the 
services that are out there and what needs to happen, but, as 
well, it is our responsibility to get that information out.
    We spend a lot of time in the schools, mostly middle 
schools and high schools, but we get information out to all the 
counselors on a regular basis, and I think that is part of that 
prevention and early intervention piece that may avoid those 
children hitting the streets at age 16 or 14.
    Mr. Sarbanes. The other question I had is that in the 
larger committee, Education and Labor Committee, we have had 
numbers of hearings over the last few months on the issue of 
economic insecurity in the country. And I would imagine that 
you all can sense the interplay between this predatory culture 
on the one side and the economic insecurity of any families on 
the other.
    And as economic insecurity is heightened in the society, it 
leads to increased pressures on families. It helps break down 
families in ways that then makes them much more vulnerable to 
the predatory side of our society. And if you could comment on 
that, if you are seeing the trends of that sort of interplay 
between this culture and economic insecurity.
    Mr. Rolle. I experienced that. It wasn't in this country, 
but coming from a poor country, the reason why I was in that 
abusive situation was really based on that. The lady that my 
mother left me with, my mother got stuck in America and she 
couldn't leave.
    So the lady that I lived with, I was there too long and I 
became another expense. And the stress of that, and then her 
husband leaving, was the reason why I became the stress 
release. When the resources are there for people--she was a 
stepparent--so when the resources are there for people like 
her. And it goes even deeper, because the reason there are not 
resources for people like her is because the agencies that do 
the work feel as if they don't have enough resources and then 
it trickles down.
    Even the brother here, he said when his father left and his 
mother was dealing with it, she had to go through her healing, 
she needed to know that there were resources and a place for 
her, because of what she was dealing with trickled down to him, 
and it goes on.
    Ms. Krahe-Eggleston. Many, many of our young people are 
homeless due to economic issues, whether it means a parent 
became incarcerated and all of a sudden there is no more money 
at home, or that mom had another baby and you are 16, you are 
17, just go fend for yourself.
    The economic issues are huge, and we have many, many young 
people that live 10 to an apartment, just to try and get by. 
And they are okay, they are doing their best to get by.
    A lot of our young moms come to us with a garbage bag of 
clothes and that is it, and a baby on their hip, and have no 
place to go. Think about affording just diapers today. Just 
think, if you have been to the grocery store lately and bought 
a box of diapers, think about living on minimum wage, having to 
pay a portion of childcare if you don't qualify and having to 
pay for food, housing. Just the day-to-day living is almost 
impossible. And it is very hopeless for many of them.
    Mr. Sarbanes. Thanks for your testimony.
    Chairwoman McCarthy. Mr. Lampson?
    Mr. Lampson. Thank you, Madam Chair.
    Wow, what magnificent stories. It is hard to know where to 
start and I wish I were a member of your committee. It would be 
fun to work with on one hand. On the other hand, you would 
probably reach a little bit of a level of frustration because 
there probably are more questions than there are answers to 
give.
    But as I was listening to everybody's stories, the things 
that I thought of were some luck involved on the part of 
finding the right people, just happening across the right thing 
that Mr. Booker came across the Safe Place. And I want to ask 
you a question about Safe Place in just a minute.
    I keep writing down, time and time again, commitment. I 
write down the word ``money.'' Our children are an investment. 
We are choosing, it seems like, to postpone that investment, 
and instead of trying to make the resources available now, as 
difficult as it is, we are choosing to not do it and then we 
are choosing to pay for people to stay in prison or hospitals 
or to support the criminal activity that they are getting away 
with.
    For me, right now, it is hard to find the answers to the 
questions in listening to what you all are doing. I found, when 
I visited a Boys and Girls Club--I happened to have been in 
Galveston, Texas, about 2 years or so ago, when a truant 
officer brought a 12-year-old little girl in, and I got to sit 
in on the interview there with her and found out what 
difficulties that she was facing.
    She didn't have anyone to listen to her about her problems 
with education. She thought all the teachers hated her, didn't 
like her, weren't willing to help her. She thought she was 
dumb, stupid, couldn't pass classes. She was making F's in 
every subject.
    And through the course of the conversation with her, we 
found out that she did have some interests. She was interested 
in astronomy and, interestingly enough, she actually picked up 
a book on calculus to, she said, try to help herself understand 
some of that. And here is a 12-year-old reading a calculus 
book, and I don't even know what calculus is. Knowing then that 
students, kids, have great opportunities if we would but see it 
in them.
    And I want you to talk some more, Ms. Eggleston, if you 
don't mind. You talked abut this catch-22 of getting kids 
caught in a situation where they have to maintain employment in 
order to stay afloat financially. Employment prevents them from 
being able to go into school and taking opportunities, whether 
it is secondary or post-secondary, any of them.
    What can policymakers do to help right this lack of--what 
are the specific things that you would tell us to try to put 
into words, policy?
    Ms. Krahe-Eggleston. One of the first things I would do is 
talk about true age, of being able to be independent. I don't 
know how many of you are parents, but I know my children, when 
they were 18, weren't able to support themselves.
    We forget that these children are our children as well, and 
that magic across our country is a falsehood, as far as I am 
concerned. So, for me, taking a policy look at what is the age 
of majority, because that dictates a lot of things in our 
world.
    Again, I think about my own family, and these are no 
different. To me, that is really important. The other issue is 
being able to afford to do all those things that the 
affordability is impossible. Finding jobs that pay well isn't 
easy. A living wage is not $8 an hour. I don't know any 
community where you can live on $8 an hour, to be honest, if 
you are a single mom trying to raise a child.
    A lot of our issues around unaccompanied and disconnected 
young people, these are people that don't have support systems. 
These are people that don't have you or me or an aunt or uncle. 
We find that we play that role for so, so many.
    We supplement rents all the time for young people. We help 
pay utilities. We try and take care of the young people that 
are lucky enough to touch the service delivery system. There 
are a lot that don't. There are a lot that don't.
    So how do we expand that safety network? I mean, that is a 
resource issue. A lot of us raise a lot of money in our own 
communities to supplement what we get from what comes from our 
federal friends.
    Mr. Lampson. Well, the specifics are the things that are 
going to be hard. Changing the age of majority, maybe. Minimum 
wage, we already----
    Ms. Krahe-Eggleston. You are working on that.
    Mr. Lampson [continuing]. Have done.
    I want to talk at some point in time, and my time is up, 
but, Mr. Booker, I do want to find about Safe Place, because we 
have Project Safe Place in my congressional district.
    And I want to find out the comparisons. I know that it 
started in Louisville, Kentucky, at the YMCA, a great project. 
And then, obviously, some work that Ms. Alberts is doing on 
ography that we would also like to question about.
    But I just want to thank the chairwoman for allowing me to 
participate in this committee hearing today.
    Thank you so much. It is a great set of presenters.
    Chairwoman McCarthy. Thank you, Mr. Lampson.
    Just to let you know, we are going to go through, if it is 
all right with the witnesses, another set of questions. Not 
everybody wants to ask questions, but some of us do.
    As I told the witnesses earlier, I have a markup, so if I 
get up and leave, it is not anything that you said, and one of 
my colleagues will take over the chair.
    One of the things, listening to all of this, how much 
federal money do you actually get for the shelters themselves, 
or how do you operate the shelters? Where do the bricks and 
mortar come from?
    Ms. Krahe-Eggleston. Well, I can speak for myself. I think 
I will speak for many of the shelters across the country. Our 
communities are wonderful supporters of the service that we do.
    The federal money that we receive does not cover the cost 
of the services. It is the seed money that opens the door for 
other things. The shelter-specific money, in my case, covers 
about half of the ongoing expenses within our agency.
    I find money through private sources, through grants, 
through fees, through any other way I can to supplement those 
dollars. But the federal money is a base that we work from.
    Chairwoman McCarthy. The other reason that I am asking is 
because I sit on Financial Services, and with that we are 
starting a new program this year that will follow through, and 
I have to look into it and I have to bring it up to my chairman 
on that particular committee.
    But being when we are talking about, especially those that 
are transiting from ``a young teenager'' to that 18 to 21, when 
that seems to be the most vulnerable time for a lot of these 
young people, that there should be some sort of housing that 
could come out of HUD.
    Ms. Krahe-Eggleston. Well, every community deals with that 
difference. CDBG has been, for years, a good friend for many of 
us in helping to fund bricks and mortar, at least in our 
community, using our community section eight has been a place 
that we also used.
    Those kind of resources are out there if you can get to 
them. In our community, the one I come from, it is very 
friendly for those things, but every community isn't that way.
    Chairwoman McCarthy. But from that transition age, from 18 
to 21, is it better for them to have their own apartment, 
because you had mentioned at 18 it is kind of hard to be on 
your own, or would it be better that there would be almost like 
a group home type thing, with three or four young people 
together and maybe one house mother, house dad?
    Ms. Krahe-Eggleston. There are many, many wonderful program 
models, including all that you said. There are apartment 
complexes across the country that have developed it. Kids have 
their own little piece of that apartment complex. There are 
housing units that are, again, the example you gave, many kids 
live there and there are staff members that come and go.
    I think the key to all this is that caring adult more than 
anything else. All these programs are just different 
environments. Is there one that works for every child, 
absolutely not.
    Chairwoman McCarthy. Does anyone else have any?
    The other thing, just going through, thinking about what 
each and every one of you has said, from a young child, teenage 
years, foster homes, shelters. We also deal with juvenile 
justice on this committee.
    Last week, we passed mental parity. Hopefully, we will have 
resources out there to help, again, more students.
    But when a young person is in the juvenile justice system, 
or a young person might even be in prison, they come out and 
they are homeless. And they would have a record, which there is 
a big debate going on in Congress, because a lot of times then 
they can't get a job.
    Prison, if you really look at the term, means 
rehabilitation, depending on what the crime was, obviously. But 
a lot of our young people that do go to prison, and I talk to 
my correction guys all the time, one of the things that they 
are lacking is they need mental health, most of them, and they 
need to get a high school education because most of them have 
learning problems.
    So, again, when I say I look at things holistically, my 
mind is going from one pot to the other pot and how do we bring 
it all together? I think we have our work cut out for us on 
this committee on how we are going to be able to pull these 
things out.
    And one of the things that Mr. Platts and I have tried to 
do on this committee is to have more joint hearings. When we 
did juvenile justice, we brought in the Juvenile Justice 
Committee also, so we had a joint hearing so we can try and 
figure out, how can we work together? And I hope that we will 
be able to continue doing that in the future for other 
hearings.
    Mr. Platts?
    Mr. Platts. Thank you, Madam Chair.
    As a parent, one of the things that has just been, I guess, 
startling in both the testimony, again, written and oral, is 
just the numbers. The national numbers of 600,000-plus missing 
in a year, the 1.6 million-plus runaways.
    In the survey, Ms. Krahe-Eggleston, that you referenced in 
your testimony, that 6 percent are 12 or under in a typical 
year, seeking your services, and especially startling that 28 
percent had attempted suicide.
    As a nation, the alarm bell should be going off, when you 
look at number after number, and certainly each of you 
understand that. And we need to do a better job at it.
    I don't know if you can give me an answer on how we can do 
a better job, and it is the funding side. For the various 
programs, I don't know if you have available to you today or a 
ballpark of what you spend per child that you serve in a year 
on average and what percentage, in a percent standpoint, or a 
dollar standpoint, is from either the federal government 
specifically from these programs that we are talking about 
reauthorizing and funding or from taxpayers, federal state and 
local.
    And that may not be something that you readily have 
available.
    Ms. Alberts. I can tell you right off the bat, it costs us 
about $10 per client per year, and we get zero of any kind of 
government funding. It is all private.
    So the passion I hope that you hear in my testimony and 
what I am talking about, it is there always and this is to me 
why I lie awake at night. It is not only these missing kids and 
the roughly 4 to 8 percent that will never be located in our 
country, but the fact that I, unfortunately at times throughout 
the year wonder where my next paycheck is going to come from.
    Because, again, I am going to use that patchwork quilt 
corollary for our budget is like that. We are literally 
scrambling constantly, looking for funds and trying not to do 
what unfortunately I have seen programs do in the past, which 
is mission drift and have their mission follow funding as 
opposed to seeking funds that actually do fit the mission.
    But none of these things are easy answers. Like I said, 27 
years of nonprofit management, and these social issues are 
dramatic. I really applaud your efforts to bite off a big piece 
of this, but, again, I am going to tell you, It is 
communication and collaboration, as well as funding and caring, 
committed folks that will stay in the field.
    Ms. Krahe-Eggleston. In my written testimony, there are 
some examples of cost-benefit on a national, especially with 
the Transitional Living Services. So you could pull some of 
that information, or we could get you some more on that line.
    But, most of us, it is a combination of resources that make 
this work. Because the RHY funds have been flat for so very 
long, in order to continue to do the work we do, we have to 
figure out ways to supplement other ways.
    And if I just want to add a little bit to something that 
was just mentioned, I know I am taking up your time. But the 
issue of work force is a huge issue for us. And I know that 
there are some issues on the table around college and waiving--
--
    Mr. Platts. Forgiveness and things?
    Ms. Krahe-Eggleston. That would be a huge gift in our 
field. You would have more people coming to our field. And that 
work force issue is one that as an executive director I am 
challenged with daily, daily.
    Mr. Platts. Thank you.
    Mr. Rolle. Can I just say to that?
    Mr. Platts. Yes, sure.
    Mr. Rolle. I just want to second the last thing she said. 
Go back to that innovation, it means innovator. That is the 
same work that I do with the Hip-Hop Project. The Hip-Hop 
culture has transcended from this subculture within the United 
States to a global culture, and all of the young people respond 
to that.
    One of the things--Madam Chairperson just left--that she 
said was that she tried do this kind of joint work, meaning 
bringing the stuff that is going on in the jails with the 
social services.
    So it is the same thing we are finding in education, that a 
lot of people don't want to get in education, or kids don't 
think that that is cool, to be in education and understand 
their work. So a lot of the work that I am doing within hip-hop 
is to try to explain to these artists, and work with young 
people before they become these successful artists that their 
work is joint.
    Jay-Z, do you know who Jay-Z is? Somebody like Jay-Z, who 
is like God out there in the realm of hip-hop and the idol of 
those guys who are going to jail, half of the reason they are 
going to jail is they want to be the next Jay-Z. But they don't 
know that Jay-Z may not realize the power that he has.
    If he said, ``We are going to go to school.'' Or the fact, 
if he was here today, the power and influence that he can have 
with what he has within the culture of hip-hop that is global 
to really say something and do something.
    So I just say that I second what she says in that the field 
of education, the field of social work, is not cool to get into 
mainly because people don't feel that they can take care of 
their families. It is something that they are doing unless 
there is just a passion there.
    Mr. Platts. And I see my time is up.
    And maybe just a final comment, Mr. Chairman, and it kind 
of follows on Kazi's kind of broad picture here, is that while 
today's hearing is specifically the Runaway and Homeless Youth 
Act, Missing Children's Assistance Act, that issues, mental 
health parity that the chair had referenced.
    There is legislation that Danny Davis and I are sponsoring, 
education begins at home. It is about teaching parenting skills 
to low-income new parents, to how to establish a good home 
setting for their newborns, their children, counseling services 
in our schools.
    All those in the end relate to kind of the underlying 
problems that drive to this issue. And that while we are 
focused on these acts, that we also need to be advocates and 
pursuing those issues, as well.
    Thank you, Mr. Chairman.
    Mr. Grijalva [presiding]. Thank you, sir.
    And let me turn to Mr. Yarmuth for any additional questions 
you might have.
    Mr. Yarmuth. Thank you, Mr. Chairman. I just have one thing 
I would like to pursue.
    We talk a lot about numbers in this topic, and I think the 
value of this hearing is to hear from Kazi and Rusty, people 
who put a human face on these stories, but numbers are 
important when we are talking about legislation and planning 
and budgeting and so forth.
    But I would like to ask Mr. Berg, is the methodology we use 
to kind of make estimates about homeless, runaway kids in this 
country adequate, or are there some things that we ought to be 
doing to give us a better, more accurate picture of what we are 
dealing with?
    Mr. Berg. You can draw some conclusions from the evidence 
that exists, but I think there is definitely a need for a 
better job of knowing how big the problem is and some of the 
other dimensions of it. I think the adult homeless system has 
been working a lot on that over the last few years.
    The system that is in place in the runaway, homeless youth 
programs is good and provides a lot of good data, but not 
everyone is in that system. I think there is a lot to be said 
to getting a better handle and investing a little bit on 
getting a better handle on the size of the problem.
    Mr. Yarmuth. Mr. Allen, you have dealt with this, too. What 
are your thoughts?
    Mr. Allen. Yes, I think there is a significant need for 
better data across the board. In the area of missing children, 
what is called runaway, thrown away children, the Justice 
Department research, it is done once a decade. So we are still 
citing data from 1999 research, which was released in 2000.
    One of the things that we are working on now with various 
parts of the Justice Department is I think it is very important 
that there be an annualized data set, drawn from existing data 
sources.
    One of the problems right now is that the NCIC reports, the 
National Crime Information Center, reorts at the FBI really 
don't break out reported missing children by usable categories. 
So it is a huge challenge, but frankly I think there ought to 
be numbers in this field, just like there are numbers in the 
Uniform Crime Reports that tell us how many burglaries and how 
many auto thefts there are a year. Because we need to be able 
to track this year to year to have a better sense of whether we 
are making progress or not.
    Mr. Yarmuth. Okay, thank you very much.
    Thank you, Mr. Chairman.
    Oh, I am sorry.
    Ms. Alberts. I just want to second that emotion. This is 
the only field that had the dearth of information and data. 
When I ran the substance abuse program, I could wake up on any 
day and tell you roughly how many kids were using what drug in 
the high schools. The data, particularly funding sources, they 
want that data. They don't want it to just be anecdotal, I know 
we are doing great stuff and here is why. We need that data.
    Thank you, that is huge.
    Mr. Berg. And I think this relates to what Mr. Grijalva 
said before, which is the feeling of sort of like we have had 
this problem forever and we just learned to tolerate it.
    On homelessness, people support doing something about 
homeless. They support it a lot, but they believe there is 
nothing that can be done, which is not the case. But we need to 
be able to have data to show people, show the public, that we 
are succeeding at this. We have programs that work. We can have 
whole communities that are reducing the number of homeless 
people.
    Without a functioning data system, or without a very good 
data system, you won't be able to make that case.
    Mr. Yarmuth. Thank you, Mr. Chairman.
    Mr. Grijalva. Thank you, sir.
    And let me turn to Mrs. Biggert for any questions she might 
have.
    Mrs. Biggert. Thank you, Mr. Chairman.
    I just wanted to ask Rusty, after you have listened to all 
of the talk here, if you have any ideas on how best to spread 
the word about the Safe Place for other children who have found 
themselves in the same situation. From all this talk, I think 
you were very fortunate to have found that place.
    Mr. Booker. I think so far they are doing good, but they 
could make a lot of improvements. The public signs that they 
have in Louisville, they have them on TARC buses, the 
libraries. Safe Place, White Castle donated $30,000 to Safe 
Place, and that White Castle was made a place where a child or 
a teenager can go and ask for a Safe Place to get help.
    But I feel that there are more places and more things that 
can be done, and we all need to work together to see what can 
be done.
    Mrs. Biggert. Well, I really was taken by your story, and I 
have to ask you, did your brother had the opportunities that 
you had? Did he do all right?
    Mr. Booker. My brother is currently locked up until he is 
18. And, yes, he did have some of the opportunities I had, but 
he really had nobody to help him after he got through those 
opportunities.
    Mrs. Biggert. A while back, after Columbine, we had a task 
force here of members of Congress. We heard from a lot of 
experts and did field hearings. But the one thing that was so 
true is that violence begets violence and it usually starts 
with the back of a hand, and that is usually a parent.
    We see all the things that happen and they are so terrible, 
so I really applaud you for finding your way and hope that 
there will be a lot of other children that will be able to do 
that.
    Thank you for being here.
    I yield back.
    Mr. Grijalva. Thank you.
    Mr. Lampson, questions?
    Mr. Lampson. Thank you, Mr. Chairman.
    I wanted you to talk about Safe Place, and you did, so 
thank you, you got that in.
    Ms. Alberts, we spend, $7,000, $8,000 a year on a child in 
school. What does the state of Texas appropriate each year for 
programs for children who are not in school?
    Ms. Alberts. Not enough.
    Mr. Lampson. Do you have any idea?
    Ms. Alberts. We usually fall pretty low on the totem pole. 
There are no specific funds in the state of Texas for the type 
of work that we do.
    Mr. Lampson. No specific funds available for what you are 
doing.
    Ms. Alberts. No. We have worked a lot in the runaway 
community with Covenant House and some of the law enforcement 
agencies, and there are some small bits of money that they 
piece together, but there is nothing comprehensive.
    Mr. Lampson. How do they get it? Do they get it through 
grants?
    Ms. Alberts. Yes, yes.
    Mr. Lampson. As far as an appropriation that would go to 
every county or to every child, there is not. Do you know of 
any programs at the federal level?
    Ms. Alberts. No, I am not familiar with any program that 
looks at that at all, that deals with that, that services that.
    Mr. Lampson. And what about at the federal level? Is there 
anything that anyone knows about? Obviously, there is some 
appropriation at the National Center for Missing and Exploited 
Children, but is there anything that filters down to Child 
Protective Services or other programs that will be able to grab 
hold of a child and help point them into a program?
    When I mentioned the little girl a while ago, we got her 
into three different places to live. And the little-bitty bit 
of funds that they had ran out and all three programs closed 
while she was participating. We had to get one and move her to 
another and so on.
    People try, they are, but if they don't have the resources 
to be able to do it, it is not going to succeed.
    What were you going to say, Ms. Eggleston?
    Ms. Krahe-Eggleston. Many states do nothing, many states 
and local communities.
    There are a few states, and I am not sure of the specifics. 
I can tell you which states do and don't. I can get that 
information to you.
    In Arizona, we have about less than $0.5 million a year 
that is spread out amongst our communities.
    Mr. Lampson. What is the best state that you know of? And 
is there one that could be piloted, or could be copied, where 
we find some way that we might do something that would be 
beneficial?
    Ms. Krahe-Eggleston. I don't know that I can tell you that 
right now, but I can give that to you.
    Mr. Lampson. I would appreciate it if you would. Would you 
all rather see grant programs and let the people somehow or 
other apply for money? Or would you like to see some kind of 
mechanism to get money into specific agencies that might be 
able to help locally? Would you comment on that? Anybody, all 
of you.
    Ms. Krahe-Eggleston. What would I like? Any of those would 
be nice.
    I think recognizing those groups in the communities that 
have experience. I think the challenges that we have with 
grants, state grants, have to do with procurement issues and 
laws around how money can be sorted out through the states. At 
least in our state, there are laws around how money can be 
allocated.
    It just can't go to any program. You have to go through a 
process to get it. Private money, we are always applying. Most 
of us apply a lot to a lot of private--you heard White Castle. 
White Castle does stuff in Kentucky. Our local electric company 
in Tucson does a lot for a lot of us. We need all of them.
    Mr. Lampson. Ms. Alberts, were you going to say something?
    Ms. Alberts. I was going to say, one of the things that we 
talked about, I thought about something after we finished. The 
Harris County Sheriff's Office is the only agency in our area 
that has a specific runaway division. They actually have a 
squad of officers to deal with that problem, and it is very 
successful in how it can be, given its scope.
    And they are tied in well with the social service agencies 
in the area. But I think runaway and homeless youth, I think 
looking at what happens to a child, the bulk of the resources 
for a law enforcement agency are spent picking up those 
runaways and taking them home.
    That is another of those areas where it is not against the 
law to run away. There is nothing that can be done. 
Occasionally a judge will say somebody has to do community 
service or something. I think that is another one of those 
places that we might look at trying to figure out how to 
intervene there.
    Mr. Allen. A quick comment, and I think this is more 
historic, and these folks may be able to correct me. But what 
we hear from the runaway community is that the Runaway and 
Homeless Youth Act is helpful in terms of a certain level of 
support, but particularly in the areas of the more difficult 
problems, the chronic runners, there becomes a place where 
there really aren't resources to address the kids with the most 
serious needs.
    We hear from communities all the time, that they are 
funding for shelters for the first time a kid runs, or for the 
early part of the episode. But the really longer term, the 
chronic, the most serious challenge. Really, this is the 
problem that is answered simply through resources.
    Mr. Lampson. If there were going to be a comprehensive 
study, who would do it? Who should do it? About what you were 
speaking of a little while ago, Mr. Allen?
    Mr. Allen. Are you talking about data? Are you talking 
about a study of what the best models are and where the gaps 
are?
    Mr. Lampson. Both.
    Mr. Allen. Well, historically, as it relates to data, what 
the government has done has been to go to universities and God 
bless universities and the work they do, but that is expensive. 
I think we need to develop a systematized way to capture data, 
reported data, and interpret it.
    For example, that is what we are trying to do on the whole 
area of missing children. There are police reports all the 
time. Maybe we don't have it for all 50 states, but maybe it 
can be extrapolated----
    Mr. Lampson. Would the National Center be the appropriate 
place to go for that, or would one of the federal agencies?
    Mr. Allen. I think the National Center, with the National 
Institute of Justice, or the Bureau of Justice Statistics or 
somebody like that, the people who are already capturing data.
    As it relates to the runaway and homeless youth community, 
I am not sure, but I think that same model can be replicated. 
In terms of who should develop the models for identifying where 
the gaps are, I think you go to the leadership of the national 
runaway community and you gather the experts and you say this 
is where services are adequate, this is where services are not. 
Here is the void and here is what it would cost to fill that 
void, based upon the numbers of kids who are identified in 
these services.
    Mr. Lampson. Thank you.
    Thank you, Mr. Chairman.
    Mr. Grijalva. Let me on behalf of the chair, the ranking 
member and the members of this committee thank each and every 
one of you for your testimony. It is invaluable as we go 
through this reauthorization process.
    Much of what was said, I personally felt that the issues 
that we talked about and the chair mentioned it, not only this 
reauthorization, but how we are conscious with every piece of 
legislation that we are working with, that we are integrating 
this group of young people into that process, be it health 
care, be it education, be it the issue of economics, be it the 
issue of reentry for people coming out of the justice system. I 
think all those are valuable things that we need to be 
conscious of as we go along.
    But, with that said, let me thank you very much as we go 
forward.
    As we conclude this hearing, I would like to invite 
everyone to the reception that is being sponsored by the 
National Network for Youth, shining a light on youth 
homelessness. Mr. Platts and Chairwoman McCarthy are serving as 
honorary co-sponsors of this event.
    One of our witnesses, Kazi, will speak with homeless youth 
of D.C. and share clips from the documentary, the Hip-Hop 
Project. It is going to be in room B-369 of the Rayburn 
Building, of this building, at 6:30.
    As previously ordered, members will have 14 days to submit 
additional materials for the hearing. Any member who wishes to 
submit follow-up questions in writing to the witnesses should 
coordinate with majority staff within the requisite time.
    And, with that, without objection, this hearing is 
adjourned. Thank you.
    [The prepared statement of Mr. Altmire follows:]

Prepared Statement of Hon. Jason Altmire, a Representative in Congress 
                     From the State of Pennsylvania

    Thank you, Madam Chair, for holding this hearing on runaway, 
homeless and missing children.
    It is estimated that between 1 million and 1.7 million youth 
experience homelessness on a yearly basis. Some of these children are 
homeless for a few nights while others are homeless for long periods of 
time. Youth who become homeless run a high risk of being physically or 
sexually abused and are also more likely than their peers to engage in 
high risk behaviors.
    Title III of the Juvenile Justice and Delinquency Prevention Act 
authorizes federal programs that help combat youth homelessness. As 
Congress reauthorizes the Juvenile Justice and Delinquency Prevention 
Act I hope that we study how to improve the programs authorized by 
title III.
    Thank you again, Madam Chair, for holding this hearing. I look 
forward to continuing to work with you on this important issue. I yield 
back the balance of my time.
                                 ______
                                 
    [Whereupon, at 5:05 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
